<html>
<title> - State, Foreign Operations, and Related Programs Appropriations for Fiscal Year 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-192, Dirksen Senate Office Building, Hon. Lindsey 
Graham (chairman) presiding.
    Present: Senators Graham, Kirk, Blunt, Boozman, Moran, 
Lankford, Daines, Leahy, Durbin, Coons, Merkley, and Murphy.

                        U.S. DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. JOHN F. KERRY, SECRETARY


              opening statement of senator lindsey graham


    Senator Graham. The committee will come to order.
    It is my pleasure to have Secretary Kerry with us today. We 
all look forward to your testimony, Mr. Secretary. I just want 
to acknowledge your hard work on behalf of our Nation. You are 
very energetic, traveling from one end of the globe to the 
other, trying to bring some calm out of chaos.
    As to the subcommittee itself, I am now the chairman. I 
appreciate the honor of chairing the subcommittee, but my 
partner, Senator Leahy, we will continue to do what we have 
been doing since I have been here, and that is work together 
for the common good.
    This is one account that has been bipartisan. We intend to 
keep it that way. It represents 1 percent of the Federal 
budget, give or take a bit. The amount of return on investment 
the American taxpayer has achieved from this account I think is 
something we should all be proud of.
    There is more than one way to deal with a problem. The 
military options are sometimes the most talked about, and there 
are other ways to engage the world. This account represents 
ways to engage the world without the use of military force.
    I worry deeply about the effects of sequestration, Mr. 
Secretary, on this account. We are due to spend 2.3 percent of 
GDP, somewhere in that range, on defense by the 2024 period. 
That will be the lowest amount we spend on our national defense 
in decades. This account, which I believe is national defense 
in another form, gets dramatically reduced.
    What does that mean? It means that all the efforts we have 
made to counter malaria and AIDS in Africa and throughout the 
world are put in jeopardy. We have made such progress. Mother-
to-child AIDS transmission has been dramatically reduced. There 
are countries on the continent of Africa that are inside the 
10-yard line in terms of eradicating their AIDS problems. We 
are turning the corner on malaria and almost eradicated polio.
    The developing world needs America now more than ever. From 
an American taxpayer point of view, this has been a good 
investment to bring stability, particularly to the continent of 
Africa. All is in jeopardy if the Congress continues to sit on 
the sidelines and watch sequestration being implemented.
    Finally, Embassy security. The entire State Department's 
budget is under the appropriation of this subcommittee. To the 
diplomats and the contractors who are serving in faraway places 
with strange sounding names, God bless you. We worry about your 
safety daily. I am here to say, from my point of view as 
chairman of the subcommittee, if sequestration is not somehow 
moderated or replaced, we are putting in jeopardy the ability 
to post people overseas in dangerous areas safely. That, to me, 
is not an alarmist view. It is reality.
    So I look forward to hearing from the Secretary about a 
variety of challenges throughout the world, and would love to 
hear your comments about the effects of sequestration on your 
ability to manage the department. You have a hard stop at noon, 
so we will try to get through the 7-minute rounds.
    With that, I will turn it over to Senator Leahy.


                 statement of senator patrick j. leahy


    Senator Leahy. Thank you, Mr. Chairman. I congratulate you 
in the way your staff worked with me and my staff throughout 
the years. The chairman was right in saying that this is a 
committee where we are pretty transparent. We try to work in a 
bipartisan way. I remember Senators Dan Inouye and Ted Stevens 
doing that. I did it with Senator McConnell. We went back and 
forth. Part of the time, I was chairman. Part of the time, he 
was chairman. And then it was Senator Gregg in New Hampshire, 
and now Senator Graham.
    We did work closely together. Our bill was one of the few 
that came out with virtually unanimous support. We tried to 
check the priorities of whoever was in the White House, whether 
it was a Democrat or Republican as President.
    One of the things we tried to do also was to give the view 
to the rest of the world that we are a lot stronger when we 
work together.
    Mr. Secretary, you have one of the most difficult jobs in 
the world. We have known each other for decades. I have talked 
to you about your travels, your indefatigable travels. But the 
world seems to be on fire, sometimes literally, in so many 
parts of the world.
    We had a 14-year war in Afghanistan that set wildly 
optimistic goals. But today, much of that country remains under 
Taliban control with a weak central government. The government 
I believe we should support struggles to function in a highly 
insecure and corrupt environment. We had tens of billions of 
dollars in aid programs implemented by U.S. contractors, very 
little of that can be or will be sustained by the Afghans.
    In Iraq, we spent hundreds of billions while dire needs in 
other parts of the world, including our own hemisphere, to say 
nothing about our own country, were neglected. But there it is, 
an unstable, corrupt environment. I believe the future is 
anything but secure.
    Syria is the world's biggest disaster. Libya looks like it 
can become another Syria.
    Relations between Israelis and Palestinians have gone from 
bad to worse, and we are at a decisive point with Iran.
    ISIL has emerged seemingly out of nowhere. It is probably 
the best illustration of how naive some were to think that 
launching a war to overthrow Saddam Hussein meant that we were 
going to be created in that area as liberators.
    I have more of my statement that I will put in my record.
    But look at Central America. Decades of corrupt 
oligarchies, civil wars, despots. Governments there have 
squandered the past two decades. Now you have organized crime 
and corruption deeply rooted, widespread. I do welcome a new 
focus in that region, but I want to make sure that the billions 
that are being requested are going to be spent differently than 
they were in the past.
    Then we have Ebola, HIV/AIDS, spiraling cost of U.N. 
peacekeeping, global warming. There is a lot going on.
    I do commend the administration. I have spoken to you 
privately and the President about this.
    I realized that 50 years of policy on Cuba hadn't worked. I 
think of the memos sent to the President, to hold tough and 
those Castros will be gone any day now. Of course, the first 
such memo was sent to President Eisenhower and then President 
Kennedy and President Johnson, President Nixon, and so on.


                           prepared statement


    So I think it won't change overnight, but the nice thing 
now is that the mistakes made in Cuba and the failures of their 
own economy, the Cuban Government can no longer blame it on us 
because of our embargo. They are going to have to take 
responsibility for their own mistakes.
    I will put my full statement in the record.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Thank you Mr. Chairman. This is Senator Graham's first hearing as 
chairman of this subcommittee, and I congratulate him and thank him for 
the way he and his staff have worked with me and my staff over the 
years.
    This subcommittee has a history of bipartisanship.
    I remember 30 years ago when Senators Dan Inouye and Bob Kasten 
worked together, and myself with Senator McConnell, Senator Gregg, and 
since then with Senator Graham.
    I have served as chairman and ranking member. We have switched back 
and forth. But unlike some committees we have worked in a transparent, 
cooperative way, drafting the bills and reports together.
    We include the priorities of both sides, which has made it possible 
to report bills with strong bipartisan votes and the support of the 
White House--whether Republican or Democrat.
    In a world as dangerous as today, we are far stronger when we act 
together.
    Mr. Secretary, thank you for being here. You have one of the most 
difficult jobs in the Government. The world seems to be on fire--
literally or figuratively--in so many places it is hard to keep track. 
We appreciate that you are here requesting the resources to try to put 
those fires out.
    I think today we are reaping some of what we have sowed. After a 14 
year war in Afghanistan that set wildly optimistic goals, much of that 
country remains under Taliban control. A weak central government--a 
government I believe we should support--struggles to function in a 
highly insecure and corrupt environment.
    After tens of billions of dollars on aid programs implemented by 
U.S. contractors, very little of our investment can be sustained by the 
Afghans.
    In Iraq, where we spent hundreds of billions while dire needs in 
other parts of the world--including our own hemisphere--were neglected, 
there is a similarly unstable, corrupt environment where the future is 
anything but secure.
    In the meantime, Syria is the world's biggest disaster, Libya looks 
like it is becoming another Syria, relations between Israelis and 
Palestinians have gone from bad to worse, and we are approaching a 
decisive point in the negotiations with Iran.
    To top it off, ISIL has emerged seemingly out of nowhere, which is 
perhaps the best illustration of how little the past administration 
knew it was risking when it confidently, and naively, launched a war to 
overthrow Saddam Hussein expecting to be greeted as liberators.
    Our history is replete with examples of enormously costly, failed 
attempts to control events--or to ally ourselves with repressive, 
corrupt regimes--in parts of the world we don't understand, seemingly 
oblivious to the long-term consequences.
    I respect President Obama for wanting to avoid repeating those 
mistakes, and I am interested in hearing your ideas for how to do that.
    In Central America, after decades of corrupt oligarchies, civil 
wars and death squads, governments there have squandered the past two 
decades. Poverty, violence, organized crime and corruption are now 
deeply rooted and widespread.
    I welcome the administration's new focus on that region, but I want 
to hear how the billion dollar initiative you propose is substantially 
different from the billions we have spent there already.
    Then there is Ebola and HIV/AIDS, the spiraling cost of UN 
peacekeeping, global warming--the list of challenges for you and this 
subcommittee is almost endless.
    I want to commend you for the change in our policy toward Cuba, 
which has been praised by our allies in this hemisphere.
    I hope the Congress will do its part by ending the embargo, which 
has failed to achieve any of its objectives. Then the Cuban people will 
see that it is their own government, not the United States that is to 
blame for the poverty and repression.
    Your fiscal year 2016 budget request--with exceptions like the 
funding for Central America, the Green Climate Fund, and the State 
Department's and the United States Agency for International 
Development's (USAID) operating budgets--looks a lot like last year.
    It will, like most years, require us to make hard choices. I want 
to work with you and Chairman Graham because I think we can do a much 
better job of getting what we pay for.

    Senator Graham. Thank you, Senator Leahy.
    I have asked the Office of Inspector General to submit 
written testimony on the budget request, which will appear in 
the record following Secretary Kerry's opening statement.

                SUMMARY STATEMENT OF HON. JOHN F. KERRY

    Welcome, Secretary Kerry. We look forward to testimony.
    Secretary Kerry. Well, Mr. Chairman, thank you very, very 
much. It is really a pleasure to be here with you today and 
with all my former colleagues and some non-former. But I deeply 
appreciate the opportunity to testify.
    And I welcome your chairmanship, Mr. Chairman, and Ranking 
Member Leahy's continued efforts on this committee. I have 
always found this committee has worked very hard to be 
bipartisan or apolitical, and find the important middle ground 
for America, and I appreciate those efforts.
    To respect your time, I am going to summarize. The heart of 
my message, Mr. Chairman, is really pretty straightforward, and 
you spoke to it in your own opening. We do an awful lot on very 
little, and the simple reality is that America is leading all 
around the world. I am not going to go through all the places 
where we are literally taking the lead and making things 
happen, whether it is pushing back in parts of Asia against 
potentially aggressive behavior; or it is Ebola, the coalition 
to deal with that; the ISIL coalition; Syria; Ukraine, Europe, 
sanctions; the effort to negotiate with Iran. I can run a long 
list.
    The bottom line I want to make to all of you is, we are a 
great country, and we need to behave like a great country. And 
when it comes to the issue of sequestration, it is kind of a 
public admission that the Congress is unwilling to or unable to 
make choices.
    Our job is to make choices, all of us. And the simple fact 
is we cannot lead, we cannot do what we need to do in the 
world, on the cheap. As this committee knows well, the funds 
that we devote to the entire range of foreign policy 
programming, everything from our counterterrorism to 
nonproliferation initiatives, to helping businesspeople and 
travelers be able to open doors, get their visas, move through 
rapidly, do business in various countries, all of which creates 
jobs here at home, may I add, all of that amounts to less than 
1 percent of the Federal budget. And yet it is not an 
exaggeration to say that that 1 percent probably has an impact 
on 50 percent or more of the history that will be written about 
this era.
    So I invite members of this committee to work with me and 
my colleagues to shape that history in ways that will advance 
our Nation's interests and uphold the values that our citizens 
represent. And that is really what a budget is. It is a 
statement of your priorities and of your values.

                               ISIL-DAESH

    Now, one place to begin is with our efforts to mobilize 
countries everywhere to counter violent terrorism. Last week 
here in Washington, but every day around the globe, literally, 
we are preparing and acting to confront this challenge, and it 
goes well beyond ISIL or Daesh, although Daesh, obviously, is a 
central part of it.
    Since September, we have put together a coalition of more 
than 60 countries, with five Arab nations joining us in the 
efforts in Syria today. We have launched some 2,500 airstrikes 
in Iraq and Syria. And whenever we have combined our air 
support with able partners on the ground, the terrorists have 
literally been routed.
    We have helped the Iraqis to take back territory. 
Approximately 30 percent of the territory that had been gained 
by ISIL has now been restored to Iraqi hands. And we are 
training the Iraqis and preparing for the moment where they can 
do more. Thousands of ISIL-Daesh leaders have been taken off 
the battlefield. We are undertaking a global effort to restrict 
their revenues, curb the recruitment of foreign fighters. And 
we are engaged in a round-the-clock campaign to rebut the 
terrorist messaging on social media and on other outlets.
    Now, we are in the early stages of what is going to be a 
multiyear effort, but the momentum that ISIL had built up last 
fall, last summer, has dissipated. A key supply line has been 
completely severed. ISIL militants can no longer maneuver out 
in the open the way they did before. Convoys can't move, and 
they can't talk to each other the way they used to.
    Throughout, the coalition has been working closely with 
Iraq. We have said from day one: President Obama made the right 
choice in saying that he was going to calibrate the early 
bombing in order to try to make certain that we had a 
government transition in Iraq that gave us a government we 
could work with. And frankly, with pretty effective diplomacy 
on the ground--with our ambassador, our assistant secretary, 
the Vice President, others--we were able to help the Iraqis 
themselves to make that transition. And now we have an 
inclusive government backed by professional security forces 
that are enjoying the full support of its people.
    So we are looking to you for the resources to help us be 
able to continue to bring Sunni tribal leaders more fully into 
this process. It is also important that Iraqis speak against 
Daesh with one voice. And it is vital that Americans and the 
rest of our partners do so as well. The leaders of Daesh have 
to understand that they are not going to divide us, and they 
are not going to beat us.
    Earlier this month, the President transmitted to Congress a 
draft Authorization for Use of Military Force. It reflects our 
views, but frankly, it profited greatly from the testimony that 
I gave the Foreign Relations Committee last December and the 
discussions we had on the Hill.
    Mr. Chairman, bringing people together and finding answers 
to these tough challenges is what we do in our country, I think 
pretty darn well. And if we get caught trying to make a 
difference in many of these places, then we are living up to 
what the world expects from us.

                                UKRAINE

    In Europe, we have been supporting Ukraine. We can go into 
that in some greater detail. I won't tie it all up now, except 
to say that we are working also on the bilateral economic 
reforms necessary through the IMF. And while the situation in 
the east obviously still remains very tricky, very tenuous, 
even grim, the ultimate outcome is undecided, and Ukrainians 
are coming together to rebuild their own democracy. And Europe 
is standing firm, and Russia is paying a very significant 
price.

                                  IRAN

    We are focused, obviously, on Iran. The President has made 
clear, and I can't state this more firmly, the policy is Iran 
will not get a nuclear weapon. And anybody running around right 
now jumping in to say, ``Well, we don't like the deal,'' or 
this or that, doesn't know what the deal is. There is no deal 
yet. And I caution people to wait to see what these 
negotiations produce.
    Since 2013, we have been testing whether or not we can 
achieve that goal diplomatically. I don't know yet. But it is 
the most effective way to solve the problem, and we will prove 
that over the course of these next weeks and months.
    The P5-plus-1 talks have made inroads since the Joint Plan 
of Action. We have halted the progress of Tehran's nuclear 
program. We have gained unprecedented insight into it. And we 
expect to know soon whether or not Iran is willing to put 
together an acceptable and verifiable plan.

                                  CUBA

    As you know, in December, President Obama announced plans 
to normalize relations with Cuba. Last month, Assistant 
Secretary of State Jacobson went to the island for historic 
meetings with the government. The next meeting will take place 
here on Friday. We will exclusively be talking about the road 
to the diplomatic process.
    But she conveyed the message echoed by many of you that 
America's support for democratic reforms, human rights, 
Internet freedom, and the release of political prisoners is 
unequivocal. And the change that we are making, we believe, 
actually assists the United States to be able to promote the 
democracy and the rights that we want for the people of Cuba. 
It will also make it harder for those who want to close the 
door to blame America for what is happening there, and we 
believe, in the end, can help create accountability for the 
hardships that those folks live under.

                              AFGHANISTAN

    So, Mr. Chairman, much has happened since my last budget 
testimony. For example, in the wake of a fractious election, we 
have helped Afghanistan's new unity government to come together 
to build on the past economic and social progress and take full 
responsibility for the security of its citizens. I was 
intimately involved in both negotiating the BSA and this 
transition. And I can tell you there is a very different 
process of governance now taking hold in Kabul, in Afghanistan.

                                 SYRIA

    In addition, we led a successful international effort that 
eliminated Syria's declared stockpile of chemical weapons, 
placing those weapons beyond the reach of both government 
forces and terrorists.
    And I ask you just to stop and think: If we hadn't done 
that--there were many people saying all you have to do is drop 
a bomb or two. Well, a bomb or two would not have gotten the 
weapons out. Diplomacy got the weapons out. And thank God they 
are out, because if they weren't, ISIS, which controls a 
significant portion of Syria, would have access to them.

                                  ASIA

    So we have been modernizing our alliances in the Asia 
Pacific, maintaining our steadfast support for the 
denuclearized Korean Peninsula. We are pursuing ambitious trade 
agreements in Europe and Asia. And last August, as you know, 
President Obama hosted a historic summit with African leaders. 
Especially, we are moving forward in the areas of food 
security, youth leadership, and the economic participation of 
women.

                              PEACEKEEPING

    We have supported peace operations by the U.N. and African 
Union to save civilian lives. And our former colleague Russ 
Feingold did an outstanding job of serving as a special envoy 
to the Great Lakes region in helping to negotiate an end to the 
violence with M23 and a process for the disarmament, which we 
are now working on enforcing.

                                HIV/AIDS

    We have PEPFAR, which you mentioned, Mr. Chairman. With 
congressional support, we have been able to further reduce HIV 
infections to create an AIDS-free generation. That is what we 
are on the cusp of. And there are many other challenges, 
obviously, on that continent.

                      ENVIRONMENT AND HUMAN RIGHTS

    We have also been leading on the environment, on the oceans 
and marine sanctuaries, promoting democracy and good 
governance, supporting human rights and religious liberty.
    And I would just close by saying to you, Mr. Chairman, Dean 
Acheson served as Secretary of State in 1949-1953 in the shadow 
of World War II. And he wrote that the problems that bedevil 
American foreign policy are not like headaches that can be 
cured by taking an aspirin and getting a good night's sleep. He 
wrote, ``All our lives, the danger, the uncertainty, the need 
for alertness, for effort, for discipline, will be upon us.''
    It is true today, never more so in many ways. Those words 
remind us that we long ago entered an era of ever-present 
danger. And the test of our leadership has never been to 
completely be able to eliminate those risks, because that is 
just probably not possible. The test has been whether we can 
manage them decisively over time in ways that reduce the peril 
and strengthen the forces of democracy, humanity, justice, law, 
human rights.
    And that is precisely the task that confronts us today. And 
I believe that once again, the United States of America is 
answering that call.
    And I want to express our gratitude to the young men and 
women in uniform around the world who bear an enormous amount 
of this burden of helping us to do that; also to the average 
Americans who contribute to civil society; the work of our 
development professionals who put themselves at risk; to 
journalists who have lost lives covering these challenges; and 
also to you, the Members of Congress who travel, who learn 
about these countries, who set the international gold standard, 
frankly, for meeting with our partners overseas and thinking 
constantly about how we best harness our resources to address 
the world's problem.
    So like Secretary Acheson, we have had our share of 
headaches, and this is an explosive moment in the world. But 
the transition that is taking place is really an emergence, 
really, of people from a kind of darkness, a recognition that 
we are living in a new, modern global world, where everybody is 
in touch with everybody all of the time. That raises the 
possibilities. It also raises the stakes. And it obviously 
pushes back against culture, against learning, against people's 
beliefs.

                          PREPARED STATEMENTS

    So we are in an era of uncertainty, but I will tell you 
this, one thing remains absolutely sure. This administration, 
the United States, I am convinced this Congress, are absolutely 
prepared to answer the call.
    And with that, Mr. Chairman, I would be delighted to answer 
any questions.
    [The statements follows:]
                Prepared Statement of Hon. John F. Kerry
    Mr. Chairman and members of the subcommittee; thank you for the 
opportunity to testify today regarding America's international 
leadership and the administration's budget request for the State 
Department and related agencies for the 2016 fiscal year.
    Last month, in his State of the Union Address, President Obama said 
that we ``lead best when we combine military power with strong 
diplomacy; when we leverage our power with coalition building; [and] 
when we don't let our fears blind us to the opportunities that this new 
century presents.''
    It is with that guidance in mind that we submit our budget to you 
this year and ask for its fair consideration and approval. We do so at 
a time and in a world that is marked both by stark tragedy and by great 
promise, a world where America's role is critical as are the resources 
that only Congress can provide. So we ask for your help. America must 
lead, but cannot do so on the cheap. The money we devote to the entire 
range of foreign policy programming, everything from Embassy security 
to our counter-terrorism and nonproliferation initiatives, amounts to 
only about 1 percent of the Federal budget, yet it may impact fifty 
percent of the history that will be written about this era. So we all 
have a job--to do everything we can, working together, to shape that 
history in ways that advance our Nation's interests and uphold the 
values of the people we represent.
    Mr. Chairman, within the fiscal year 2016 President's budget 
request, the Department of State and USAID are seeking a total of $50.3 
billion in discretionary funding, including $7.0 billion for Overseas 
Contingency Operations. Our requests for all accounts include:
  --$3.5 billion to counter the terrorist network known as ISIL, 
        address the crisis in Syria, bolster regional security, and 
        respond to the humanitarian catastrophe brought on by the 
        crises in Syria and Iraq;
  --$3.1 billion in continued support for our democratic partner, 
        Israel;
  --$639 million to help our friends in Ukraine, Georgia, and Moldova 
        as they seek to strengthen their democracies, withstand 
        pressure from Russia, and to integrate more closely into 
        Europe;
  --$1.4 billion to support our activities in and to implement the 
        President's strategy to rebalance to the Asia-Pacific region;
  --$1 billion to address the root causes of illegal migration from 
        Central America to the United States, including the inhumane 
        and perilous migration of unaccompanied children;
  --$5.4 billion to finance our leadership and support for 
        international organizations and peacekeeping efforts and 
        thereby ensure that other nations will share the costs and 
        burdens of maintaining global stability and strengthening 
        consensus principles and norms;
  --$3.4 billion to reinforce our partnerships and diplomatic 
        engagement with Afghanistan and Pakistan;
  --$4.8 billion for Embassy Security that will enable the Department 
        to support overseas security requirements for our personnel and 
        facilities, and continue implementing the recommendations of 
        the Benghazi Accountability Review Board. These critical 
        investments make possible the work of our diplomats to advance 
        American interests worldwide, assist our citizens, and promote 
        our ideals;
  --$1.2 billion to support public diplomacy and exchanges;
  --$8.2 billion for global health, including programs to end 
        preventable child and maternal deaths; combat infectious 
        disease through the Global Health Security Agenda; and create 
        an AIDS-free generation;
  --$808 million to invest in clean energy, sustainable growth, and 
        measures to curb the harmful impacts of global climate change;
  --$978 million for the President's Feed the Future initiative to 
        promote agriculture-led development and help reduce poverty and 
        hunger;
  --$390 million for the President's Counterterrorism Partnerships Fund 
        to support counterterrorism activities, countering violent 
        extremism, and crisis response, as well as provide enabling 
        support to partners engaged on the front lines against 
        terrorism; and
  --Over $2 billion for democracy, human rights, and governance 
        programs that support governments and citizens to build 
        societies where people can address legitimate grievances 
        through the democratic process and express themselves through 
        strong civil societies.
    Mr. Chairman, decades ago, in the aftermath of World War II, Dean 
Acheson wrote that the problems that bedevil American foreign policy 
are not like headaches that can be cured by taking an aspirin and 
getting a good night's sleep. ``They will,'' he asserted, ``stay with 
us until death. We have got to understand that all our lives the 
danger, the uncertainty, the need for alertness, for effort, for 
discipline will be upon us. This is new to us. It will be hard for us. 
But we are in for it and the only real question is whether we shall 
know it soon enough.''
    Secretary Acheson's words remind us that we long ago entered into 
an era of virtually nonstop danger, whether in one part of the world or 
another or regarding one type of challenge or another. The test for our 
leadership has never been to entirely eliminate those risks, because 
that is not possible; the test has been whether we can manage them 
decisively over time in ways that reduce the peril and strengthen the 
forces of democracy, humanity, justice, and law.
    That is precisely the task that confronts us today just as it has 
confronted earlier administrations and generations. And I believe that, 
once again, our country is answering the call. We can see that 
leadership in the brave service of our fighting men and women on duty 
in strategic outposts and waterways across the planet. We can see it in 
our citizens who contribute to international civil society and who work 
hard every day to address and ease global challenges from extreme 
poverty to women's rights and the protection of religious liberty and 
other precious freedoms. We can see it in the work of our development 
professionals who are helping millions of people overseas to build 
strong communities, expand markets, and contribute to shared 
prosperity. We can see it in the Members of Congress from both parties 
who devote countless hours to meeting with international partners and 
to thinking about how best to harness our resources and relationships 
to address shared problems. And we can see it in the daily efforts of 
our diplomats to defend America's interests, advocate our principles, 
and strengthen our country's position in the world.
    Mr. Chairman and members of the subcommittee, there can be no 
question that our diplomatic engagement around the globe today is as 
deep and as strong as it has ever been. Let me point to just a few 
examples of where our leadership backed by our resources is making an 
important difference.
    To begin, our country's leadership is on display in mobilizing 
actions across the globe to counter and prevent violent extremism. Just 
last week, the White House convened a landmark conference to build 
solidarity and identify concrete plans to address both the immediate 
and long term challenges. The United States is committed to helping 
countries in vulnerable regions to enhance their capacity to defeat 
terrorist networks and to rebut the radical ideologies that drive those 
networks. We have also taken the lead in a robust international effort 
to combat the terrorist group known as ISIL. Frankly, coalition 
building is a natural fit for the State Department--we're in the 
business of bringing other countries to the table to support mutual 
interests. And because ISIL is a threat to us all, this menace has 
galvanized a Coalition with more than 60 members, a Coalition that is 
as diverse as it is dedicated.
    Already, nine countries are contributing to air strike operations 
in Iraq and a dozen have committed to train security forces there. 
Coalition partner pilots are also flying strike missions in Syria, and 
hosting the train and equip program for the moderate opposition. 
Meanwhile, we're pooling information and resources to cut ISIL's 
profits from smuggling and to block access to banks. Our air strikes 
have reduced ISIL's ability to profit from oil sales. To slow 
recruiting of foreign terrorist fighters, we're engaged in capacity 
building in the Balkans, criminal justice reform in North Africa, 
helping high-risk communities in the Middle East, and tightening 
security at airports. These efforts are in addition to the humanitarian 
aid that the United States and many other countries have contributed to 
care for refugees and displaced persons in Jordan, Lebanon, Syria, and 
elsewhere in the region.
    We are doing much; but we're still in the early stages of a multi-
year campaign. Going forward, we must turn up the heat. Thus far, 
whenever our local partners have engaged the enemy on the ground with 
Coalition support from the air, we have prevailed. And the fact is that 
ISIL's momentum--which some called unstoppable just a few months ago--
has dissipated. A key supply line has been severed. Terrorist fighters 
can no longer mass and maneuver in large convoys due to Coalition 
airstrikes.
    Throughout, the Coalition has been working closely with the 
Government of Iraq and with moderate elements of the Syrian opposition. 
Success on the ground will depend on strong and legitimate local 
partners. That's why this year's request includes $355 million to 
support critical governance and security reforms in Iraq. Nothing will 
contribute more to the defeat of ISIL than an Iraqi Government that 
governs inclusively, respects the rights of and protects all of its 
citizens with the help of a professional security force, and as a 
result enjoys the full support of its people.
    Success will also be more likely if America is able to speak with 
one voice in our determination to defeat ISIL. Earlier this month, the 
President transmitted to Congress a draft Authorization to Use Military 
Force that provides just such an opportunity. As someone who served on 
Capitol Hill for almost 30 years, I welcome this step and look forward 
to discussing all aspects of this very important proposal with you. The 
approval of this authorization would provide a clear and powerful 
signal of American unity and resolve.
    The fight against violent extremism also continues in Central and 
South Asia.
    This year, Afghanistan will exercise full responsibility for its 
security forces, making possible a significant reduction in the U.S. 
military presence. We will, however, continue to consult with Kabul on 
security matters, and to administer a robust train, advise, and assist 
mission. We are also requesting $1.5 billion to support the new Afghan 
Unity Government as it strives to implement reforms and improve 
economic performance. This aid will be targeted at helping Afghanistan 
to move ahead through better governance, investments in health, 
education, and infrastructure, and the equitable treatment of women and 
girls.
    In Pakistan, the United States is working with the government to 
counter terrorist groups that threaten our shared security. Last month, 
I met with the country's leadership for our annual Strategic Dialogue 
and found--in the wake of the December 16 terrorist attack on the 
military school that murdered 132 children--a vigorous commitment to 
take on and defeat violent extremist groups. In recognition of our 
long-term engagement with the Pakistani people, we're also helping to 
promote development, energy security, health, and education.
    At the same time, through constant diplomacy and the exchange of 
historic visits by our heads of government, we've strengthened our ties 
with India, the world's largest democracy, on economic issues, security 
cooperation, science, and clean energy.
    Closer to home, in Europe, we have been steadfast in supporting 
Ukraine's recently-elected government against illegal intervention by 
Moscow and violence from the armed separatists that Moscow backs. 
Working closely with our international partners, we have approved 
targeted sanctions--including against Russia's financial, energy, and 
defense sectors--that have imposed a clear cost on the Russian economy 
and brought Kremlin leaders back to the bargaining table. The package 
of measures signed earlier this month to implement the September 2014 
Minsk Protocol mandated a ceasefire and the pullback of heavy weapons. 
We have called for full implementation of the Minsk documents, 
including the withdrawal of all foreign equipment and troops from 
eastern Ukraine, the full restoration of Ukrainian control of the 
international border, and the release of all hostages. To date, neither 
Russia nor the forces it is supporting have come close to complying 
with their commitments. If that failure continues, there will be 
further consequences--consequences that would place added strains on 
Russia's weakened economy.
    Meanwhile, the United States is backing Ukraine's economic reforms 
through a $1 billion loan guarantee (and the possibility of another if 
reforms continue) and support for a $17.5 billion financial package 
from the International Monetary Fund (IMF). Although the situation in 
eastern Ukraine remains very difficult, we are working to help the 
country emerge from this crisis united, and with the chance to decide 
its own future in a Europe where NATO is reinvigorated and leaders in 
the Kremlin are judged solely by their actions, not their words.
    Mr. Chairman, President Obama has made it clear that Iran will not 
obtain a nuclear weapon. Since late 2013, we have been testing whether 
that goal can be achieved through determined multilateral diplomacy. 
The so-called P5+1 talks have made considerable progress but have not 
yet reached a satisfactory consensus on all critical questions. During 
our deliberations, for the first time in a decade, we've halted the 
progress of Tehran's nuclear program and even rolled it back in key 
respects. We will know soon whether we will be able to reach a 
verifiable and comprehensive plan to ensure that Iran's nuclear program 
is wholly peaceful. We will continue to consult closely with you as our 
efforts progress. Although I cannot predict the outcome, I do believe 
that an agreement of the type we seek would advance America's interests 
and that of our allies in the Middle East, strengthen the global 
nonproliferation regime, and serve the cause of international stability 
and peace.
    In our own hemisphere, we are requesting $1 billion to help our 
friends in Central America make the difficult reforms required to 
address the region's interlocking security, governance and economic 
problems. In recent years, the combination of limited educational and 
employment opportunities, epic levels of violence, a lack of sufficient 
investment, and corruption have held these countries back while also 
spurring attempts at illegal migration to the United States. An 
estimated 6 million young Central Americans will enter the work force 
in the next decade. If opportunity isn't there, our entire hemisphere 
will feel the consequences.
    Last December, President Obama announced a change in U.S. policy to 
increase communications, commerce, and travel between our country and 
Cuba and to initiate the process--supported by this budget--of 
normalizing diplomatic relations with Havana for the first time since 
1961. In January, Assistant Secretary of State Roberta Jacobson went to 
the island for a first round of meetings with government officials and 
representatives of independent civil society. She conveyed the 
message--reinforced before and since by many Members of Congress--that 
America's support for democratic reforms, human rights, Internet 
freedom, and the release of political prisoners is absolutely firm. We 
believe very strongly that the time is right to deprive Cuban 
authorities of their longstanding crutch--so that they can no longer 
blame U.S. policy rather than their own failures for the hardships 
faced by the brave people of Cuba.
    This budget also supports the President's rebalance to the dynamic 
region of East Asia and the Pacific. Based on President Obama's 
strategic commitment, we have modernized our alliances with Japan and 
South Korea, strengthened our partnerships with other regional powers, 
and supported democratic progress and respect for human rights in 
Thailand and Burma. A key element of our policy has been to build a 
comprehensive relationship with China that supports its rise in a 
manner compatible with international law and respectful of the concerns 
and rights of its neighbors. The United States remains committed to the 
peaceful denuclearization of the Korean Peninsula and will continue--in 
close consultation with our allies--to bring pressure to bear on North 
Korea in support of that goal.
    Last August, President Obama hosted a summit attended by some 50 
African leaders, during which we discussed plans for future cooperation 
and progress. U.S. policy toward the region reflects the continent's 
diversity and includes the promotion of investment and trade, energy 
access, youth leadership, and the economic participation of women.
    Mr. Chairman, American leadership has also been evident in the 
fight to halt the deadly spread of Ebola--and it was a team effort. The 
State Department, the U.S. military, USAID, the Department of Health 
and Human Services (including the Centers for Disease Control and 
Prevention, and the National Institutes of Health, and the U.S. Public 
Health Service Commissioned Corps), State and city governments, civil 
society, citizen volunteers, and Members of Congress all contributed. 
Together, we worked with international partners and with the brave 
communities and caregivers of West Africa to confront and contain this 
virus. The struggle won't be over until new infections are reduced to 
zero. But consider that 5 months ago, experts predicted that the number 
of active cases in West Africa would be 1.4 million. The actual level 
is less than 2 percent of that number. This is still a terrible human 
tragedy--but it is also an impressive demonstration of what 
international partnerships can accomplish. We have committed over the 
next 3 years to build on these partnerships, through the Global Health 
Security Agenda, to strengthen health systems in these vulnerable 
countries to prevent a tragedy of this scale from happening again.
    We also serve our interests when we exercise leadership within the 
U.N. and other international organizations. The United States isn't 
everywhere and we shouldn't be everywhere, and so it's a great help to 
us when the U.N. is able to contribute to international security and 
stability through its peacekeeping and political missions, conflict-
resolution, development, and humanitarian activities. As we continue to 
press for reforms within the U.N. system, it is essential that we meet 
our own obligations to pay our bills in full and on time. We demand 
that of others; we should be consistent in meeting that standard 
ourselves.
    These are just some of the issues that we're focused on each and 
every day. But they're not the only ones. Programs to support 
democratic governance contribute to the development of societies that 
are peaceful, more prosperous and stable, and better partners for the 
United States. As more people around the world stand up for their 
fundamental freedoms, demands for U.S. support grow. Unfortunately, 
this has coincided with declining funding in recent years. This year, 
to meet the growing needs and advance our interests, the President has 
requested over $2 billion, a significant increase in democracy and 
governance funding.
    Our military training and education enhances our security 
relationships while exposing students from friendly nations to U.S. 
values and respect for internationally-recognized human rights. 
Training foreign law enforcement and counterterrorism officials in 
American investigative techniques increases their capability and our 
security. Implementing stricter export controls, training weapons 
inspectors, improving global nuclear, biological and chemical security, 
and securing our borders allows us to guard against the most pernicious 
of threats: the possibility that terrorists might one day attack our 
homeland or our allies with a weapon of mass destruction.
    Our global presence does something else: it creates jobs. Through 
our contributions to international financial institutions like the 
World Bank, we don't just lift the economies of low-income countries; 
we open markets for American businesses. Foreign policy is economic 
policy, and so the State Department is fully geared toward helping 
American entrepreneurs to build prosperity at home and across the 
globe. To that end, we're pursuing ambitious, 21st century trade 
agreements such as the Transatlantic Trade and Investment Partnership 
and the Trans-Pacific Partnership that will establish landmark labor 
and environmental standards and help our manufacturers, farmers, 
ranchers, and service providers to increase what they are able to sell 
abroad.
    We're also leading on the environment, on the oceans and marine 
sanctuaries, and in addressing the potentially devastating consequences 
of climate change. In November, the leaders of the United States and 
China, the world's two largest emitters of greenhouse gases, came 
together to announce ambitious targets to limit carbon emissions in the 
post-2020 period. Our budget and our diplomacy are focused on helping 
nations to grow in sustainable ways, and to mobilize countries 
everywhere to achieve a truly meaningful agreement on climate change in 
Paris this December. And here I want to stress the connection between 
climate change and other goals. For example, our investments to protect 
global food and water supplies are critical. But none of those efforts 
will succeed over time if we don't also concern ourselves with what we 
put in the air; food security simply will not happen if we fail to curb 
the harmful effects of climate change.
    All this speaks to why our budget proposals aren't just a 
collection of numbers--they're the embodiment of our values and 
priorities. After serving in public life for over three decades, I am 
aware that there are few more reliable--or damaging--applause lines 
than promising to slash the budgets of the State Department and USAID. 
President Reagan once lamented that, ``Foreign aid suffers from a lack 
of domestic constituency.'' And it's true that, in Washington, long-
term goals can often lose out to more visible short-term projects. But 
that's exactly why we need your help--to take the long view and to 
recognize how the relatively modest investments we make now can improve 
the world and enhance our own security for generations to come.
    As we have learned through history, the success or failure of 
America's international leadership is not only relevant; it will be a 
determining factor in the quality of the lives of our citizens. Foreign 
policy can help our workers to find a job or lose one; it can start a 
war or forge a peace; it can safeguard our families or expose them to 
grave risk; it can enable us to look forward with confidence or it can 
place a shadow over the future in which our children and their children 
will grow up.
    Mr. Chairman and members of the subcommittee, even though the globe 
seems at times to be awash in difficulties, the truth is that many 
international vital signs today are positive. Worldwide, extreme 
poverty is down and so is child mortality. More babies are being born 
healthy; more boys--and girls--are attending and staying in school; and 
with U.S. contributions leading the way, we are making welcome progress 
in protecting the vulnerable from HIV/AIDS and other infectious 
disease.
    Meanwhile, each day in diplomatic outposts across the globe, 
America's representatives make known the high value our people place on 
democratic institutions, human rights, religious liberty, and the 
freedoms of speech and press.
    So make no mistake, America is leading--with partners when 
possible, but alone when necessary. Leading against terror and 
proliferation. Leading in support of embattled friends from Ukraine and 
Afghanistan to Central America and Somalia. Leading to promote peace in 
the Middle East and Africa. Leading to create jobs domestically and 
protect the environment globally. Leading against the axis of 
suffering--hunger, ignorance, and disease. Leading to build a more 
free, just, and humane world. We are leading as one country, including 
the administration, Congress, our Armed Forces, our businesspeople, our 
citizen activists, and our volunteers.
    Scanning the horizon, we are under no illusions about how difficult 
the demands of leadership are. Like Secretary Acheson, we have had our 
share of headaches. Setbacks along the way are inevitable. Engagement 
on all fronts will be required. But we draw strength from our 
democratic ideals, inspiration from the example of our predecessors, 
and courage from the conviction that the values guiding us are the 
right ones. In an era of uncertainty, one thing remains sure: America 
will continue to answer the call.
    Thank you and now I would be pleased to respond to any questions 
you might have.
                                 ______
                                 
 Prepared Statement of Steve A. Linick, Inspector General for the U.S. 
      Department of State and the Broadcasting Board of Governors
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee, thank you for the opportunity to highlight some of the 
mission-critical work performed by the Office of Inspector General 
(OIG) for the Department of State and Broadcasting Board of Governors 
(BBG). First, I want to express my appreciation for the support you 
have shown to my office. I am grateful for the overall budget increase 
that OIG received in fiscal year 2015. Notwithstanding the fiscal year 
2015 increase, along with the increase included in the President's 
fiscal year 2016 request, we still face significant challenges, given 
the growth of Department funding compared to our own. Still, we have a 
substantial and positive impact on the operations of the Department and 
BBG.
    With that premise in mind, I would like to outline some of our 
notable work and new initiatives, including our most recent 
responsibility--joint oversight of Operation Inherent Resolve (OIR), 
the overseas contingency operation directed against the Islamic State 
of Iraq and the Levant (ISIL). In the last section of my testimony, I 
discuss OIG's resource challenges.
              i. state oig's mission and oversight efforts
    It is my honor to have led the State OIG for the past 17 months--
since the end of September 2013. OIG's mandate is broad and 
comprehensive, involving oversight of the full scope of Department and 
BBG programs and operations, including more than 72,000 employees and 
280 overseas missions and domestic entities, as well as the U.S. 
Section of the International Boundary and Water Commission. These 
agencies are funded through combined annual appropriations of 
approximately $15 billion and nearly $7 billion in consular fees and 
other earned income. OIG also is responsible for full or partial 
oversight of an additional $17 billion in Department-managed foreign 
assistance.
    State OIG differs from most OIGs in that it has a mandated 
inspection function. We are statutorily required to periodically audit 
and inspect every domestic and overseas operating unit around the world 
once every 5 years.\1\ Additionally, since the beginning of my tenure, 
we have redoubled our efforts to address some of the top challenges of 
the Department, including the protection of people and facilities, the 
management of contracts and grants, and the security of sensitive 
information around the world. I will elaborate on each of these:
---------------------------------------------------------------------------
    \1\ This timeframe requirement is routinely waived by Congress each 
year.
---------------------------------------------------------------------------
Improving Security
    Protecting the people who work for the Department is a top priority 
for the Department and for OIG. OIG has inspected physical security at 
overseas posts for years; however, since the September 2012 attacks on 
U.S. diplomatic facilities and personnel in Benghazi, Libya, OIG has 
significantly stepped up its oversight efforts related to security, 
including targeted audits and evaluations. We help safeguard the lives 
of people who work in or visit our posts abroad by performing 
independent oversight to help the Department improve its security 
posture. Unlike many of our other oversight activities, as well as more 
traditional Government-wide work conducted by the Inspector General 
(IG) community, we cannot attach a dollar-value metric to our efforts 
related to physical security. Achievement in this area is not reflected 
in our ``return on investment'' statistics. However, our oversight 
successes are a source of great satisfaction, and to the degree that 
unreasonable risk persists, OIG will vigorously continue to highlight 
any deficiencies to the Department and to Congress.
    Although the Department has made improvements to overseas security, 
challenges remain. Through our inspection and audit work, OIG continues 
to find security deficiencies that put our people at risk. Those 
deficiencies include failing to observe set-back and perimeter 
requirements and to identify and neutralize weapons of opportunity. Our 
teams also uncover posts that use warehouse space and other sub-
standard facilities for offices, another security deficiency.\2\ Under 
the Department's security rules, office space must meet more stringent 
physical security standards than warehouse space. Our audit \3\ of the 
Local Guard Program found that firms providing security services for 
Embassy compounds were not fully vetting local guards they hired 
abroad, placing at risk our posts and their personnel. In other 
reports, we found that the Bureau of Diplomatic Security (responsible 
for setting standards) and the Bureau of Overseas Buildings Operations 
(responsible for constructing facilities to meet those standards) often 
do not coordinate adequately to timely address important security 
needs.\4\ Based on our recommendations, those bureaus have taken steps 
to improve their communication and coordination. OIG will closely 
monitor whether these steps actually sustain improved joint performance 
to mitigate security vulnerabilities.
---------------------------------------------------------------------------
    \2\ Review of Overseas Security Policy Board Exceptions and Secure 
Embassy Construction and Counterterrorism Act of 1999 Waivers (ISP-I-
13-06, January 2013).
    \3\ Audit of Contractor Compliance With and Department of State 
Oversight of the Process Required for Vetting Local Guards (AUD-HCI-14-
24, June 2014).
    \4\ Inspection of the Bureau of Diplomatic Security, High Threat 
Programs Directorate (ISP-I-14-23, September 2014); Compliance Follow-
up Review of the Bureau of Overseas Buildings Operations (ISP-C-11-26, 
May 2011); Audit of the Process to Request and Prioritize Physical 
Security-Related Activities at Overseas Posts (AUD-FM-14-17, Mar. 
2014).
---------------------------------------------------------------------------
    OIG has also examined the Department's handling of significant 
security breaches that resulted in the deaths of U.S. Government 
personnel. For example, in September 2013, OIG published a report \5\ 
on its Special Review of the Accountability Review Board (ARB). As you 
know, the Secretary of State convenes an ARB when serious injury, loss 
of life, or significant destruction of property at or related to a U.S. 
Government Mission abroad has occurred. The most recent ARB was 
convened following the 2012 attacks and tragic events in Benghazi. 
OIG's Special Review examined the process by which the Department's 
ARBs are established, staffed, supported, and conducted, as well as the 
manner in which the Department tracks the implementation of ARB 
recommendations. We examined the Department's follow-through on long-
term security program improvements involving physical security, 
training, and intelligence-sharing over four administrations (since 
1998) and found that it lacked sustained oversight by Department 
principals. Over time, the implementation of recommended improvements 
slows. The lack of follow-through explains, in part, why a number of 
Benghazi ARB recommendations mirror previous ARB recommendations. This 
underscores the need for a sustained commitment by Department 
principals to ensure that ARB recommendations are timely and 
effectively carried out.
---------------------------------------------------------------------------
    \5\ Special Review of the Accountability Review Board Process (ISP-
I-13-44A, September 2013).
---------------------------------------------------------------------------
    OIG also continues to increase its focus on security issues. OIG is 
currently involved in reviewing the Department's reported compliance 
with recommendations made by the ARB convened in the aftermath of the 
2012 attacks at U.S. diplomatic locations in Benghazi. In addition, 
planned fiscal year 2015 security audits include an audit of the 
approval and certification process used to determine employment 
suitability for locally employed staff and contracted employees, an 
audit of emergency action plans for U.S. Missions in the Sahel region 
of Africa, and an audit of the Vital Presence Validation Process (VP2) 
implementation. VP2 is the Department's formal process for assessing 
the costs and benefits of maintaining its presence in dangerous 
locations around the world. Finally, we will continue to emphasize 
security concerns as we inspect the International Programs Directorate 
of the Bureau of Diplomatic Security.
Improving Oversight of Contracts and Grants
    Contracts and grants are critical to the Department's mission. The 
Department's obligations in fiscal year 2014 equaled approximately $9 
billion in contractual services and $1.5 billion in grants, totaling 
approximately $10.5 billion.\6\ However, the Department faces 
challenges managing its contracts, grants, and cooperative agreements, 
which have been addressed repeatedly in OIG audits, inspections, and 
investigations over the years. These challenges were highlighted in two 
recent OIG Management Alerts that I provided to senior Department 
officials.
---------------------------------------------------------------------------
    \6\ USASpending, <www.usaspending.gov>, accessed on February 19, 
2015.
---------------------------------------------------------------------------
    In fiscal year 2014, more than 50 percent of post or bureau 
inspections contained formal recommendations to strengthen controls and 
improve administration of grants. In our March 2014 Management Alert 
\7\ focusing on contract management deficiencies, we reported that over 
the past 6 years, files relating to Department contracts with a total 
value of more than $6 billion were either incomplete or could not be 
located at all. In a September 2014 Management Alert \8\ on grant 
management deficiencies, we highlighted weaknesses in oversight, 
insufficient training of grant officials, and inadequate documentation 
and closeout of grant activities. In fiscal year 2012 alone, the 
Department obligated more than $1.6 billion for approximately 14,000 
grants and cooperative agreements worldwide.\9\ This is a significant 
outlay of American taxpayer funds, which makes oversight and 
accountability even more critical. Grants present special oversight 
challenges because, unlike contracts, they do not generally require the 
recipient to deliver specific goods or services that can be measured. 
The Department has agreed to adopt most of OIG's recommendations in 
these Management Alerts. OIG will continue to monitor the Department's 
efforts and seek additional improvements in this important area.
---------------------------------------------------------------------------
    \7\ Management Alert: Contract File Management Deficiencies (MA-A-
0002, March 20, 2014).
    \8\ Management Alert: Grants Management Deficiencies (MA-14-03, 
September 26, 2014).
    \9\ U.S. Government Accountability Office, Implementation of Grants 
Policies Needs Better Oversight (GAO-14-635, July 2014).
---------------------------------------------------------------------------
    In fiscal year 2015, OIG plans on issuing, among others, audits 
involving non-lethal aid and humanitarian assistance in response to the 
Syrian crisis, the Iraq Medical Services Contract, and the Bureau of 
International Narcotics and Law Enforcement Affairs Embassy Air Wing 
Contract in Iraq.
Enhancing Information Security
    Another top management challenge concerns information security. The 
Department is entrusted to safeguard sensitive information, which is 
often targeted by multiple sources, including terrorist and criminal 
organizations. The Department is responsible for preserving and 
protecting classified and other sensitive information vital to the 
preservation of national security in high-risk environments across the 
globe. OIG assessments of the Department's efforts to secure its 
information technology (IT) infrastructure have uncovered recurring 
weaknesses in unclassified systems and instances of noncompliance with 
Federal Information Security Management Act (FISMA) requirements. For 
example, we found that unclassified IT systems lacked adequate 
controls, allowing unauthorized individuals to enter and manipulate 
systems; ineffective security scanning; and weaknesses in cybersecurity 
management (including absence of a strategic plan). In a November 2013 
Management Alert,\10\ I raised these concerns with senior Department 
officials, recommending, among other things, that independent 
penetration testing be conducted to assess the system's vulnerabilities 
to cyber attack.\11\ This effort is currently underway.
---------------------------------------------------------------------------
    \10\ Management Alert: OIG Findings of Significant, Recurring 
Weaknesses in Department of State Information System Security Program 
(MA-A-0001, November 12, 2013).
    \11\ Vulnerabilities in the Department's unclassified network also 
affect OIG's IT infrastructure, which is part of the same network. We 
noted in our November 2013 information security Management Alert that 
there are literally thousands of administrators who have access to 
Department databases. That access runs freely to OIG's IT 
infrastructure and creates risk to OIG operations. Although OIG has no 
evidence that its IT systems have been compromised, the potential 
exists and places our independence at risk.
---------------------------------------------------------------------------
                        ii. new oig initiatives
    Since joining OIG, I have implemented a number of new initiatives 
to enhance the effectiveness and efficiency of OIG's independent 
oversight of the Department's programs and operations:
Management Alerts and Management Assistance Reports
    Soon after my arrival, we began to issue Management Alerts \12\ and 
Management Assistance Reports.\13\ They are intended to alert 
Department leadership to significant issues that require immediate 
corrective action. For example, we issued two Management Assistance 
Reports recommending that the Department take immediate action (for 
example, termination) against certain grantees for misuse of grant 
funds. In addition, and as mentioned above, we issued Management Alerts 
\14\ relating to serious problems in the areas of grant and contract 
management and information security. The response from the Department 
to these products has been favorable, as they have concurred with most 
of our recommendations.
---------------------------------------------------------------------------
    \12\ Management Alert: OIG Findings of Significant, Recurring 
Weaknesses in Department of State Information System Security Program, 
(MA-A-0001, January 2014); Management Alert: Contract File Management 
Deficiencies (MA-A-0002, March 2014); Management Alert: Grants 
Management Deficiencies (MA-14-03, September 2014).
    \13\ Management Assistance Report: Concerns with the Oversight of 
Medical Support Service Iraq Contract No. SAQMMA11D0073 (AUD-MERO-15-
20, December 23, 2014); Management Assistance Report: Grant 
Improprieties by Nour International Relief Aid (AUD-CG-15-19, January 
15, 2015); Management Assistance Report: Termination of Construction 
Grants to Omran Holding Group (AUD-CG-14-37, September 18, 2014).
    \14\ Management Alert: Contract File Management Deficiencies (MA-A-
0002, March 20, 2014); Management Alert: Grants Management Deficiencies 
(MA-14-03, September 26, 2014); Management Alert: OIG Findings of 
Significant and Recurring Weaknesses in the Department of State 
Information System Security Program (MA-A-0001, November 12, 2013).
---------------------------------------------------------------------------
    Moreover, we greatly appreciate that this Committee has also 
recognized their value. The explanatory statement to the fiscal year 
2015 omnibus appropriations bill included language directing the 
Secretary of State to submit to Congress a report detailing the status 
of each of the recommendations included in OIG's fiscal year 2014 
Management Alerts.
Office of Evaluations and Special Projects
    The Office of Evaluations and Special Projects (ESP) was 
established in 2014 to enhance OIG's oversight of the Department and 
BBG. In particular, ESP undertakes special evaluations and projects and 
complements the work of OIG's other offices by further developing the 
capacity to focus on broader, systemic issues. For example, in October 
2013, ESP published a Review of Selected Internal Investigations by 
DS,\15\ which addressed allegations of undue influence by Department 
management. Currently, ESP is undertaking a joint review with the 
Department of Justice OIG of a number of shooting incidents in Honduras 
in 2012, which involved Drug Enforcement Administration (DEA) and 
Department of State personnel.
---------------------------------------------------------------------------
    \15\ Review of Selected Internal Investigations Conducted by the 
Bureau of Diplomatic Security (October 2014, ESP-15-01).
---------------------------------------------------------------------------
Increased Emphasis on Whistleblower Protections
    OIG is also using ESP to improve OIG's capabilities to meet 
statutory requirements of the Whistleblower Protection Enhancement Act 
of 2012 and other whistleblower initiatives. Department employees, 
employees of contractors and grantees, and others have been encouraged 
to report fraud, waste, abuse, and misconduct. Such reporting must take 
place without fear of retaliation. We have designated an ombudsman (a 
senior ESP attorney) for these purposes. We also produced an 
educational video and published a guide regarding whistleblower 
protections on our website.\16\
---------------------------------------------------------------------------
    \16\ OIG, Whistleblower Protection, <http://oig.state.gov/hotline/
whistleblower>.
---------------------------------------------------------------------------
Oversight of Overseas Contingency Operations
    The IG community was recently tasked, through an amendment to the 
Inspector General Act of 1978 (IG Act), with additional responsibility 
for overseeing current and future overseas contingency operations. 
Approximately 8 weeks ago, Jon T. Rymer, the Inspector General for the 
Department of Defense (DOD), was appointed Lead Inspector General for 
Operation Inherent Resolve (OIR)--the U.S.-led overseas contingency 
operation directed against the Islamic State of Iraq and the Levant 
(ISIL). Mr. Rymer subsequently appointed me as Associate Inspector 
General in charge of oversight. Three OIGs (State, DOD, and U.S. Agency 
for International Development) have dedicated staff to this important 
project. We are working jointly on: (1) strategic planning, to provide 
comprehensive oversight of all programs and operations in support of 
OIR; (2) program management, to track, monitor, and update information 
provided by our agencies in support of OIR; and (3) communications, to 
collect information and prepare periodic reports for Congress on 
projects related to OIR. Relatedly, we are in the process of 
establishing a hotline dedicated to the contingency operation and 
developing joint investigative capabilities for OIR oversight.
Data and Technology
    OIG is developing an automated evidence tracking system to enhance 
evidence processing accuracy and efficiency, and employee computer 
forensic and data processing procedures in order to significantly 
reduce agents' time and investigative hours. Further, we are building 
the capacity of our new data analytics group and developing a fusion 
cell consisting of special agents, forensic auditors, criminal 
analysts, and computer specialists. This group of specialists will 
enable all of our divisions to proactively analyze financial data to 
identify potential vulnerabilities in Department programs and processes 
and perform fraud risk assessments.
Suspension and Debarment
    We have enhanced our efforts to identify and refer appropriate 
cases to the Department for suspension and debarment. Our Offices of 
Investigations and Audits prepare detailed suspension and debarment 
recommendation packages, in consultation with our Office of General 
Counsel, including referral memoranda summarizing all relevant facts 
and setting forth the specific grounds for suspension or debarment. 
They then submit their packages to the Department's Suspension and 
Debarment Officials (SDOs) for action. Between 2011 and 2014, OIG 
referred 128 cases to the Department for action.
New Locations
    For reasons of oversight efficiency and to have ``boots on the 
ground'' at key financial locations, OIG intends, in the near term, to 
locate staff in Charleston, South Carolina, where one of the 
Department's Global Financial Services Centers resides, and in 
Frankfurt, Germany, the site of one of the Department's Regional 
Procurement Support Offices. Both locations are responsible for 
billions of taxpayer dollars. These moves will allow OIG to more 
efficiently and economically access pertinent information and pursue 
targeted reviews.
Prosecution of Cases
    OIG has initiated a program to place one or more Special Assistant 
U.S. Attorneys (SAUSAs) in appropriate positions in the Department of 
Justice in order to prosecute more quickly and effectively cases 
involving fraud against the Department of State. For example, an OIG 
attorney-investigator now works as a full-time SAUSA in the U.S. 
Attorney Office for the Eastern District of Virginia.
                        iii. impact of oig work
    Through our independent audits, evaluations, inspections, and 
investigations, OIG returns significant value to American taxpayers and 
the Department and BBG. In fiscal year 2014, we issued 77 reports, 
which included hundreds of recommendations to improve the efficiency 
and effectiveness of the Department and BBG. During this period, we 
identified $43.3 million in taxpayer funds that could be put to better 
use. Additionally, our criminal, civil, and administrative 
investigations resulted in the imposition or identification of $75 
million in fines, restitution, recoveries, and other monetary results 
last fiscal year. This was in addition to the $1 billion in financial 
results from audit- or inspection-related findings and more than $40 
million in investigative-related financial results that OIG identified 
in the previous five fiscal years.
    However, these financial statistics do not adequately take into 
account some of our most significant impacts, which cannot be 
quantified monetarily--namely, the physical safety and security of 
people and facilities, and the integrity of the Department's operations 
and reputation. Indeed, the work of our dedicated and talented staff in 
reviewing security and leadership at our overseas and domestic posts 
has significant effects on the lives and well-being of employees 
throughout the Department. This impact is what motivates our employees, 
many of whom sacrifice precious and long periods of time with their 
families, often at high-threat posts.
                           iv. oig resources
    I am very grateful for your support and the additional financial 
resources that OIG has received over the past 2 years, and I would like 
to express my thanks to this subcommittee, the committees on 
appropriations, and both Houses of Congress. Our budget requests have 
been substantially supported by the administration, and we are grateful 
for its support as well. These additional financial resources have 
enabled OIG to better fulfill its mission.
    Although our appropriation has increased in recent years, we still 
face significant challenges, given the growth of Department funding 
compared to our own. In 1996, when our mission was expanded to absorb 
the United States Information Agency, OIG's budget represented 0.70 
percent of the Department's appropriation. Over the following decade, 
OIG's budget was largely flat.
    Through the support of Congress and the administration, OIG's 
funding has more than doubled in the last few years. By comparison, 
however, the Department's funding nearly quadrupled (more than 380 
percent) between 1996 and 2014 accompanied by significant increases in 
foreign assistance for which OIG also provides oversight. As a result, 
even with the increase included in the 2015 budget and the President's 
fiscal year 2016 request, OIG still represents less than one-third of 1 
percent of the Department's operating budget. This percentage drops to 
less than one-quarter of 1 percent when Department-managed foreign 
assistance is included.
    In addition to the substantial number of programs and dollars for 
which we have oversight, another challenge that we face now is the new 
requirement that OIG conduct joint oversight of OIR to defeat ISIL. 
Since we are still in the process of defining the scope of our OIR 
oversight commitments, long-term impacts on mission priorities are 
difficult to predict. Presently, we are funding these responsibilities 
out of existing resources, a situation that necessarily reduces 
oversight resources for our other mission-critical priorities and 
operational needs.\17\ Challenges we face include, among others, the 
following:
---------------------------------------------------------------------------
    \17\ OIG's fiscal year 2015 budget does not include funds for OIR. 
Approximately two-thirds of the President's requested fiscal year 2016 
increase--$6.27 million--will be directed toward funding 16 positions 
to meet our oversight responsibilities for OIR to degrade and defeat 
ISIL. The remaining $2.73 million will fund 11 direct-hire positions 
needed to strengthen security oversight, particularly in the context of 
increased terrorist threats abroad, and to fulfill OIG's other 
statutory responsibilities.
---------------------------------------------------------------------------
  --OIG is statutorily required to inspect and audit every bureau and 
        post once every 5 years.\18\ However, due to budgetary and 
        staffing limitations, more than 50 percent of domestic entities 
        and 100 overseas posts, representing billions of dollars and 
        tens of thousands of employees, have not been inspected in the 
        last 5 years. At current staffing levels, OIG estimates that it 
        will take approximately 8 years to inspect each overseas post 
        and 11 years to inspect each domestic operating unit. One of 
        the most important functions of our inspection work is ensuring 
        the safety and security of personnel and facilities overseas.
---------------------------------------------------------------------------
    \18\ This timeframe requirement is routinely waived by Congress 
each year.
---------------------------------------------------------------------------
  --In the past decade, there has been a substantial growth in 
        Department grants and contracts, particularly in high-risk, 
        high-cost programs and operations, such as Afghanistan. For 
        example, in the last 5 years, Department procurements have more 
        than tripled, to approximately $12 billion annually.
  --As described above, we remain concerned about the vulnerabilities 
        of our own IT network. Additional resources may be required to 
        increase our independence and reduce the risk of OIG systems 
        being vulnerable to unfettered and undetectable access by the 
        Department.
    In conclusion, Chairman Graham, Ranking Member Leahy, and members 
of the subcommittee, thank you for opportunity to highlight some of our 
significant oversight work and for your continued strong support. We 
take seriously our statutory requirement to identify instances of 
fraud, waste, abuse, and mismanagement and to notify Congress, agency 
leadership, and the public of these deficiencies. My staff and I remain 
committed to promoting the economy, efficiency, and effectiveness of 
the Department and BBG, as well as to protecting the safety and 
security of its employees and facilities and sensitive information 
around the world. As always, I would be happy to answer your questions 
and provide more information on any of our past, present, or future 
work.
                                 ______
                                 
  Prepared Statement of John F. Sopko, Special Inspector General for 
                       Afghanistan Reconstruction
     improving the effectiveness of u.s. reconstruction efforts in 
  afghanistan by enhancing oversight and addressing key areas of high 
                                  risk
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee,
    Thank you for the opportunity to provide this statement for the 
record to aid in your consideration of the Department of State (State) 
fiscal year 2016 budget request for Afghanistan.
    Since 2002, Congress has appropriated approximately $107.5 billion 
to rebuild Afghanistan. For fiscal year 2016, the President has 
requested more than $5.3 billion in additional reconstruction funding 
for Afghanistan, consisting of over $1.5 billion for State and U.S. 
Agency for International Development (USAID) efforts, and $3.8 billion 
for the Department of Defense (DOD) to train, equip, and sustain the 
Afghan National Security Forces (ANSF). It is the Special Inspector 
General for Afghanistan Reconstruction's (SIGAR) mission to ensure that 
these funds are spent as effectively and efficiently as possible and 
that they are protected from waste, fraud, and abuse. As funding for 
reconstruction projects in Afghanistan continues through fiscal year 
2015 and beyond, and as the U.S. military presence and travel 
accessibility shrinks, the risk of fraud, waste, and abuse increases. 
SIGAR will continue to provide aggressive oversight of ongoing 
reconstruction projects and the billions of reconstruction dollars yet 
to be spent, while developing creative ways to operate in a more 
constrained environment.
    This statement summarizes SIGAR's fiscal year 2016 budget request, 
recent successes from SIGAR's ongoing work, the challenges SIGAR has in 
accomplishing its mission, and steps being taken to overcome these 
challenges. In addition, the statement describes key management and 
program challenges facing State and USAID, as well as DOD, by 
highlighting areas of high risk that SIGAR has identified.
fiscal year 2016 budget request highlights sigar's unique and important 
          role in overseeing afghanistan reconstruction funds
    SIGAR is the only inspector general with interagency authority to 
audit, inspect, and investigate the activities of all U.S. Government 
agencies and international organizations that receive U.S. funding for 
Afghanistan reconstruction. As a result, SIGAR can conduct cross-
cutting reviews of State, USAID, DOD, and other agencies. In addition, 
SIGAR is the only oversight agency that focuses solely on Afghanistan 
reconstruction, enabling it to examine reconstruction programs and 
issues in more depth while still producing timely and high-quality 
work. Further, SIGAR is truly independent. We conduct our oversight 
autonomously and report directly to Congress and the Secretaries of 
State and Defense. To support its ongoing oversight mission, SIGAR has 
requested $56.9 million for fiscal year 2016. Although this is 
equivalent to the fiscal year 2015 enacted level, SIGAR intends to 
reallocate funds within the agency, as discussed below, to address 
operational and budgetary changes within Afghanistan's uncertain and 
unpredictable environment.
    SIGAR currently has the largest oversight presence in Afghanistan, 
with more auditors, analysts, and investigators in country than any 
other agency. SIGAR's staff of 42 deployed personnel--consisting of 18 
Audits and Inspections staff, 20 Investigations staff, and 4 Management 
and Support staff--are located at U.S. Embassy Kabul, Bagram Airfield, 
and Kandahar Airfield. Most of SIGAR's deployed staff serve at least 2 
years in country, limiting the amount of annual turnover compared to 
other agencies and providing a stable knowledge base within the U.S. 
Government's presence in Afghanistan. SIGAR plans to maintain 41 
deployed positions in Afghanistan through fiscal year 2016. SIGAR has 
also hired six local Afghan engineers and analysts. To supplement the 
deployed and local staff, SIGAR personnel located at the agency's 
headquarters in Arlington, Virginia, frequently travel to Afghanistan 
on a temporary duty basis for 2 to 8 weeks to conduct audit, 
inspection, and investigative work.
    By working and living alongside their colleagues in State, USAID, 
DOD, and other implementing agencies, SIGAR's staff has a full 
understanding of the challenges and dangers of working on the ground in 
Afghanistan. SIGAR's investigators located at sites outside Kabul 
regularly experience rocket attacks and other indirect fire. An 
investigator recently received the Council of the Inspectors General on 
Integrity and Efficiency Sentner Award for Dedication and Courage in 
recognition of his courage, uncommon selflessness, and dedication to 
duty during an insurgency attack on the Herat Consulate in September 
2013. The morning of September 13, 2013, a truck packed with explosives 
rammed into the security gate and blew up, killing several guards and 
heavily damaging the building. A group of armed insurgents then tried 
to storm the compound, but ultimately failed. SIGAR's investigator 
assisted the Regional Security Officer by conducting an armed sweep to 
ensure that all U.S. personnel were accounted for and that no 
insurgents had penetrated the consulate. The investigator also helped 
move casualties and held a weapons position covering the blown-open 
entrance to the consulate until security forces arrived.
    When SIGAR was established in 2008, the agency created four 
directorates to accomplish its mission: (1) Audits and Inspections, (2) 
Investigations, (3) Research and Analysis, and (4) Management and 
Support.\1\ In addition to these directorates, in 2012, SIGAR created 
its Special Projects program to examine emerging issues and deliver 
prompt, actionable reports to implementing agencies and Congress. The 
team conducts a variety of assessments and, to date, has produced 88 
inquiry and alert letters, reviews, fact sheets, and other products, on 
different aspects of the Afghanistan reconstruction effort. SIGAR was 
the only Inspector General with this capability until 2014, when 
State's Office of Inspector General followed SIGAR's lead by 
establishing a similar group within its own office.
---------------------------------------------------------------------------
    \1\ Formerly known as the Information Management directorate, 
Research and Analysis produces SIGAR's quarterly report to Congress. 
Management and Support provides human resources, budget, information 
technology, and other support to SIGAR's directorates and staff.
---------------------------------------------------------------------------
    In late 2014, SIGAR established another unique capability in the 
form of its Lessons Learned Program (LLP). SIGAR is the only Inspector 
General with the authority to look across the entire reconstruction 
effort in Afghanistan to analyze lessons learned and best practices. 
SIGAR's previous oversight work has exposed a series of systemic issues 
that have hindered the progress of agencies' reconstruction efforts in 
Afghanistan. These, along with the demonstrated successes of those and 
other efforts, will be incorporated into the lessons learned work.\2\
---------------------------------------------------------------------------
    \2\ Some of these systemic interagency problems, such as 
corruption, sustainability, counternarcotics, contract management and 
oversight, and strategy and planning, are detailed in SIGAR's December 
2014 High-Risk List.
---------------------------------------------------------------------------
    LLP is planning to release a series of reports focused on key 
aspects of the reconstruction effort that will contain actionable 
recommendations that can help to improve current and future 
reconstruction efforts. These reports will document what the U.S. 
Government sought to accomplish through its reconstruction efforts, 
assess what it achieved, and evaluate the degree to which these 
programs helped the United States reach its strategic goals in 
Afghanistan. These reports will distill this knowledge to produce 
recommendations to address the challenges stakeholders face in ensuring 
efficient, effective, and sustainable reconstruction efforts, not just 
in Afghanistan, but in future conflict zones. Through these reports, 
SIGAR plans on reaching a diverse audience in the legislative and 
executive branches, at both the strategic and programmatic levels, and 
in Washington, DC, and the field. LLP has four initial projects 
underway, which will address (1) interagency strategy and planning, (2) 
coordination of international donor assistance, (3) anti-corruption 
efforts, and (4) counternarcotics interventions in Afghanistan 
reconstruction. Future projects will focus on other significant issues.
    SIGAR sees the LLP and its lessons learned reports as a key legacy 
of SIGAR and is working to ensure the proper resourcing for this 
important effort. To staff the LLP, SIGAR has hired subject-matter 
experts with considerable experience working and living in Afghanistan. 
In producing its reports, the LLP is also leveraging the considerable 
skills, experience, and resources found throughout SIGAR in its Audits 
and Inspections, Investigations, Research and Analysis, and Special 
Projects directorates. By leveraging these resources, as well as 
SIGAR's unique interagency mandate, LLP intends to do everything it can 
to make sure that the lessons from the United States' largest 
reconstruction effort are identified, acknowledged, and most 
importantly, remembered and used to inform future reconstruction and 
development efforts.
SIGAR's Work Continues to Improve the Effectiveness and Efficiency of 
        Reconstruction Programs, and Reduce Fraud, Waste, and Abuse of 
        Funds
    SIGAR's investigations, audit, and other work continues to have 
positive impacts on ongoing and planned reconstruction programs and 
agency operations. Since 2008, SIGAR has identified over $1.6 billion 
in savings, representing a return of almost $8 for $1 appropriated to 
fund SIGAR. SIGAR's investigations have saved the U.S. Government more 
than $550 million. Forfeitures, fines, and restitution resulting from 
criminal investigations currently total over $18 million. In addition, 
SIGAR's investigative work has led to the conviction of over 80 
subjects, 64 of whom have been sentenced. During the first quarter of 
fiscal year 2015, SIGAR recovered a record $53.7 million for the U.S. 
Government from Civil Settlement Agreement payments, consisting of:
  --$25 million from Supreme Logistics FZE (Supreme) for falsifying 
        billing claims by submitting false claims to three prime global 
        transportation and logistics contractors, causing them to 
        overcharge the U.S. Government for refrigerated containers when 
        Supreme used dry goods containers; \3\
---------------------------------------------------------------------------
    \3\ The U.S. Transportation Command awarded a series of contracts, 
collectively referred to as the ``USC-06'' contracts, to three global 
transportation and logistics companies: Maersk Line Limited, American 
President Lines, and Hapag-Lloyd. Under various USC-06 contracts, those 
three companies transported food and cargo destined for U.S. troops in 
Afghanistan from the United States to Latvia or other intermediate 
ports in Europe. At that point, the three companies then arranged with 
various logistics vendors, one of which was Supreme, to carry the cargo 
the rest of the way to Afghanistan.
---------------------------------------------------------------------------
  --$20 million from Supreme Site Services Gmbh for over-billing for 
        fuel purchased by the Defense Logistics Agency for use by U.S. 
        and coalition military forces; and
  --$8.7 million from Maersk Line Limited for alleged failure of 
        performance and noncompliant shipments to military outposts 
        under a contract with DOD.
    This nearly equals SIGAR's total budget of $56.9 million for the 
current fiscal year. Other significant achievements from prior years 
include four convictions resulting from an investigation into an 
individual who used his position to steer more than $10 million in 
military supply contracts to a company owned and operated by his wife 
and mother-in-law. Two notable examples are the convictions of four 
individuals after a single investigation uncovered a complex scheme to 
steal U.S. Government fuel, and an investigation into a $1.75 million 
contract for a clinical engineering support program to assist the 
Afghan National Army (ANA) Medical Services that resulted in the 
contract being terminated for nonperformance and a $1.5 million cost 
savings for the U.S. Government.\4\
---------------------------------------------------------------------------
    \4\ SIGAR currently has 328 ongoing investigations.
---------------------------------------------------------------------------
    In addition, SIGAR has completed 188 audit and inspection reports 
and made 540 recommendations that have identified nearly $1.1 billion 
in questioned costs, funds that can be put to better use, and funds 
identified for potential recovery. Of that $1.1 billion, SIGAR's 
financial audit program identified approximately $107 million in 
questioned costs, $11.5 million of which has been sustained by the 
agencies so far. Of the 540 recommendations, State, USAID, and DOD have 
implemented 374, or almost 70 percent, with 100 recommendations still 
open. These recommendations have, among other things, strengthened 
contract oversight, management, and compliance; assisted in building 
and sustaining the capacity of the Afghan Government; and ensured 
accountability over on-budget support.\5\ For example, based on SIGAR's 
audit of the Afghan Air Force's medium-airlift requirement, we 
requested that DOD review those requirements and the Afghan Air Force's 
ability to fully use its two existing C-130 cargo planes before 
providing two additional planes. DOD subsequently determined that a 
fourth plane was unnecessary, resulting in potential savings of about 
$40.5 million: $19.8 million for the aircraft itself and $20.7 million 
for maintenance, parts, training, and aircraft modifications.\6\
---------------------------------------------------------------------------
    \5\ As of February 19, 2015, recommendation implementation rates by 
agency were approximately 66 percent for State, 72 percent for USAID, 
and 69 percent for DOD.
    \6\ SIGAR-14-80-AL, Afghan Air Force C-130 Aircraft, July 10, 2014, 
and SIGAR-14-80a-AL, Afghan Air Force C130 Aircraft Response, October 
6, 2014.
---------------------------------------------------------------------------
    SIGAR's audit, inspection, and quarterly reports continue to be 
used by U.S. agencies, international partners, and the highest levels 
of the Afghan Government to improve oversight and management of 
reconstruction efforts. During my most recent trip to Afghanistan in 
February 2015, I met with President Ashraf Ghani and his key advisors, 
at President Ghani's request. During that meeting, President Ghani 
thanked me for SIGAR's aggressive oversight work. He noted that he 
reads and uses SIGAR's audit and quarterly reports. For example, he 
carefully followed SIGAR's work examining issues regarding the United 
Nations Development Programme's (UNDP) management of the Law and Order 
Trust Fund for Afghanistan (LOTFA), which funds Afghan National Police 
(ANP) salaries.\7\ He also stated that he is pushing for major changes 
in the ANP's salary program as a result of SIGAR's recent audit of the 
reliability of ANP personnel and payroll data.\8\
---------------------------------------------------------------------------
    \7\ See SIGAR Special Project 14-57-SP, Inquiry Letter: UNDP LOTFA 
Oversight, May 13, 2014; SIGAR Special Project 14-98-SP, Inquiry 
Letter: UNDP LOTFA Oversight Response, September 12, 2014; SIGAR 
Special Project 14-99-SP, Inquiry Letter: CSTC-A Role of UNDP Oversight 
and Financial Management of LOTFA, September 17, 2014.
    \8\ SIGAR 15-26-AR, Afghan National Police: More than $300 Million 
in Annual, U.S.-funded Salary Payments Is Based on Partially Verified 
or Reconciled Data, January 7, 2015.
---------------------------------------------------------------------------
    SIGAR continues to have a good working relationship with the 
Department of Defense and its subcomponents and commands, most notably 
the Combined Security Transition Command--Afghanistan (CSTC-A). SIGAR 
has also taken great strides to improve its relationships with State 
and USAID. In addition, SIGAR coordinates regularly with the other 
Inspector General Offices and the Government Accountability Office to 
ensure coverage of all aspects of the reconstruction effort and prevent 
duplication of effort. For example, SIGAR participates in the Southwest 
Asia Joint Planning Group, which meets quarterly and produces the 
Comprehensive Oversight Plan for Southwest Asia. As an extra step to 
prevent duplication, SIGAR vets its performance audit notification 
letters with the DOD, State, and USAID Offices of Inspector General; 
and the Government Accountability Office prior to initiating those 
audits. Further, SIGAR's financial audit team meets frequently with the 
USAID Mission for Afghanistan to ensure, to the extent possible, that 
USAID's reconstruction contracts, grants, and cooperative agreements 
are audited.
SIGAR Has Taken Steps to Overcome Challenges to Completing Its 
        Oversight Mission
    With the transfer of full responsibility for securing Afghanistan 
to the Afghan Government, the end of the International Security 
Assistance Force mission, and the beginning of the Resolute Support 
Mission, a new phase of the Afghanistan reconstruction effort has 
begun. The Afghan Government and international community refer to this 
as the ``Transformation Decade,'' which began in 2015 and ends in 2024. 
To help guide SIGAR during this period of rapid change in Afghanistan 
and address, among other things, how the office will conduct its 
oversight mission with less direct access to program and project sites, 
SIGAR developed a transition plan for 2014 through 2016. The plan 
ensures that SIGAR's transition activities are synchronized with its 
strategic plan and other U.S. agencies' transition plans. Over time, 
and as appropriate, SIGAR will adjust its functions, methods, products, 
and practices, adopting new ones when necessary, to continue to provide 
seamless, independent oversight of the reconstruction effort. Further, 
SIGAR will take all measures necessary to uphold Government standards 
of quality in carrying out its oversight.
    For example, to expand our ability to monitor projects remotely, 
SIGAR has hired six Afghan engineers and analysts to assist with audit 
and inspection work. These local employees have greater freedom of 
movement, allowing them to visit sites and facilities that SIGAR's U.S. 
staff is unable to visit. In addition, in December 2014, SIGAR signed a 
cooperative agreement with Integrity Watch Afghanistan (IWA), a well-
respected Afghan nongovernmental organization, to conduct site visits, 
including inspections and engineering assessments of U.S.-funded 
projects. SIGAR has assigned an agreement officer to work closely with 
IWA to ensure that its work meets generally accepted Government 
auditing standards (GAGAS) and SIGAR's internal quality control 
requirements. SIGAR has also expanded its use of geospatial imaging 
through agreements with the National Geospatial-Intelligence Agency and 
Army Geospatial Center. SIGAR is currently pursuing additional methods 
for remote monitoring.
    In addition, SIGAR plans to continue its financial audit 
program.\9\ Established in 2012, the SIGAR financial audit program 
contracts with independent public auditing firms to perform financial 
audits of completed reconstruction contracts. SIGAR staff oversees the 
firms' completion of these financial audits, from notification to the 
final report, to ensure the work complies with GAGAS and SIGAR quality 
control standards. To date, SIGAR has completed 38 financial audits, 
which have, as noted above, identified approximately $107 million in 
questioned costs, $11.5 million of which has been sustained by the 
agencies, and another 30 financial audits ongoing. When questioned 
costs are identified, SIGAR investigators review those costs and 
initiate criminal investigations, when applicable.
---------------------------------------------------------------------------
    \9\ SIGAR produces two types of audits: (1) financial and (2) 
performance. Financial audits evaluate completed reconstruction 
contracts and identify questioned costs, if any, resulting from 
significant deficiencies in the audited entity's internal controls 
related to the contracts, and any instances of noncompliance with 
contract requirements and applicable laws and regulations. Performance 
audits provide objective analysis of the effectiveness and efficiency 
of reconstruction programs and make recommendations to improve 
performance and operations, reduce costs, and facilitate decisionmaking 
by parties with responsibility to oversee or initiate corrective action 
for public accountability.
---------------------------------------------------------------------------
    SIGAR is also coordinating closely with the Afghan Attorney 
General's office to refer criminal and civil cases involving Afghans 
for prosecution in Afghanistan. For example, SIGAR conducted an 
investigation into bid rigging on the Afghan Ministry of Defense's 
(MOD) contract to deliver fuel to ANA sites throughout Afghanistan and 
other contracts. In early February 2015, a SIGAR investigator; Major 
General Todd Semonite, the CSTC-A commander; and others attended a 
meeting with President Ghani at the presidential palace regarding the 
investigation. Based on SIGAR's work, President Ghani suspended the 
fuel contract and assigned a representative to investigate the alleged 
collusion. That representative has since informed SIGAR that President 
Ghani cancelled the fuel contract completely and that six MOD officials 
were suspended pending the results of the investigation. SIGAR was also 
informed that CSTC-A would fund $280 million per year on the contract. 
That amount includes $80 million in reserve funding per year. In order 
to draw upon the reserve funding, MOD would have to justify and account 
for its fuel usage, thus placing conditionality on that funding. In 
addition to referring cases to the Afghan Government, SIGAR plans to 
share lessons learned with Afghan central government auditors and 
facilitate their relationship with the Government Accountability Office 
and the International Organization of Supreme Audit Institutions.
  sigar has identified seven areas of high risk to the success of the 
               u.s. reconstruction effort in afghanistan
    Although State, USAID, and DOD have each experienced some successes 
in their individual reconstruction efforts, multiple challenges exist 
that could undermine the success of the overall U.S. reconstruction 
effort. Building on the seven questions SIGAR developed in early 2013 
to guide decision makers as they consider whether and how best to use 
the remaining reconstruction funds,\10\ in December 2014, SIGAR issued 
its first High-Risk List to call attention to program areas and 
elements of the U.S.-funded reconstruction effort in Afghanistan that 
are especially vulnerable to significant waste, fraud, and abuse.\11\ 
With the list, SIGAR seeks to highlight program areas SIGAR believes 
agencies, such as State, USAID, and DOD, need to focus on and discuss 
how specific agencies are failing to mitigate risks in areas under 
their purview. In addition to driving agencies to evaluate and address 
their own operations, SIGAR intends to use the list as an internal tool 
for planning its own oversight work in order to develop recommendations 
to help Congress and the agencies correct major deficiencies. The list 
proposes some key questions for Congress and the agencies to consider 
to improve their reconstruction efforts. In addition to informing U.S. 
stakeholders, the list should assist the new Afghan national unity 
government in planning and implementing its reform agenda.
---------------------------------------------------------------------------
    \10\ See SIGAR, Quarterly Report to the United States Congress, 
January 30, 2013, and SIGAR, Statement for the Record, Committee on 
Appropriations, Subcommittee on the Department of State, Foreign 
Operations, and Related Programs, U.S. Senate, Reducing Waste, 
Improving Efficiencies, and Achieving Savings in U.S. Reconstruction of 
Afghanistan, April 18, 2013.
    \11\ SIGAR, High-Risk List, December 2014.
---------------------------------------------------------------------------
    SIGAR's first High-Risk List identifies seven program areas:

    1.  Corruption/Rule of Law
    2.  Sustainability
    3.  ANSF Capacity and Capabilities
    4.  On-Budget Support
    5.  Counternarcotics
    6.  Contract Management and Oversight Access
    7.  Strategy and Planning

    Although other areas of risk exist, SIGAR selected these seven 
program areas because they are essential to the success of the 
reconstruction effort. In other words, if there is a failure in any of 
these areas, the entire 13-year reconstruction effort could fail, 
resulting in billions of dollars in taxpayer funds being wasted. These 
seven areas are also at risk of significant and large scale failure due 
to fraud, waste, or abuse; elements of ongoing or planned 
reconstruction programs and projects; and subject to the control or 
influence of the U.S. Government.
    SIGAR recognizes that even in conflict-free areas, no 
reconstruction or development program or project is without risk of 
fraud, waste, and abuse. This risk is greater in insecure and unstable 
conflict areas, such as Afghanistan. However, SIGAR's work and the work 
of other oversight agencies has shown reconstruction efforts in 
Afghanistan are at unnecessarily high risk, which agencies could 
mitigate by taking appropriate corrective actions.
Corruption/Rule of Law
    Corruption is one of the most serious threats to the U.S.-funded 
Afghanistan reconstruction effort. In a February 2014 report, the DOD 
Joint Staff wrote, ``Corruption alienates key elements of the 
population, discredits the government and security forces, undermines 
international support, subverts state functions and rule of law, robs 
the state of revenue, and creates barriers to economic growth.'' \12\
---------------------------------------------------------------------------
    \12\ DOD, Joint and Coalition Operational Analysis (JCOA), division 
of Joint Staff J-7 (Joint Force Development), Operationalizing Counter/
Anti-Corruption Study, February 28, 2014.
---------------------------------------------------------------------------
    Reducing corruption and increasing accountability are important 
components of the U.S. reconstruction strategy in Afghanistan. However, 
in 2010, SIGAR reported that more than $50 billion in U.S. assistance 
had been provided for reconstruction in Afghanistan since 2002 without 
the benefit of a comprehensive anti-corruption strategy, and that U.S. 
anticorruption efforts had provided relatively little assistance to 
some key Afghan institutions.\13\ In a 2013 follow-up review, SIGAR 
found that although an additional $46 billion had been appropriated for 
reconstruction, the United States still did not have a comprehensive 
strategy or related guidance that defined clear goals and objectives 
for U.S. efforts to fight corruption.\14\
---------------------------------------------------------------------------
    \13\ SIGAR Audit 10-15, U.S. Reconstruction Efforts in Afghanistan 
Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption 
Strategy, August, 5, 2010.
    \14\ SIGAR Special Project Report SP-13-9, U.S. Anti-Corruption 
Efforts: A Strategic Plan and Mechanisms to Track Progress are Needed 
in Fighting Corruption in Afghanistan, September 11, 2013.
---------------------------------------------------------------------------
    In 2012, SIGAR's Investigations directorate enhanced its 
relationship with the Afghan Attorney General's office and began 
documenting criminal activity by senior government officials and Afghan 
businessmen, and referring those matters to the Attorney General's 
office for action. More recently, in April 2014, SIGAR reported that 
the single biggest issue limiting the Afghan Government's collection of 
customs revenue is corruption.\15\ This is a significant loss since 
customs revenue has accounted for between 44 and 48 percent of 
Afghanistan's total domestic revenue for the past 3 years. Increasing 
domestic revenue is a key goal of both the U.S. and the Afghan 
Governments, and significantly reducing or eliminating corruption could 
double customs revenues. However, despite spending $198 million to 
develop Afghan capacity to assess and collect customs revenue, its 
potential as a stable source of government income remains uncertain.
---------------------------------------------------------------------------
    \15\ SIGAR Audit 14-47-AR, Afghan Customs: U.S. Programs Have Had 
Some Successes, but Challenges Will Limit Customs Revenue as a 
Sustainable Source of Income for Afghanistan, April 15, 2014.
---------------------------------------------------------------------------
    Key questions for consideration are:
  --To what extent have U.S. technical assistance and capacity-building 
        programs dedicated sufficient resources to reducing corruption 
        within the Afghan Government?
  --What steps has the Afghan Government taken to pursue criminal 
        action against those matters referred by SIGAR?
  --What steps are U.S. agencies and the Afghan Government taking to 
        reduce corruption within Afghanistan's customs collection 
        system?
Sustainability
    Much of the more than $107 billion the United States has committed 
to reconstruction projects and programs risks being wasted because the 
Afghans cannot sustain the investment without significant support from 
the United States and other donors. However, Afghanistan lacks the 
capacity--financial, technical, managerial, or otherwise--to operate 
and maintain much of what has been built or established during more 
than a decade of international assistance. For example, the Afghan 
Government's budget for 2014 was nearly $7.6 billion; however, the 
Government expected revenues to only cover $2.8 billion, or less than 
37 percent, of that amount, with donor grants making up the rest.
    SIGAR's work has shown that State, USAID, and DOD have not always 
considered sustainability when planning programs or projects, 
jeopardizing the massive investment that the United States and other 
international donors have made. For example, a 2013 audit examining the 
$18.5 million in USAID funds spent to build two hospitals in 
Afghanistan found that USAID did not fully assess the Afghan Ministry 
of Public Health's (MOPH) ability to operate and maintain the 
facilities. The new operation and maintenance costs for the two 
hospitals could be five times the costs of the hospitals they replaced, 
a burden that neither USAID nor the MOPH has agreed to assume.\16\
---------------------------------------------------------------------------
    \16\ SIGAR Audit 13-9, Health Services in Afghanistan: Two New 
USAID-Funded Hospitals May Not Be Sustainable and Existing Hospitals 
Are Facing Shortages in Some Key Medical Positions, April 29, 2013.
---------------------------------------------------------------------------
    Further, both the international community and the Afghan Government 
agree that improving the energy sector is essential to Afghanistan's 
economic progress and long-term viability. However, the Afghans cannot 
afford to pay for much of the electric power infrastructure that the 
U.S. reconstruction effort has provided. In 2014, SIGAR reported that 
over 2 years after its completion, the Kabul Power Plant, a 105-
megawatt power plant on the outskirts of Kabul built under a USAID 
contract--was not being operated and maintained in a sustainable manner 
by the Afghan national power utility, Da Afghanistan Breshna 
Sherkat.\17\
---------------------------------------------------------------------------
    \17\ SIGAR Audit 13-2, Afghanistan's National Power Utility: $12.8 
Million In DOD-Purchased Equipment Sits Unused, and USAID Paid a 
Contractor for Work Not Done, December 18, 2012.
---------------------------------------------------------------------------
    In addition to conducting audits, inspections, and special 
projects, SIGAR investigates cases involving sub-standard construction 
of critical facilities that not only detracts from their expected life 
spans but also presents an immediate safety risk for the individuals 
occupying those facilities.
    Questions for consideration are:
  --To what extent has the Afghan Government made progress in 
        generating revenues to fund government operations?
  --To what extent have U.S. agencies developed plans for sustaining 
        their programs and projects that will be turned over to the 
        Afghan Government and coordinated these plans with the relevant 
        Afghan ministries?
ANSF Capacity and Capabilities
    A stable security environment is vital to prevent Afghanistan from 
again becoming a safe haven for terrorists and to enable much-needed 
reconstruction and development activities to occur. A well-developed 
and fully capable ANSF is critical to achieving and maintaining this 
security. As such, a key component of the U.S. and international 
reconstruction effort has been to build the capacity of the ANSF. As of 
January 2015, Congress had appropriated more than $60 billion to build, 
equip, train, and sustain the ANSF, and DOD has requested an additional 
$3.8 billion for fiscal year 2016. However, this significant investment 
in Afghanistan's security is at risk, particularly in light of the end 
of the U.S. and coalition military combat mission at the end of 2014 
and drawdown of those forces.
    SIGAR has developed a substantial body of work on U.S. efforts to 
develop the ANSF in areas such as infrastructure construction and 
maintenance; equipment and other resources, and maintenance of that 
equipment; personnel management; capabilities of the ANSF; and 
training. For example, in a 2014 audit of ANSF literacy training, SIGAR 
reported that widespread illiteracy undermines effective training, use 
of technical manuals, understanding orders, inventorying equipment, 
documenting operations, and other vital military functions. Despite a 
$200 million literacy training contract, the NATO Training Mission--
Afghanistan and CSTC-A did not have the ability to measure the 
effectiveness of the training or to determine the extent to which 
overall literacy of the ANSF had improved.\18\ In a 2012 audit of ANSF 
facilities, SIGAR found that the Afghan Government would likely be 
incapable of fully sustaining ANSF facilities after the transition in 
2014 and the expected decrease in U.S. and coalition support. The 
Afghan Government's challenges in assuming operation and maintenance 
responsibilities included a lack of sufficient numbers and quality of 
personnel, as well as undeveloped budgeting, procurement, and logistics 
systems.\19\
---------------------------------------------------------------------------
    \18\ SIGAR Audit 14-30-AR, Afghan National Security Forces: Despite 
Reported Successes, Concerns Remain About Literacy Program Results, 
Contract Oversight, Transition and Sustainment, January 28, 2014.
    \19\ SIGAR Audit 13-1, Afghan National Security Forces Facilities: 
Concerns with Funding, Oversight, and Sustainability for Operation and 
Maintenance, October 30, 2012.
---------------------------------------------------------------------------
    Based on SIGAR's work, possible questions on the capability of the 
ANSF include:
  --To what extent is the ANSF making sufficient progress toward 
        becoming a fully capable and self-sustaining force that is able 
        to successfully secure Afghanistan?
  --What safeguards has DOD implemented--or planned to implement--to 
        strengthen accountability for U.S.-funded equipment and 
        infrastructure, and ensure the Afghans have the capacity and 
        capability to account for, fully utilize, and maintain this 
        equipment and infrastructure?
On-Budget Support
    SIGAR continues to have concerns about the risk to U.S. funds 
provided to the Afghan Government in the form of on-budget assistance, 
which includes direct assistance (also referred to as bilateral 
assistance), government-to-government assistance, and assistance that 
travels through multi-donor trust funds before reaching the Afghan 
Government.\20\ Since 2002, the United States has committed a total of 
more than $7.7 billion in the form of on-budget assistance to 
Afghanistan.
---------------------------------------------------------------------------
    \20\ The major multi-donor trust funds for Afghanistan are the 
Afghanistan Reconstruction Trust Fund, managed by the World Bank ($2.04 
billion in cumulative U.S. contributions); the Afghanistan 
Infrastructure Trust Fund, managed by the Asian Development Bank ($105 
million in cumulative U.S. contributions); and LOTFA, managed by UNDP 
($1.45 billion in U.S. contributions).
---------------------------------------------------------------------------
    SIGAR's prior work has shown that many ministries lack the capacity 
or necessary internal controls to effectively manage and account for 
on-budget assistance funds, and are unable to do so in a transparent 
manner that enables U.S. agencies to oversee those funds. A 2013 audit 
of the $236 million Partnership Contracts for Health program raised 
serious concerns about an on-budget program that supports the MOPH's 
delivery of healthcare services to local clinics and hospitals. The 
audit found that, despite MOPH financial-management deficiencies, USAID 
continued to provide millions of U.S. taxpayer dollars in direct 
assistance with little assurance that MOPH is using these funds as 
intended.\21\ Yet another audit found that USAID's assessments of seven 
Afghan ministries receiving on-budget assistance from the U.S. 
Government found that none of the ministries would be capable of 
effectively managing and accounting for those funds unless they 
implemented a series of required risk-mitigation measures developed by 
USAID.\22\ Further, in a review of DOD's safeguards for funds provided 
to the MOD and Ministry of Interior (MOI), SIGAR identified a number of 
weaknesses that increased the risk that on-budget funds provided to the 
ANSF that made those funds particularly vulnerable to waste, fraud, and 
abuse.\23\
---------------------------------------------------------------------------
    \21\ SIGAR Audit 13-17, Health Services in Afghanistan: USAID 
Continues Providing Millions of Dollars to the Ministry of Public 
Health Despite the Risk of Misuse, September 5, 2013.
    \22\ SIGAR Audit 14-32-AR, Direct Assistance: USAID Has Taken 
Positive Action to Assess Afghan Ministries' Ability to Manage Donor 
Funds, but Concerns Remain, January 30, 2014.
    \23\ SIGAR Special Project Report 14-12-SP, Comprehensive Risk 
Assessments of MOD and MOI Financial Management Capacity Could Improve 
Oversight of Over $4 Billion in Direct Assistance Funding, December 3, 
2013.
---------------------------------------------------------------------------
    One way to improve Afghan ministries' ability to manage and account 
for on-budget assistance is to make this assistance conditional on the 
ministries taking defined actions to improve their financial 
management, procurement, strategic planning, and auditing capabilities, 
among others. During my recent meeting, President Ghani voiced his 
support for conditionality on assistance provided to the Afghan 
Government, adding that he plans to use conditionality to keep his 
government focused on meeting performance targets and prioritizing its 
key tasks. In addition, CSTC-A recently made a small portion of its on-
budget support to the MOI conditional on the ministry taking steps to 
approve its accounting for ANP personnel and salaries. However, State 
and USAID have yet to fully embrace the conditionality as part of their 
on-budget support.
    Given the ongoing concerns about on-budget support, questions for 
consideration are:
  --What conditions should U.S. agencies impose on Afghan ministries 
        before distributing on-budget funding to the Afghan Government?
  --What steps are agencies taking to achieve Afghan transparency in 
        the use of U.S. on-budget assistance?
  --What level of oversight access do U.S. officials have to documents, 
        personnel, and locations funded through on-budget support?
Counternarcotics
    The expanding cultivation and trafficking of drugs puts the entire 
U.S. and international investment in the reconstruction of Afghanistan 
at risk. The narcotics trade, which not only supports the insurgency 
but also feeds organized crime and corruption, puts the gains the U.S. 
agencies and their international partners have achieved over the past 
13 years in women's issues, health, education, rule of law, and 
governance in jeopardy. Although the United States has invested $8 
billion, as of December 30, 2014, in counternarcotics efforts in 
Afghanistan, that country still leads the world in opium production, 
and Afghan farmers are growing more opium than ever before.
    Both SIGAR's October 2014 quarterly report and a special project on 
opium cultivation highlighted the ineffectiveness of law enforcement 
and alternative livelihoods programs in combating opium 
cultivation.\24\ A SIGAR report on the Counternarcotics Justice Center 
(CNJC) alerted U.S. officials that the CNJC's $11 million detention 
facility was not being used for high-profile drug traffickers as 
intended; rather, the cells were being occupied by low-profile 
detainees. Because the detention center was filled with low-profile 
detainees, no cells were available to house mid- and high-profile drug 
traffickers. SIGAR also noted that, at the time, the CNJC did not have 
procedures in place to handle a high case load.\25\
---------------------------------------------------------------------------
    \24\ SIGAR, Quarterly Report to the United States Congress, October 
30, 2014, and SIGAR Special Project Report 15-10-SP, Poppy Cultivation 
in Afghanistan: After a Decade of Reconstruction and Over $7 Billion in 
Counternarcotics Efforts, Poppy Cultivation Levels Are at an All-Time 
High, October 14, 2014.
    \25\ SIGAR Audit-09-7, Documenting Detention Procedures Will Help 
Ensure Counter-Narcotics Justice Center Is Utilized As Intended, 
September 30, 2009.
---------------------------------------------------------------------------
    SIGAR investigations routinely involve analysis of financial flows 
out of Afghanistan. For law enforcement to be effective in combating 
the narcotics trade, financial information must be made transparent to 
ensure that illegal networks can be identified and eliminated. For this 
to be accomplished, it is imperative the Afghan Government be Financial 
Action Task Force (FATF) compliant.\26\
---------------------------------------------------------------------------
    \26\ FATF is an inter-governmental body established to set 
standards and promote effective implementation of legal, regulatory, 
and operational measures for combating money laundering, terrorist 
financing, and other related threats to the integrity of the 
international financial system.
---------------------------------------------------------------------------
    Some questions for consideration on the counternarcotics issue are:
  --To what extent has U.S. assistance for counternarcotics efforts in 
        Afghanistan succeeded in achieving its overarching goals and 
        objectives?
  --To what extent is the Afghan Government capable of assuming a lead 
        role--and sustaining--the fragile progress made by U.S.-
        supported counternarcotics operations?
  --What steps has the Afghan Government taken to be fully FATF 
        compliant?
Contract Management and Oversight Access
    U.S. military and civilian agencies in Afghanistan rely heavily on 
contractors to carry out their missions. At times, the number of 
contractor employees has exceeded the number of in-country U.S. 
military personnel. Although contracting has provided indispensable 
support of the U.S. mission, it has also been a massive opportunity for 
waste, fraud, and abuse, and an enormous challenge to effective 
oversight of funding and performance.
    SIGAR has repeatedly found problems with agencies' management and 
oversight of contracts and other agreements. In January 2015, SIGAR 
reported that it could not complete a full inspection of Gorimar 
Industrial Park, built under a $7.7 million USAID contract because 
USAID was unable to locate project design, planning, construction, 
quality assurance, and related documents that the agency should have 
maintained in accordance with the Federal Acquisition Regulation.\27\ 
Another inspection found that a contractor's noncompliance with 
contract requirements and inadequate contract oversight of the 
construction of a dry fire range for the ANP in Wardak province 
resulted in serious structural deficiencies in the facility.\28\ 
Notably, improper substitution of clay bricks for bricks composed 
mostly of sand resulted in water penetration that essentially 
``melted'' the facility building. Because of these irreparable damages, 
the ANP demolished and is currently rebuilding the facility, 
representing a waste of the almost $500,000 in U.S. funds spent on the 
initial construction.
---------------------------------------------------------------------------
    \27\ SIGAR Inspection 15-30-IP, Gorimar Industrial Park: Lack of 
Electricity and Water Have Left This $7.7 Million U.S.-funded 
Industrial Park Underutilized by Afghan Businesses, January 27, 2015.
    \28\ SIGAR Inspection 15-27-IP, Afghan Special Police Training 
Center's Dry Fire Range: Poor Contractor Performance and Poor 
Government Oversight Led to Project Failure, January 13, 2015.
---------------------------------------------------------------------------
    The increasing difficulties U.S. agencies are having--due to, among 
other things, drawdown of U.S. and coalition military personnel, 
deteriorating security conditions across Afghanistan, and the ongoing 
normalization of Embassy Kabul's operations and presence--have made it 
much more difficult for agency personnel to oversee their programs and 
projects first-hand, thus exacerbating ongoing problems with contract 
oversight. USAID has developed a multi-tiered monitoring and evaluation 
strategy for Afghanistan that includes using independent, third-party 
contractors to monitor and evaluate the agency's programs. State is 
reportedly taking similar steps.
    Although U.S. agencies may be well intentioned in their efforts to 
rebuild Afghanistan, SIGAR remains concerned that the agencies are 
implementing and have planned several large-scale reconstruction 
programs without fully determining how they will oversee those 
programs. For example, in October 2014, USAID announced the launch of 
Promoting Gender Equity in National Priority Programs (Promote), a 5-
year, $416 million program that, according to USAID, is ``the largest 
women's empowerment program supported by USAID anywhere in the world.'' 
\29\ Promote's primary goal is to strengthen Afghanistan's development 
by boosting female participation in the economy, helping women gain 
business and management skills, supporting women's rights groups, and 
increasing the number of women in decisionmaking positions within the 
Afghan Government. However, it is currently unclear the extent to which 
USAID will be able to effectively implement, monitor, and assess the 
impact of Promote and the extent to which the program will achieve its 
overall goal.
---------------------------------------------------------------------------
    \29\ Of the $416 million, USAID will fund $216 million and other 
international donors are expected to fund $200 million.
---------------------------------------------------------------------------
    Key questions for consideration regarding U.S. agencies' contract 
management and oversight are:
  --If security conditions prevent U.S. access for direct management 
        and oversight in some areas, to what extent have agencies made 
        reasonable plans for adequate and verifiable remote or third-
        party monitoring of contractor performance?
  --What steps have agencies taken to improve contract management and 
        oversight, particularly agency personnel's adherence to 
        existing regulations and policies and contractors' adherence to 
        the terms of their agreements?
Strategy and Planning
    U.S. agencies have sought to coordinate their efforts to achieve 
the U.S. reconstruction objectives in Afghanistan through a series of 
Civil-Military Strategic Frameworks (2012 and 2013) and United States 
Integrated Civilian-Military Campaign Plans (2009 and 2011). Since 
fiscal year 2007, the number of reconstruction projects and programs 
implemented has dramatically increased. However, SIGAR's work has shown 
that there has been a gap between the high-level strategic documents 
and the various projects and programs being implemented. This lack of 
strategic and operational planning to ensure that U.S. activities in 
Afghanistan actually contribute to overall national goals threatens to 
cause agencies and projects to work at counter-purposes, spend money on 
duplicative or unnecessary efforts and endeavors, or fail to coordinate 
efforts to maximize their impact.
    For example, a 2014 SIGAR audit found that although the U.S. 
Government has developed a comprehensive water strategy for U.S. 
agencies working in Afghanistan, USAID did not meet three of its key 
objectives in four of the nine water projects it has funded since 
fiscal year 2010.\30\ During the course of another audit of State's 
Justice Sector Support Program, Embassy officials told SIGAR that they 
were currently updating the 2009 U.S. Government Rule of Law Strategy 
for Afghanistan to, among other things, assist them to identify overall 
goals for the Afghan justice sector and help them develop policies and 
programs to achieve those goals. However, this strategy has not been 
finalized, and there is no clear timeline for its completion.\31\
---------------------------------------------------------------------------
    \30\ SIGAR Audit 14-52-AR, Afghanistan's Water Sector: USAID's 
Strategy Needs to Be Updated to Ensure Appropriate Oversight and 
Accountability, April 24, 2014.
    \31\ SIGAR Audit 14-26-AR, Support for Afghanistan's Justice 
Sector: State Department Programs Need Better Management and Stronger 
Oversight, January 24, 2014.
---------------------------------------------------------------------------
    Key questions for consideration are:
  --To what extent do agencies monitor and evaluate the contributions 
        of specific programs and projects to higher-level U.S. 
        strategic reconstruction goals for Afghanistan?
  --What mechanisms exist to facilitate interagency coordination, and 
        how effective are these mechanisms?
                               conclusion
    Since 2002, the United States has provided billions of dollars to 
rebuild Afghanistan and prevent it from again becoming a safe haven for 
terrorist groups. The transfer of security responsibility for the 
country to the Afghan Government, the end of the U.S. and coalition 
combat mission, and the drawdown of international forces does not mean 
the reconstruction effort is over. Much remains to be done before 
Afghanistan becomes a country that can ensure its own stability and 
security with a capable and self-sustaining ANSF, and has a stable 
government that can provide necessary services, such as rule of law and 
education, to its citizens. The success of this effort greatly hinges 
on the U.S. Government's ability to efficiently and effectively provide 
reconstruction assistance to Afghanistan and ensure that funds are not 
wasted or abused in what is the most costly rebuilding program for a 
single nation in U.S. history. SIGAR is committed to assisting 
Congress, U.S. agencies, and other stakeholders by continuing to 
provide the aggressive and independent oversight of the reconstruction 
effort.
    Thank you for the opportunity to provide this statement to assist 
your oversight of U.S.-funded reconstruction efforts in Afghanistan. 
SIGAR shares your commitment to protecting U.S. funds from waste, 
fraud, and abuse, and is available to answer any questions you may 
have.
                                 ______
                                 
 Prepared Statement of Catherine M. Trujillo, Acting Deputy Inspector 
           General, U.S. Agency for International Development
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee, I am pleased to provide this written statement to the 
subcommittee on behalf of the Office of Inspector General (OIG) for the 
U.S. Agency for International Development (USAID). In the following 
pages, I address our oversight and budget requirements as well as 
challenges that the agencies we oversee confront in managing and 
implementing assistance activities abroad.
              usaid office of inspector general oversight
    USAID OIG was established to combat waste, fraud, and abuse and 
promote economy, efficiency, and effectiveness in foreign assistance 
programs. Our oversight responsibilities extend across USAID programs 
and activities, as well as those of the Millennium Challenge 
Corporation (MCC), U.S. African Development Foundation, and Inter-
American Foundation. In addition, OIG has limited oversight authority 
and responsibility relating to the Overseas Private Investment 
Corporation (OPIC).
    OIG executes this mission by conducting audits and reviews of 
agency foreign assistance programs and operations; by investigating 
allegations of fraud, waste, and abuse; and by conducting extensive 
outreach to educate and raise awareness among stakeholders about their 
responsibilities to help prevent, detect, and report mismanagement, 
fraud, waste, and abuse. OIG employs dedicated Foreign and Civil 
Service auditors, analysts, investigators, and Foreign Service 
Nationals to carry out oversight of foreign assistance programs around 
the world. To ensure independence, OIG maintains administrative, 
personnel, and information technology (IT) systems separate and apart 
from USAID's. By law, we obtain legal counsel from our own staff of 
attorneys, and we fund and independently execute our own management, 
communications, and reporting responsibilities.
    OIG seeks to deliver a consistently high level of performance and 
productivity in providing independent oversight of foreign assistance 
programs. Last year, we made good on that commitment through the 
issuance of 694 financial and performance audits and reviews with more 
than 1,100 recommendations for improving foreign assistance programs. 
These audits identified $167 million in questioned costs and funds to 
be put to better use, and during the course of the year agency 
officials sustained approximately $117 million in costs that we had 
questioned. Meanwhile, OIG investigative work led to 8 arrests and 96 
administrative actions such as suspensions, debarments, and 
terminations of employment. In total, OIG investigations contributed to 
more than $23 million in savings and recoveries in fiscal year 2014. To 
promote fraud awareness and reinforce adherence to appropriate spending 
and accounting practices, OIG provided more than 280 briefings and 
training sessions for approximately 8,700 attendees.
    Overall, even by the most conservative appraisal, OIG has 
consistently served as a net source of revenue for the Federal 
Government. For every dollar OIG has spent over the past 5 years, the 
agencies we oversee have recouped almost three dollars in sustained 
questioned costs, funds to be put to better use, and investigative 
savings and recoveries. In addition to these clear direct returns, OIG 
has contributed to future economies and efficiencies by strengthening 
systems and controls and helping to get agency programs and activities 
back on track. By making it plain that there is a cop on the beat in 
high-risk international settings, OIG activity has also had a deterrent 
effect against waste, fraud, and abuse.
    While OIG can point to a strong track record of providing effective 
oversight and adding value to foreign assistance efforts, our ability 
to continue to meet our mandate is in question. As we look forward to 
fiscal year 2016, OIG confronts new oversight requirements and must 
take steps to shore up its internal systems, but has not been budgeted 
the resources that OIG believes are necessary to address these needs.
    USAID's push to expand its use of host country systems in 
implementing assistance programs under the Local Solutions Initiative 
has increased OIG oversight requirements. As the number of new local 
partners has increased, OIG has had to expand audit and outreach 
efforts to ensure appropriate controls are in place and that new 
partners understand fraud reporting requirements and procedures. OIG 
has also had to work more intensively with local law enforcement, 
prosecutors, and courts to address misuse of U.S. Government funds on 
the part of a growing base of USAID implementing partners not subject 
to U.S. legal jurisdiction. Rather than one court system, OIG must seek 
to advance prosecutions and recoveries in many jurisdictions scattered 
across the globe. This greatly complicates our work and significantly 
adds to coordination and liaison requirements.
    These developments coincide with the expansion of whistleblower 
protections to Federal contractors. Congress extended whistleblower 
protections previously enjoyed by Federal employees to employees of 
Federal contractors and grantees on a pilot basis. Provided these 
additional protections, employees of foreign assistance implementing 
partners may be more willing to report allegations regarding waste, 
fraud, abuse, and mismanagement to our office. Consequently, we have 
intensified outreach to implementing partner personnel with the aim of 
increasing their awareness of these protections. Because employees of 
agency contractors and grantees are often in the best position to 
observe fraud, waste, and mismanagement in foreign assistance programs, 
OIG believes that these additional protections have and will continue 
to encourage more of these personnel to report matters of concern to 
OIG.
    The emergence of two overseas contingency operations (OCOs) related 
to the Ebola (Operation United Assistance) and ISIL (Operation Inherent 
Resolve) response efforts has also placed additional demands on our 
office. Whereas in the past, special inspectors general were 
established to provide oversight for contingency operations in Iraq and 
Afghanistan, in 2012, Congress amended the Inspector General Act to 
provide for a Lead Inspector General to work with counterpart OIGs to 
provide oversight of future OCOs. This arrangement was adopted to 
increase the efficiency of oversight efforts by leveraging the 
specialized knowledge and standing capacity of the OIGs for USAID and 
the Departments of Defense and State. While this new framework promises 
to deliver the kind of contingency operation oversight that Congress 
and the public expect, it also entails more intensive oversight, 
outreach, coordination, and reporting on the part of all OIGs 
associated with an OCO, including our office. Notwithstanding these 
additional requirements and responsibilities, USAID OIG did not receive 
funding to fully address Ebola-related oversight needs in our view, or 
any additional resources to support OCO oversight contributions in 
Syria and Iraq.
    Not only has the intensity of OIG oversight requirements increased, 
so too has the amount of funding for which USAID OIG is likely to be 
responsible. In addition to substantial funding for Ebola-related 
activities in the recent appropriation, USAID and MCC accounts received 
a significant increase in the fiscal year 2016 Budget Request.\1\
---------------------------------------------------------------------------
    \1\ OIG oversight of MCC is funded through MCC's appropriation.
---------------------------------------------------------------------------
    By any measure, expectations and requirements for our office have 
grown, yet our budget reflects historic levels of spending. In fact, 
the amount provided for our office in the fiscal year 2016 budget 
request is consistent with what we spent last year. So, while our 
requirements are increasing, the levels of funding available to us are 
standing still.
    While promoting efficiency in the agencies we oversee, OIG has 
consistently looked for ways to find economies in its oversight 
operations. In the austere budget climate of the past several years, 
however, OIG has cut funding in several areas that can no longer go 
unsupported without adversely affecting the quality of its work. 
Important training and professional development activities have been 
canceled or postponed, and internal support systems vital to OIG 
independence such as those associated with IT and human capital, have 
been under-resourced. These and other internal requirements must be 
addressed for OIG to continue to properly perform mission-critical 
oversight functions.
    These challenges are taking a toll on the organization. OIG's IT 
and human capital systems are not resourced to deliver the level of 
service we need to remain an effective, independent organization. Our 
auditors are struggling to keep pace with demands to examine emerging 
issues of congressional and public interest and have had to set aside 
assessments of the implementation of significant policy and program 
initiatives. OIG criminal investigators face average caseloads that 
increased by 75 percent over the past several years, and leads are 
going cold while they wait in the queue. These conditions have created 
an environment in which turnover is too high and morale too low.
    Absent relief, these conditions will worsen. OIG anticipates that 
this situation will become more serious in the coming months as we 
begin to suspend recruitment and hiring activity to bring staff levels 
in line with what we can support with the amounts in the President's 
budget.
    OIG cannot meet the challenges it faces in the coming years within 
current budget constraints. We believe that the immediate trade-offs we 
must consider to operate within the levels provided in the President's 
budget will impair our ability to sustain the kind of broad-based, 
robust oversight that Congress has long held us to. In OIG's view, 
provided funding at this level, OIG would not be able to properly 
deliver on oversight of two active OCOs or fortify its internal 
systems, and we would need to divert resources from other aspects of 
our operations. OIG would need to recall personnel from international 
offices and provide oversight at a distance in several parts of the 
world. In particular, we would need to withdraw personnel from two 
international offices, significantly roll back oversight of Europe and 
Eurasia programs, and suspend plans to enhance investigative coverage 
of East Africa by opening a small investigative office in the region. 
While these changes will have a significant effect on our staff and 
organization, the impact will be felt more acutely in the programs and 
operations of the agencies we oversee. Constraints on OIG's ability to 
provide needed oversight will reduce accountability and expose foreign 
assistance programs and activities to greater risks of waste, fraud, 
and abuse.
    We look forward to working with the Office of Management and Budget 
and Congress to ensure that OIG oversight requirements are adequately 
supported in the future.
 challenges to the management and administration of foreign assistance
    Our oversight work has highlighted a number of significant 
challenges that foreign assistance agencies face in administering 
related programs and activities. Significant challenges currently 
facing foreign assistance include operating in nonpermissive 
environments, effectively mitigating risks associated with increased 
foreign partner implementation of assistance projects, providing clear 
strategic focus, strengthening performance data, improving 
sustainability, and planning and operating in the context of budgetary 
uncertainty. In addition, the management of human capital, IT, and 
financial systems represents a major management challenge for agencies 
responsible for foreign assistance activities. Finally, defects in the 
oversight arrangement for OPIC also represent a significant challenge 
that must be addressed.
    Work in nonpermissive environments poses a major management 
challenge for foreign assistance agencies. USAID in particular 
frequently operates in countries facing conflict, insecurity, 
instability, and weak governance. Travel restrictions on U.S. direct 
hire personnel and sometimes local Foreign Service National staff 
complicate program management and oversight activities. Humanitarian 
assistance activities in Syria are operated from neighboring countries, 
embassies have closed in Libya, Somalia, and Yemen, and USAID missions 
for Iraq, South Sudan, Tunisia, and West Bank/Gaza have been evacuated 
or operated with limited staffing at different points in recent years. 
These conditions make it extremely difficult to monitor and oversee 
development projects and humanitarian assistance efforts, yet the U.S. 
Government continues to invest substantial resources in these settings. 
Ensuring that agency personnel can responsibly manage related resources 
and that implementing partners are able to apply funds to well-
designed, sustainable programs that advance development or 
stabilization objectives also represents a significant challenge in 
these countries.
    USAID plans to channel 30 percent of assistance through partner-
country systems under its Local Solutions Initiative. This means 
providing increased funding to and relying to a greater extent upon 
foreign government ministries, local non-governmental organizations 
(NGOs), and local for-profit firms to implement programs. By adopting 
this approach, the agency seeks to promote project sustainability and 
reinforce local systems for advancing development. This greater 
reliance on host-country systems, however, also carries significant 
risks. Local recipients are often unfamiliar with U.S. Government 
requirements and corresponding management and accountability 
expectations. Under current conditions, agency contracting staff cannot 
ensure that organizations new to U.S. procurement requirements and 
processes use funds properly, heightening the risk of fraud, waste, and 
abuse.
    Another serious challenge that has emerged in recent years relates 
to the need for sustained strategic focus. When coupled with external 
mandates, USAID's many initiatives and priorities may divert attention 
from core responsibilities and shift focus away from long-term goals 
and commitments. Agency personnel report that the number and pace of 
new USAID leadership initiatives and priorities have been overwhelming. 
In many cases, the agency has not reportedly aligned new initiatives 
with current strategies and policies, fully considered field conditions 
affecting implementation, or ensured that initiatives are fully adopted 
and integrated into agency operations before introducing new ones.
    OIG audits frequently find performance data concerning USAID 
programs to be unreliable and the agency has yet to take effective, 
comprehensive agency-wide action to address problems surrounding the 
quality of its data. Because problems associated with data collection 
and reporting have presented in USAID activities around the world, 
ensuring reliability in performance data has become a real management 
challenge. While USAID has made some efforts to address the problem, 
such as developing training on data quality standards and the use of 
site visits and assessments to detect problems, OIG has observed 
deficiencies in this area for many years.
    International development efforts are intended to provide program 
benefits that are sustained after donor funding ends. Although both 
USAID and MCC have incorporated sustainability considerations into 
project design and planning activities, OIG audits often identify major 
risks to the sustainability of project activities. The sustainability 
of foreign assistance projects is often dependent on the willingness 
and ability of recipients to maintain investments. In some cases 
agencies are unsuccessful in securing recipients' long-term commitments 
to support projects at their outset and, in others, recipients renege 
on their commitments, failing to uphold gains in capacity or maintain 
systems and infrastructure.
    Managing around an unpredictable budget process associated with 
frequent delays and uncertainty also poses a major difficulty for 
foreign assistance agencies. These conditions make it challenging to 
initiate large, multiyear programs. In addition, unforeseen increases 
or decreases in funding, delays in receiving funds, and hasty 
obligations of those funds can all adversely affect project planning 
and implementation. When budget and time pressures are overlaid onto 
complex procurement processes and requirements, errors in awards and 
planning weaknesses frequently arise.
    Foreign assistance agencies also face noteworthy difficulties 
associated with human capital management. USAID experiences shortages 
of experienced, skilled personnel to perform programming and support 
functions and these shortages translate into shortcomings in 
institutional performance. Deficits in the number of contracting staff 
with the knowledge and skills to properly design and administer awards, 
for example, lead to extended delays in program design and approval. 
Meanwhile, poor human capital development and promotion practices have 
contributed to a situation in which many managers reportedly fail to 
delegate tasks, recognize employees' strengths and contributions, or 
encourage innovation.
    IT and financial management are also sources of concern. USAID's 
decentralized management of information technology and information 
security and reliance on Department of State systems in many locations 
make it difficult for the agency to ensure that relevant policies and 
procedures are implemented or that external mandates are met. OIG was 
not able to provide an opinion on USAID's most recent financial 
statement due to the material volume of accounting adjustments the 
agency had made to reconcile accounts but could not support. In 
addition, incurred-cost audits of USAID's for-profit contractors have 
lagged, resulting in a sizable backlog. For its part, MCC continues to 
have difficulty accumulating the disbursement data it needs from 
foreign-government-managed Millennium Challenge Accounts to prepare 
complete, reliable financial statements.
    In closing, I would like to highlight a management challenge that 
bears congressional resolution: the need to establish an appropriate 
long-term oversight arrangement for OPIC. As we noted earlier, USAID 
OIG has limited oversight authority and responsibility with respect to 
OPIC. Current OIG authorities and responsibilities are identified in 22 
U.S.C. Sec. 2199 and annual, interagency agreements between OIG and 
OPIC that we have entered into each of the past 3 years. The most 
recent agreement provides the basis for OIG to run a fraud awareness 
program, conduct an audit to address identified risks in OPIC 
operations, report on compliance with information security 
requirements, and review the Corporation's purchase card program. 
However, neither the statute nor the agreement provide for the full 
range of oversight activities commonly undertaken by inspectors 
general.
    Under the current arrangement with OPIC, our office does not have 
independent authority to conduct all oversight activities that we deem 
appropriate. OIG does not have needed flexibility to adjust oversight 
plans because the law does not specifically authorize OIG to conduct 
audits of OPIC programs whenever such work is necessary or desirable, 
and the funding and authority for these activities is determined in 
annual agreements. Other core activities that are typically the 
province of an OIG, like oversight of annual financial statement audits 
and the examination of complaints about the effects of projects, are 
managed by OPIC itself, rather than an independent entity. In addition, 
OPIC has sought to shape the types of oversight we provide as part of 
interagency agreements, and perennial delays in its signing of 
agreements have postponed OIG oversight activities. This arrangement 
with OPIC--whereby the subject of oversight can shape the types of 
oversight it receives and the terms on which it is provided--presents 
potential conflicts that should be remedied through legislative action.
    A number of legislative proposals to address this situation have 
been introduced in recent years but none has come to fruition. One 
proposal would provide our office with a full complement of OPIC 
oversight authorities, while another would assign these to the Export-
Import Bank OIG. Other legislation provides for OPIC to have an OIG of 
its own.
    While congressional attention to the future of OPIC oversight may 
be warranted, the continuing uncertainty surrounding the oversight 
arrangement that will ultimately emerge does no service to OPIC and 
does little to provide independent assurance that OPIC is managing 
resources appropriately. USAID OIG has no position on what specific, 
long-term arrangement should be selected for OPIC oversight, but firmly 
believes in the value that truly independent oversight can bring to 
Federal Government programs and activities. Accordingly, USAID OIG 
welcomes continued engagement with OPIC and Congress on this matter and 
stresses the importance of securing both adequate funding and 
comprehensive audit and investigative authorities for any OIG charged 
with overseeing OPIC programs in the future.
    Thank you for this opportunity to address the subcommittee. At 
USAID OIG, we greatly appreciate your interest in our work and 
continuing support for effective oversight.

    Senator Graham. Thank you.
    And welcome to our new subcommittee members. I hope you 
enjoy the experience. I appreciate you being willing to serve 
on this subcommittee. And to my past colleagues who have been 
here since day one, thank you.

                           IRANIAN INFLUENCE

    Mr. Secretary, do you agree with me that Iran has more 
influence in Baghdad, Iraq now than they did in 2009?
    Secretary Kerry. I would say that they have more overt 
influence, but I am not sure they have actually more bottom-
line influence, because, Mr. Chairman, Prime Minister Maliki 
was far more inclined to administer a sectarian government, and 
aligned himself much more, in a sense, even though Iran wasn't 
as directly engaged.
    But Prime Minister Abadi has really been walking a very 
important line, which even the Iranians--I was just yesterday 
negotiating with the Iranians in a brief conversation. It was 
clear to me, because we don't talk about other subjects, 
really, but it was understood that the Prime Minister is 
working hard to try to bring the country together. I think that 
is different than what we had under Prime Minister Maliki.
    Senator Graham. Do you agree with me that the government in 
Yemen collapsed because of the Iranians' willingness to support 
the Houthis?
    Secretary Kerry. I think it contributed to it, Mr. 
Chairman, without any question whatsoever. But I do know that 
the Iranians were surprised by the events that took place and 
are hoping, actually, to see a national dialogue produce some 
kind of----
    Senator Graham. Do you agree with me that the Houthis 
couldn't last 15 minutes without Iranian support?
    Secretary Kerry. They will last longer than 15 minutes, but 
obviously, Iranian support is critical.
    Senator Graham. Do you agree with me that Assad is a puppet 
of the Iranian regime?
    Secretary Kerry. Pretty much.
    Senator Graham. Do you agree with me that Hezbollah is a 
subcontractor of the Iranian regime?
    Secretary Kerry. Totally.
    Senator Graham. Do you agree with me that Iran is trying to 
destabilize Bahrain?
    Secretary Kerry. There has been influence. I am not sure to 
what degree, but we know that they have been involved with the 
Shia there.
    Senator Graham. Do you agree with me that Iran is actively 
trying to produce an ICBM that could reach faraway places 
outside of Tehran?
    Secretary Kerry. I think that is the subject of a 
classified conversation.

                                 RUSSIA

    Senator Graham. Okay. Do you agree with me that when Russia 
says there are no Russian weapons or troops in the Ukraine that 
they are lying?
    Secretary Kerry. Yes.
    Senator Graham. Why do they lie?
    Secretary Kerry. You're asking me?
    Senator Graham. Yes.
    Secretary Kerry. Mr. Chairman, Russia is engaged in a 
rather remarkable period of the most overt and extensive 
propaganda exercise that I have seen since the very height of 
the Cold War. And they have been persisting in their 
misrepresentations, lies, whatever you want to call them, about 
their activities. They are to my face, to the face of others, 
on many different occasions.
    Senator Graham. So we can all collectively say that the 
Russian leadership lies when it comes to their behavior in 
Ukraine.
    Do you agree with me that the Russian dismemberment of 
Ukraine has trampled the Budapest Memorandum?
    Secretary Kerry. Yes, it has, essentially.
    Senator Graham. Do you agree with me that it is not in our 
national security interest for such behavior to go unchecked, 
that Ukraine in the late 1990s gave up thousands of nuclear 
weapons with the understanding their sovereignty would be 
guaranteed by Russia and the United States? Do you believe we 
are living up to that commitment to guarantee Ukrainian 
sovereignty?
    Secretary Kerry. I think we are doing the best we can with 
certain limitations that exist. But I think we are doing a 
pretty good job of standing up for Ukrainian sovereignty.
    Senator Graham. Do you support sending defensive weapons to 
the Ukrainian people to defend themselves against this 
aggression?
    Secretary Kerry. That is a conversation that is taking 
place within the administration right now, Mr. Chairman. Until 
the President makes his decision, I am going to keep my 
consultations personal and private with him.

                                 SYRIA

    Senator Graham. As to Syria, do you agree with me ISIL is 
not being checked in a meaningful way inside Syria?
    Secretary Kerry. Would you say that again?
    Senator Graham. ISIL is not being meaningfully checked or 
controlled within Syria?
    Secretary Kerry. No, I don't agree with that. I believe 
ISIL is being checked, but it is not being yet sufficiently 
stopped in Syria. There are a lot of reasons for that. But 
there are a lot of strategy discussions taking place right now 
with our allies and with others that I believe will mount the 
strategy necessary to deal with ISIL in Syria.
    Senator Graham. You mentioned the Authorization for Use of 
Military Force. I have asked a question of the White House 
General Counsel. The Free Syrian Army that we are training, we 
sent them into fight ISIL. They were attacked by Assad, by 
Assad's aircraft or helicopters.
    I have been told by the General Counsel that under the 
Authorization for Use of Military Force we are considering, we 
do not have the authority to engage Assad's aircraft. I am 
going to send a letter to the White House General Counsel to 
get him to comment on that.
    Would you agree with me that any strategy regarding Syria 
has to have an Assad component?
    Secretary Kerry. Ultimately, yes.
    Senator Graham. Do you agree with me that no Arab army is 
going in on the ground in Syria just to fight ISIL. They want 
Assad replaced.
    Secretary Kerry. Let me come back----
    Senator Graham. I mean, Egypt, Turkey----
    Secretary Kerry. There are various ways to be able to 
contemplate different options regarding Assad that will 
ultimately have an impact on our choices with respect to ISIL.
    Senator Graham. I guess what I am saying, I agree with 
that, but no Arab regional force will engage ISIL alone.
    Secretary Kerry. I agree with that.
    Senator Graham. They are not going to give Syria over to 
the Iranians.
    Secretary Kerry. I agree with that.
    Senator Graham. So please, I want everyone on this 
committee to understand that whatever mythical Arab army we can 
create to go into Syria, they are going to require the 
replacement of Assad as the price of admission, because to do 
otherwise would be to give Syria to Iran.

                                  IRAN

    Do you agree with me that the Arabs in the region are very 
concerned about Iranian advancement?
    Secretary Kerry. Yes.
    Senator Graham. Do you agree with me that the Arabs in the 
region will not tolerate a nuclear deal with Iran that in their 
minds would give the Iranians a nuclear advantage over the 
Sunni Arab countries?
    Secretary Kerry. Well, the way you have phrased that 
question doesn't quite accurately represent what the choice 
will be. So I would say to you that we are working very, very 
closely with all of our friends in the gulf. In fact, Friday I 
will be attending a GGC meeting in London, and we have kept 
them fully abreast of what we are doing.
    Senator Graham. Have you kept Israel fully abreast of what 
we are doing?
    Secretary Kerry. Yes, we have.

                     OBAMA FOREIGN POLICY DOCTRINE

    Senator Graham. Okay. I will just close with this, could 
you briefly describe the Obama foreign policy doctrine?
    Secretary Kerry. Well, the foreign policy doctrine of the 
United States is to be engaged and to lead across the world in 
ways that advance America's interests and values and protect 
our security.
    Senator Graham. Do you think it is working?
    Secretary Kerry. It is working very effectively in many 
places. It is troubled in some places, obviously.
    I will give you an example. In Afghanistan, it was not a 
small endeavor to help pull Afghanistan out of the morass of 
that----
    Senator Graham. I agree. I think you have done a good job.
    Do you support a condition-based withdrawal in Afghanistan, 
of our military forces?
    Secretary Kerry. I think the President is on the right 
track. I think the evaluation that is going on now with respect 
to the adjustments on the troop is appropriate, and the 
President will make his decision shortly.
    Senator Graham. Thank you, Mr. Secretary.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

                                  CUBA

    Secretary, since you have been Secretary, you and I have 
discussed Cuba a number of times, as you know, as I have with 
the President, and was involved in a lot of the negotiations 
with Cuba.
    I have felt that, for 53 years, our policy of unilateral 
sanctions against Cuba hurt the Cuban Government far more than 
it hurt the Castro government. It was opposed by every country 
in this hemisphere. I once told Fidel Castro that our embargo 
was the best thing he had going for him because he could blame 
a failed economy and a failed political system on the United 
States, instead of having to take the blame himself.
    You go to Cuba now, as I have many times, and talk with 
people, and you hear that most of them there, not all, but 
most, who were critics of the Cuban Government say that they 
now have hope. They oppose the embargo. They want us to be more 
engaged.
    Of course, the question is asked, what do we get in return? 
Well, of course, the American people who were told that the 
only country in the world where their government told them they 
couldn't go now, they now have more freedom to go or they can 
go as tourists, which you could in any other country.
    And I think we can start debunking the myth that the 
poverty and deprivations that Cubans are facing isn't the fault 
of their government, but of ours.
    How do you see what is happening in Cuba? How do you see 
this as affecting our relations with other countries in the 
hemisphere?
    Secretary Kerry. First of all, let me begin, Senator Leahy, 
by really honoring and thanking you for your prescience and 
long, long commitment to the issue of Cuba. You have been 
deeply engaged in that. And you were very engaged in helping to 
get Alan Gross out, and we appreciate it.
    It is one of those examples of senatorial engagement that 
can make a difference on an administration, any administration, 
this one or another one.
    With respect to Cuba, I want to emphasize to everybody that 
what we are trying to do with Cuba is not about what the Cuban 
Government is going to do for us. It is about what we can do 
for Cuba and for the Cuban people and the American people. This 
policy has been in place, everybody knows, for 50-plus years, 
and it just wasn't changing anything.
    This policy change, I can tell you, has been received with 
an extraordinary sense of welcome in Latin America, in Central 
America, in Europe, in Asia, and elsewhere. People feel like 
this was long overdue, and they think it is the right thing to 
be doing. I think the only people unsettled by it are the 
Venezuelans.
    So, in my judgment, it is the right choice, and the future 
is what is going to really define that.
    But reestablishing diplomatic relations, Mr. Ranking 
Member, will remove the pretext that has been used for decades, 
to counter pressure from the Cuban people for more freedom and 
economic prosperity and for other legitimate demands. And it 
really has the chance to provide the people of Cuba with a 
prospect of transformation. We hope we can complete the task.

                            CENTRAL AMERICA

    Senator Leahy. The President's request has a proposal to 
establish an independent grantee organization to carry out 
broadcasts in Latin America and the Caribbean, including Cuba, 
and the Broadcasting Board of Governors will deal with that. 
You are on that board. I am going to submit a letter, because 
we don't have the full justification I think of a lot of the 
money wasted on some of the other broadcasts before. And I 
would like to hear from you about how they see this new one 
working.
    But in Central America, you are requesting $1 billion to 
promote trade and economic development and enhance security 
there. Those are worthy goals. But we spent billions of dollars 
there over 2 decades. We have seen conditions get worse in 
Honduras, Guatemala, El Salvador.
    I am afraid that we may have this Alliance for Prosperity 
plan that may be more of a wish list. I would like to see the 
Central American private sector invest in their own economic 
development and public security. Instead of many who, and I 
won't go down and list a whole lot of them, pay for their own 
private security. They live in Miami. They live behind walls. 
They don't pay taxes. If they don't live in Miami, they keep 
their money there. We can help train police, investigators, 
prosecutors, and judges to ask them to uphold their part of the 
law.
    But do you agree that the private sector should be doing 
more?
    Secretary Kerry. Yes, but I also think, Senator--I know 
this. I met personally when I was in Mexico with the presidents 
of Honduras, Guatemala, El Salvador, when the unaccompanied 
children challenge was at its greatest. We listened very 
carefully and worked very hard on how you stem this tide, how 
you begin to deal with it.
    One of the principal things that the kids were running away 
from, or their families enticing them toward where they were, 
was the violence, the levels of violence. Secondly, just the 
day-to-day absence of opportunity, the standard of living, the 
poverty.
    So we have put together a security-based and governance-
based--changing governance, how it responds, absence of 
corruption, beginning to deal, training the police.
    Senator Leahy. The absence of corruption would be a major 
thing, especially with the police.
    Secretary Kerry. Now our plan is to help train vetted 
police, investigators, prosecutors, judges, to increase the 
capacity to uphold the rule of law and protect those citizens.
    So I know it sounds distant to some people, and they say, 
well, why are we doing it there? We are doing it there because 
it is our problem, too. They are coming up through Central 
America, across Mexico, into Texas, into other places. We were 
capturing them. We were putting them in facilities, holding 
them. And then the question is, who do you send them back to?
    Senator Leahy. I don't disagree that is part of our 
problem. But I think of all the money that has been spent down 
there, and I would only urge that there be a lot more control 
of that money, and a lot more calling on the governments 
themselves and the people in those countries, especially those 
who can afford it in the private sector, to do a lot more in 
the interest of their country than just in the interest of 
their own bank accounts.
    Secretary Kerry. But they have committed to undertake those 
kinds of initiatives. And we are very focused on this, which is 
why we have asked for the billion dollars. You know, there was, 
once upon a time, an Alliance for Progress. It had a huge 
impact on Latin American attitudes towards North America, 
towards the United States. It opened up all sets of 
possibilities.
    Senator Leahy. I realize money is not the only thing. I 
mean, look at Haiti. Billions of dollars either spent or 
pledged down there, and it is going from bad to worse. You have 
a government that is ruling by decree. The economy is in 
shambles. Protests by thousands of people who are living in the 
streets.
    I mention this only because money is not the only answer.
    Secretary Kerry. Of course not. Money is absolutely not the 
only answer. You can throw money at it and throw it away.
    What we have learned in the last 25 years, and these are 
lessons that have been significantly applied in the way we are 
doing development now, partly the Millennium Challenge 
Corporation goals, partly what Raj Shah did while he was 
administrator at AID, was change our approach to development. 
There is a much greater degree of visibility, a much greater 
degree of self-help, a much greater degree of oversight. And we 
understand this has to be done carefully and properly.
    But if it isn't done, there will be greater levels of 
violence, greater levels of upheaval, greater opportunities for 
radical groups to grab people. Violence will increase. And the 
United States will feel that impact.
    So this is not just a sort of do-good, let's help them 
deal. This is also in our interests, in our security interests, 
our long-term interests, and it meets our values.
    So what we are doing is a three-part strategy that focuses 
on security, focuses on governance, and focuses on prosperity, 
and that piece engages the private sector.
    Senator Leahy. Thank you. My time is up, but I will have 
further follow-up questions on what the press has uncovered, 
which appear to be war crimes in Iraq by the Iraqi Government 
and Iraqi military. Those are very serious matters that may 
have to be answered in a classified forum, but they are very 
serious.
    Senator Graham. Thank you, Senator Leahy.
    Senator Kirk.

                                  IRAN

    Senator Kirk. Mr. Secretary, I would like to take you to a 
chart that I have here. This shows that during the negotiations 
run by Under Secretary of State for Political Affairs Wendy 
Sherman, that we have been steadily relieving sanctions on Iran 
to the tune of $490 million every 3 weeks. That is about five 
times the amount that the Ministry of Intelligence and Security 
(MOIS) of Iran pays to maintain Hezbollah.
    Secretary Kerry. I am sorry, I missed that. What was the 
number?
    Senator Kirk. It is $490 million every 3 weeks.
    Secretary Kerry. What is that?
    Senator Kirk. This demonstrates the point that the Iranian 
delegation at the Geneva talks is rented, bought and paid for. 
You have been arranging for substantial cash flow to go to Iran 
that is five times the amount that the MOIS, the Iranian 
Intelligence Service, pays to Hezbollah.
    Secretary Kerry. Senator, I hate to say this, but I don't 
understand what money you are referring to, from where.
    Senator Kirk. This is a steady flow of sanctions relief. 
This is the heart and soul of your negotiation. You maintain a 
steady cash flow to the Iranians in----
    Secretary Kerry. Actually, it is not, Senator. It is not 
the heart and soul of our negotiation, at all.
    I don't know where your information is coming from, but the 
fact is that Iran has gotten significantly less money than they 
anticipated and hoped for from the relief that is within the 
interim agreement, number one.
    Number two, the total may amount, over the period of time, 
to somewhere in the vicinity of $14 billion. But that is over 
the period of the life of that.
    The fact is that, during that time, many times that has 
been escrowed in an account that they can't reach. I would say, 
$25 billion, $30 billion a year has been put away, and they 
can't reach it. They now have well over $100-and-some billion, 
I don't know the exact figure, that is put away. They can't 
reach it. And the reason they are negotiating today is because 
they want to get out from under the sanctions. They are not out 
from under. In fact, we added sanctions, I might add. I don't 
think I have it all in front of me here.
    But our oil sanctions alone have deprived Iran of over $40 
billion. Altogether since 2012, we have denied access to more 
than $200 billion in lost exports and funds they can't use. And 
those revenues are being held abroad in restricted accounts.
    I don't know anybody who looks at the interim agreement and 
doesn't say, wow, this has really worked, including Prime 
Minister Benjamin Netanyahu, who would like to see it extended, 
having opposed it vehemently in the beginning, calling it the 
deal of the century for Iran. It was obviously not the deal. It 
has restrained their program, stopped work on Iraq, taken their 
20 percent enrichment down to zero, given us access to Fordow, 
access to Arak, access to their mining, their milling, their 
production, their centrifuges.
    Senator Kirk. Mr. Secretary, when you say ``access,'' could 
you describe how our typical inspection happens? I was just on 
the phone with Olli Heinonen, who was the lead nuclear 
inspector at the IAEA. In the briefing that he gave me, an 
inspection occurs only after 2 hours' notice, always with an 
Iranian handler to make sure you only see what they want you to 
see.
    Did you know that?
    Secretary Kerry. That is not accurate. We have people on 
site each day. We are tracking exactly what a centrifuge is 
doing, how many centrifuges there are, what their production 
levels are, where the waste is going. And the IAEA has 
determined, as recently as a few weeks ago, that there isn't 
one thing that Iran is out of order in, with respect to their 
compliance with this agreement.
    Moreover, 40 entities have been added to the designation 
list on sanctions. Fifteen were added under terrorism 
authorities. Thirty-four were added under sanctions evasion and 
material support authorities. Three were added under human 
rights authorities. Five were identified as Iranian financial 
institutions. And eight aliases were added to the list for 
entities designated.
    That is a pretty remarkable job of raising the stakes on 
Iran for any kind of potential violation.
    Senator Kirk. I would just point out the notion that 
getting Iran to help fight ISIS is like hiring the local town 
psychopathic, pyromaniac to join the volunteer fire department.
    Secretary Kerry. Well, Senator, were not hiring them. We 
are not asking them to do anything. We are not coordinating 
with them. They are doing what is in their own self-interest. 
They hate Daesh. Every country in the region hates Daesh.
    So, yes. They are fighting them. But we're not coordinating 
with them. And whatever Daesh they take off the field, we are 
delighted to see them go.

                             RADICAL ISLAM

    Senator Kirk. You called them ISIS and Daesh in the same 
hearing. If we get two words, could you say the words ``Islamic 
radical'' in public?
    Secretary Kerry. Yes, I have talked about radical Islamic 
problems in many speeches, in many places. You know, obviously, 
even in the Muslim world, people talk about political Islam and 
radical Islam, so, I mean, I don't have a problem with that.
    Senator Kirk. So is that who we are fighting, radical 
Islam? And do you agree with that?
    Secretary Kerry. Well, that is not the place to place this 
debate. What we are fighting are a group who are naming 
themselves with a name referring to Islam who have absolutely 
nothing that has anything to do with Islam.
    Now, is that a fight against Islam? No, it is not. It is a 
fight against a radical group of terrorists, frankly, 
criminals. What we have here is a criminal anarchy that we are 
fighting that is trying to claim legitimacy under a religion, 
and a whole bunch of people are fighting back against that.
    I am proud to say that many of the strongest voices are 
coming from Islam and from the Muslim world itself. The grand 
mufti of Egypt called this group satanic and outside anything 
to do with Islam. The grand mufti of Saudi Arabia, the same 
thing. I mean, there are just huge opprobrium being placed on 
this group.
    And I think our greater challenge is really figuring out 
how we balance the sectarianism that enters into it.

                 KOREAN ENERGY DEVELOPMENT ORGANIZATION

    Senator Kirk. Let me take you to another subject. This is 
the Appropriations Committee. Originally, this committee had 
approved about $400 million for an organization called the 
Korean Energy Development Organization. In the end, Western 
powers gave about $1.5 billion to this organization, all under 
the management of Wendy Sherman. I wonder if you could follow 
up and find out who got that money. Was it Charles Kartman? Was 
it Joel Wit who got that $1.5 billion? I think we ought to look 
into that.
    Secretary Kerry. Senator, I am happy to look into that. I 
honestly don't know the details of that at all.
    Since you several times mentioned Wendy Sherman, I have 
huge admiration for Wendy Sherman. She is a professional, and 
she works harder than anybody I have met. And she is doing a 
tremendous job working with a team of people in these 
negotiations.
    But with all due respect, the President of the United 
States is the ultimate arbiter of these negotiations, and on 
his behalf, me. And running day-to-day, you can dump it on me. 
I am responsible.
    So, you know, she has done a superb job, and I think we 
need to wait and see what, if anything, we come up with.
    Senator Kirk. When you say she has done a superb job with 
the $1.5 billion that----
    Secretary Kerry. Well, I will find out about it.
    Senator Kirk. What was actually purchased?
    Secretary Kerry. I really don't know. I will have to find 
out.
    Senator Kirk. This was $1.5 billion, and you have no idea 
what happened with it.
    Secretary Kerry. What year was that?
    Senator Kirk. It was 1996.
    Secretary Kerry. Yes, 1996, no, I am sorry, I don't have 
instant recall as to what happened in 1996 on that. I was on 
the committee. I know there were negotiations. But we will find 
out exactly what it was.
    Senator Kirk. Back in Chicago, $1.5 billion is a huge chunk 
of change.
    Secretary Kerry. Well, of course, it is, Senator. But it is 
now 2015, and I wasn't Secretary of State then. I was sitting 
up there somewhere towards the end, and trying to learn as much 
as I could.
    Senator Kirk. Right.
    Senator Graham. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman. And thank you, 
Mr. Secretary.
    The quote that you had from Dean Acheson, the final half of 
it, we have to understand that all our lives, the danger, the 
uncertainty, the need for alertness, for effort, that 
discipline will be upon us. It will be hard, but we are in for 
it. And the only real question is whether we shall continue 
strongly enough soon enough.
    That is a powerful reflection on how complicated the world 
has been and, certainly, as it continues to be now.
    I wanted to praise the work of our folks in the Embassies 
around the world. We were able, at the end of last year, to 
fill a number of the ambassadorships that had been vacant. That 
is certainly positive, in terms of our relationships.
    And I wanted to mention that I appreciated particularly 
that we confirmed Karen Stanton in East Timor. There is a 
challenge involving a citizen from Oregon who is being held in 
that country, and she has done a wonderful job of helping to 
draw attention to it. And I will continue to work with her and 
the State Department, hopefully to get her back home. Her name 
is Stacy Addison. I just wanted to mention that.

                        GLOBAL HEALTH INITIATIVE

    Second, I wanted to turn to the Global Health Initiative 
that is in this budget, and the U.S. support for it. Some of my 
constituents really wanted to see the U.S. step up at the 
January conference of this year with a multiyear pledge on 
vaccinations as one of the most cost-effective ways to impact 
global help, with the goal of vaccinating 300 million 
additional children. The U.S. did step up with a 4-year 
commitment, and I wanted to praise the U.S. for being engaged 
in that type of thoughtful international leadership with huge 
leverage.
    And perhaps down the line, when we have vaccinations for 
things like AIDS and Ebola, that will be expanded to address 
that world. But in general, I wanted to draw attention to how 
that type of international global health work reverberates in 
the quality of life around the world.

                AUTHORIZATION FOR USE OF MILITARY FORCE

    I wanted to turn to ask a couple questions about the 
authorization for the use of military force (AUMF), the draft 
AUMF that we have now, that we will be considering. It is my 
understanding that the administration is not recommending that 
we put a time limit on the 2001 AUMF, and is recommending a 3-
year restriction on the new AUMF. I just wonder if you could 
address why not essentially create a sunset on each of these 
components, including the 2001?
    Secretary Kerry. Senator, first of all, let me begin by 
saying thank you for your mention of your constituent. I want 
you to know that Embassy officers have been communicating with 
the host government officials. On last November 7, we had a 
meeting with the Timorese ambassador. We are trying to get the 
release passport. And hopefully, we can secure her release. 
There really is--I am familiar with the case--no legitimate 
explanation for how she has been detained and kept most 
recently. So we are going to keep working on that.
    With respect to the AUMF, let me just say that the 
rationale behind the timeframe is, on ISIL, the President felt 
it was really important for a future president to be able to 
reevaluate, whoever the President may be. He remembers how he 
came in and there was Afghanistan, and he had a 30,000 or 
whatever it was troop addition on his plate in the first weeks 
when he came in. And what he thinks is that it is very 
important that there be an institutionalized process whereby 
Congress measures where we are, what have we achieved, whether 
the goals are worth it, and so forth.
    On the other hand, the 2001 AUMF is, in fact, a very broad 
permission to deal with the threat that is ongoing now, about 
which there is no real need to sort of reevaluate, I think, and 
that is al Qaeda and Taliban and affiliated groups similar to 
that who are threatening the United States of America, or who 
had a very direct relationship to 9/11 and to the events coming 
out of 9/11.
    So that is the distinction between the two. And the 
President really sees Daesh as one problem over here that ought 
to be re-measured in 3 years for a new President, and the other 
is a continuum between administrations and as an ongoing 
challenge, which we shouldn't limit.
    Senator Merkley. I will just comment that I would like to 
see us put a timeframe on 2001, despite, as you point out, that 
there is an enduring threat. ISIL also emerges from ancient 
conflicts, Sunni-Shiite conflicts, emerges from ancient 
philosophies about what is the pure approach.
    So there are roots that are deep in all these things, and I 
don't think it hurts us to be off of a permanent vision and 
reevaluate 2001 as well.
    Secretary Kerry. Well, the only thing I would say to you, 
Senator, as you know, the President is asking that you refine 
and adjust the 2001 as necessary, if it is necessary. So he is 
not oblivious that it may need some refinement. But he wouldn't 
want that authority, I think, at this point in time.
    Now he has suggested that the 2002 ought to be repealed, 
because there is a distinction between the two.
    Senator Merkley. Turning to another phrase in the proposed 
draft is ``enduring offensive ground combat operations,'' and 
this is in regard to a limitation on the use of ground Army 
forces. But the phrase ``enduring'' and ``offensive,'' 
certainly, is vague, perhaps by intention. But do you want to 
offer any clarifying thoughts about that?
    Secretary Kerry. Well, ``enduring'' really came out of the 
conversation that I had with the Foreign Relations Committee 
last December. And I think it was language that was proposed by 
Congress, in fact. I think Senator Menendez and Senator Corker 
may have put that together.
    We thought that it adequately represented a distinction 
that left the President the appropriate level of discretion 
with respect to how he might choose to fight or what he might 
need to do, without any room for interpretation that this was 
somehow being interpreted to be a new license for a new 
Afghanistan or a new Iraq. That is the distinction.
    Both of those required major commitment of combat troops to 
a major period of time, obviously enduring combat. But if you 
are going in for weeks and weeks combat, that is enduring. If 
you are going in to assist someone in fire control, and you are 
embedded in an overnight deal, or you are in a rescue operation 
or whatever, that is not enduring.
    I don't think that the military or most of the folks 
debating this have had any trouble drawing that line, at this 
point.
    But is there some discretion for the President? Yes. But 
traditionally, as you know, constitutionally, that has been 
interpreted to be exactly what the President ought to have, 
even fuller discretion than he is willing to accept here. The 
reason he has accepted it is because he recognizes there are 
diverse opinions.
    This really is sort of step two of step one, which was my 
appearance before the AUMF hearing in December, where the 
language of the Foreign Relations Committee was considered. And 
then it sort of built on that, and the President decided that 
looks like that is what Congress can get the biggest vote on.
    What we want is as large a vote as possible for Congress to 
say Daesh deserves to be defeated, and we are committed to the 
fight. We don't want to have this become the victim of a tug-
of-war between one person's or a couple people's strongly felt, 
but nevertheless not majority view of what powers the President 
ought to have to accomplish this goal.
    Senator Merkley. Well, to close, because my time is out, I 
appreciate the administration putting forward the AUMF. I think 
it is our responsibility under our Constitution to wrestle with 
it. I look forward to that conversation.
    I am always amazed at the vast complexity of the world 
issues that you are working on simultaneously, and the fact 
that you can go from the AUMF details to a single citizen from 
Oregon, Stacey Addison in East Timor, is amazing. I look 
forward to many more conversations. Thank you.
    Secretary Kerry. Thank you.
    Senator Graham. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chair.
    Thank you for being here, Mr. Secretary. I know that you 
share the same feeling, that oversight is so important in 
Congress.

        SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

    Recently, the IG for Afghan Reconstruction, in his most 
recent quarterly report to Congress, said that the information 
that has been published publicly for 6 years is now being 
labeled as classified, and additionally reported that the State 
Department would not answer questions on economic and social 
development activities or the evaluation of anticorruption 
initiatives of Afghan Ministry of Defense and the Afghan 
Ministry of Interior.
    Can you explain why, after 6 years, the State Department 
has suddenly refused the IG access to the information? And are 
we still continuing to do that? And if so, why?
    Secretary Kerry. This is news to me. I am not familiar with 
what it is that may have been classified. I am not even sure 
that that denies him actual access, but in a classified 
structure. So let me find out about that, if I may, because we 
have been very open. We have a terrific IG. I brought him on. 
We didn't have one previously. He has a strong, independent 
record. And we look to him to help us find things that are not 
working well, and we have worked very cooperatively. So let me 
find out what that is about, and we will come back to you.
    Senator Boozman. Thank you very much.

                        USAID INSPECTOR GENERAL

    In a related question, Catherine Trujillo, acting Deputy IG 
for USAID--and I completely agree with you. Earlier, you 
mentioned in Raj Shah, the good job that he has done in 
changing the culture and putting oversight and accountability 
in place. She said that the President's budget request is 
insufficient and would require the Office of Inspector General 
to recall personnel from abroad and resort to, and I quote, 
``providing oversight at a distance.'' Again, can you respond 
to that?
    Secretary Kerry. It is the first I have heard of it, but I 
will find out as part of my package to get back to you.
    Senator Boozman. Good. Thank you very much.
    Secretary Kerry. Yes.

                         PALESTINIAN AUTHORITY

    Senator Boozman. I recently joined 74 of my colleagues here 
in the Senate in writing a letter to express our concerns with 
the recent bid by the Palestinian Authority to join the 
International Criminal Court. Secretary General of the United 
Nations Ban Ki-moon has stated that the Palestinian Authority 
will be given member status on April 1. Several weeks ago, the 
State Department and White House announced that they would 
conduct a review of all U.S. assistance to the P.A. Can you 
share what determinations you made thus far regarding the 
review? And do you believe the Palestinians have taken the 
required steps to trigger a cutoff of U.S. aid?
    Secretary Kerry. Well, we believe that the Palestinians do 
not qualify as a state to be able to apply. And we have made 
that position known to the prosecutor, as did several other 
countries.
    In addition to that, we stated to the Palestinians in the 
strongest terms that we really thought that this was 
inadvisable, a terrible exercise of judgment that would have 
profoundly negative impacts, among them the potential cutoff of 
aid from the United States. And the issue now really will be 
determined when and if something happens around April 1 with 
their assumption of membership.
    What has happened so far is a preliminary inquiry is 
underway. It is not a formal investigation under the ICC.
    So this is not an answer from the lawyers of the State 
Department. I am giving you my quick interpretation from 
reading the statute, which I have, that it is arguable whether 
or not they have at this point, simply by applying but without 
pressing a particular case, crossed that line.
    But we still believe what they have done is a mistake. It 
is inadvisable. It is destructive. It hurts the building of 
confidence. It makes it harder for, obviously, anybody to look 
at them and believe that they are ready to be a partner in 
things.
    On the other hand, they are very frustrated. They are 
deeply angry. They see settlement announcements coming out in 
large numbers and so forth, and they are politically very 
frustrated.
    So it is a very difficult situation right now. And we are 
staying out of the elections. We don't want to get involved. 
But when the election is over in Israel, our hope is that there 
may be some opportunity to be able to try to get things right-
sized again and be able to do something constructive. But it is 
very difficult.
    Senator Boozman. Good. Thank you, Mr. Secretary.

                               ISIL-DAESH

    Earlier you talked about the success of airstrikes in Iraq 
with ISIL or ISIS. But there are reports from a variety of 
sources that ISIS' area of influence in Syria is close to twice 
the size it was when the U.S. began airstrikes last June. So we 
are championing success in Iraq, and yet it doesn't seem like 
we are having much success in fact perhaps going the other way 
in Syria.
    Secretary Kerry. Senator, there has been a slight increase. 
It is a fact; there has been a slight increase of ISIL presence 
in Syria. But I can't, by any means, describe what is happening 
in Syria as a big advance. They have been stopped in Syria 
also.
    Remember, Kobani was going to be the big test. And they 
were days away from running over Kobani. We came in with very 
significant strikes. But more importantly, we came in and 
diplomatically worked with the Turks and with the Kurds and 
made it possible for Peshmerga to be able to pass through a 
corridor and come into Kobani and reinforce it.
    And by continuing the strikes and joining in that effort, 
ISIL ultimately had to admit it lost. They were defeated. And 
they lost as many as 1,000 fighters there.
    So we have been able to do some of the things. But I think 
it is well known. Everyone knows this. We are going to have to 
increase the capacity on the ground in Syria in order to be 
able to have more impact. That is what we are building. We are 
building it now with the Title 10 overt training that Congress 
has approved. That begins this month. And there are other 
things that are taking place that will augment the ability of 
the moderate opposition to have an impact on Assad.
    So I believe that, over the next months, in my judgment, 
the pressure can increase significantly on the Assad regime. 
That will affect who is willing to do what on the ground.
    At the moment, I am not going to pretend to you that the 
force is there that is ready to do that. But as Iraq takes 
place and confidence is built, and they are driven back into 
Syria, which they will be, then the focus will be much more on 
Syria.
    Senator Boozman. Good.
    Thank you, Mr. Chairman.
    Senator Graham. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary.
    The State Department budget is about 1 percent of the 
Federal budget. We have more lawyers at the Department of 
Defense than we have diplomats throughout the world. I think we 
get a pretty good return on our investments, given all the 
troubles that you face.

                                UKRAINE

    I wanted to come back to Ukraine. I agree with the chairman 
that it is time for some more serious defensive arms to the 
Ukrainians. I think that the Russians at this point have proven 
that they are immune to other forms of influence. I wish we 
weren't here, but I think as a last resort, the United States 
now needs to stand up the Ukrainian army to a degree that 
significantly changes the military calculation inside Russia.
    But I think this very narrow debate over whether or not we 
arm the Ukrainians has obscured the larger project that we have 
ahead of us, which is that what we are seeing in Ukraine is 
just the tip of the iceberg when it comes to Russia's influence 
in the region. What we are not debating and talking about on a 
daily basis is what they are doing in Moldova, in Georgia, in 
Serbia, in Montenegro, in Latvia, in the Baltics. This 
asymmetric brand of warfare that they are perfecting where they 
buy up press outlets, they pay off public officials--those that 
they can't pay off, they intimidate--is just simply not being 
matched by the West, in terms of the legal resources that we 
can use to try to blunt to those influences.
    In your supplemental request, I see a number of line items 
that I could guess could be part of a buildup of the kind of 
anticorruption efforts, free press efforts, rule of law 
efforts, that would help. But having just come back from the 
Balkans where I was in the fall, you see in Serbia, for 
instance, Russia marching in with greater influence than they 
have ever had before, and our Embassy there just trying to 
scramble together enough money to run some simple exchange 
programs, USAID pulling out.
    And I wonder if you could talk a little bit about it, 
because I know you are talking about the resources necessary to 
run this kind of strategy throughout the region. I wonder if 
you can talk a little bit about, within your supplemental and 
within your base budget, how we can start to meet this 
challenge in ways other than simply just providing arms to one 
country amongst dozens that are threatened by this new Russia?
    Secretary Kerry. Senator, that is a very important 
question, and it couldn't be more important or timely than this 
effort. Russia is engaged in a massive, massive effort to sway 
nations, to appeal to them, reach out to them. And 
fundamentally, tragically, is sort of reigniting a new kind of 
East-West zero-sum game that we think is dangerous and 
unnecessary, frankly. If you see some of the speeches that have 
been made and look at their focus, even just the other day, 
Foreign Minister Lavrov at the U.N., at the 70th anniversary 
moment, was talking about the U.S. disruptive efforts around 
the world and how we are responsible for every ill they see.
    And the question asked earlier by the chairman, about how 
they present things, and the lies about their presence in 
Ukraine and the training, I mean, it is stunning. But it has an 
impact in places where it is encountered.
    Propaganda works. And so this is where we are hurting 
ourselves. I say this so respectively to former colleagues. I 
mean, I was frustrated by this when I was here in the Senate 
and a member of the super-committee. We were trying to get a 
deal that would have freed us up to go out and do the things we 
know how to do.
    But we are punishing ourselves needlessly by reducing our 
ability to be front and center in some of these battles where 
we can make a difference. And if the Secretary of State of the 
United States has to show up at a pledging conference and we 
are not able to pledge or pledge very much, and a whole bunch 
of other players are there ready and available to do things, 
you are going to see a change in where people go, what they 
think, who they think is important. So we do need to invest in 
this future in these places.
    The battle in Ukraine, I assure you, is not principally 
this battle that has been taking place exclusively about 
Donetsk, Luhansk, and Debaltseve. That is important, and it is 
a land grab, and it is in violation of international law. But 
what it does is it stirs the water of Ukraine, makes it very 
difficult for private investment to come in, makes it very 
difficult for the economy of Ukraine to take off. And the true 
battle is a $15 billion problem this year for Ukraine. And we 
are scrounging around. We have $1 billion, $2 billion. We may 
make a loan guarantee.
    But the world is going to have to step up and decide how to 
define this current struggle that is taking place. It is not 
small pickings, and it is not just a passing fancy. So we need 
to fight for the things we have always fought for, the values 
we fought for.
    And some of that is going to require you, appropriators and 
others, to be able to find the wherewithal to empower us to be 
front and center where we need to make a difference. And in a 
lot of cases, it is helping to build democracy. It is helping 
to educate some people, pull them away from the vacuum that 
exists, so they don't get grabbed by people who proselytize and 
turn them into extremists. I mean, all of these things matter.
    And, Senator, you put your finger right on it. Whether it 
is Syria, Kosovo, Montenegro, Macedonia, other places, they are 
all in the firing line, Georgia, Maldova, Transnistria. What we 
are trying to persuade people is we are not looking for a zero-
sum game challenge with Russia. We believe that Ukraine could 
become the gateway east and west. It doesn't have to be a pawn 
between the two. We believe that you could have an economic 
arrangement with the European Association agreement and working 
with what was--it has a new name now, the customs zone. But 
these could be, hopefully, integrated, if people wanted to 
implement a different vision.
    So that is what we are trying to work toward. But we all 
need to be prepared to step up and be there economically for 
Ukraine as they reform and try to implement their dream and 
vision. It is not good enough to have Poroshenko come here and 
get 40 standing ovations and then not step up and deliver what 
it is really going to take to help him create the democracy he 
wants to create.
    Senator Murphy. Thank you.
    I think this debate over arming Ukrainians is important. I 
think this question of how we resource countries that don't 
want to turn into the next Ukraine is infinitely more 
important. It is one of the reasons I asked to be on this 
subcommittee.
    I appreciate the chairman's focus on this question as well. 
Thank you.
    Senator Graham. Senator Lankford.
    Senator Lankford. Thank you
    Mr. Secretary, thank you. I appreciate the chance to get to 
know you. We did not get to serve together, but I appreciate 
the chance to get to know you, and your service, obviously, 
around the country and around the world, what you have done.

                            CENTRAL AMERICA

    I want to touch on a couple things that Senator Leahy had 
mentioned earlier. One of them was about immigration. You had 
any written statement a pretty extensive statement there and a 
request for right at $1 billion in funding to deal with 
immigration policy with Mexico and Central America. I want to 
dive into that little bit more.
    What actions did the State Department take last summer when 
we saw the slowdown of the unaccompanied alien children coming 
into the United States? We saw that rapid stop, and it seemed 
to be greater enforcement happening with Mexico and their 
Guatemalan border. Is that part of the strategy of the $1 
billion in the request?
    Secretary Kerry. Yes. There is clearly an enforcement 
component required. Very important.
    Senator Lankford. Okay. What do you see as part of that? 
With that billion dollars, obviously, engaging, trying to not 
only deal with the root causes, as you put it in your 
statement, in Central America for those folks coming here, but 
actually the enforcement arm of that.
    What do you anticipate the State Department's operation to 
be in working with Mexico and Central America, Guatemala, 
Honduras, El Salvador, especially?

                                UKRAINE

    Secretary Kerry. Let me go through it very specifically for 
you. But I do want to add one other thing for everybody, 
because there was sort of a question earlier about what we are 
doing in terms of Ukraine policy.
    Look, the last thing we want to do is see the people of 
Russia pay the price for what we think are bad political 
decisions. But because of the sanctions we put in place, nobody 
should diminish the impact that we have had through this united 
front. I will just take 1 minute on it. This is quick.
    The ruble has dropped over 50 percent in the past 12 
months, and it continues to be very volatile. The economic 
predictions for Russia are that it will go into recession this 
year. Inflation is predicted to exceed 15 percent this year. 
Standard & Poor's has cut their bond status to junk. The 
Central Bank of Russia has capital outflow in 2014 that hit a 
record, $151 billion. And while it still has reserves of about 
$375 billion, it is not in a position to do this interminably.
    So it has been difficult. We have had to keep all of Europe 
united in that effort. So I think we think we are making some 
progress on it. Our preference is to have the Minsk agreement 
implemented fully and be able to de-escalate the situation. 
That is our goal.

                            CENTRAL AMERICA

    Coming to the question of Central America and the request, 
$300 million of that $1 billion will help improve security, 
speaks specifically to security. And it will also deal with the 
extreme levels of violence. It will promote police reform. It 
will attack organized crime, and it will also help us in 
defense cooperation initiatives.
    In economic initiatives, about $400 million is to try to 
promote trade, transport, and Border-Customs integration, 
enhance workforce development, facilitate business development, 
and help small businesses create jobs. And then the improved 
governance is to create more accountable, transparent public 
institutions. There is about $250 million that will reinforce 
democratic institutions; target corruption; strengthen 
efficiency, accountability, and transparency of the judicial 
system; and also improve the management of public funds and 
help create a competent civil service.
    It is a big undertaking. We haven't had this kind of 
undertaking in Central America in decades. I believe, and I 
think the presidents of each of those countries believe, this 
could have a profound impact, and it will ultimately help us 
deal with the immigration challenge.
    Senator Lankford. You have very sharp staff in Central 
America that I have met with and flown down there and got a 
chance to meet with some of that staff. What they do on a daily 
basis, they are doing a very good job for us.
    But it is one of the key issues of enforcement that also 
affects national policy as well as international policy and the 
relationship there.

                                 SYRIA

    I need to ask you about Syria. You had mentioned some of 
the work happening on chemical weapons and getting chemical 
weapons out of the hands of ISIS. Do we have a picture, at this 
point, based on all the chemical weapons that have been pulled 
out, in the agreements? How often have those chemical weapons 
been used in a battlefield situation or are suspected of being 
used in last 6 months? Has that tapered off to zero? Where are 
we now, as far as the use of chemical weapons?
    Secretary Kerry. Well, let me explain that. That is a good 
question, and it is important to draw a distinction here.
    All of the chemical weapons that are on the annotated 
international list of chemical weapons that are prohibited 
under the Chemical Weapons Convention were taken out. Those 
were declared, and for the most part, we think we found every 
one of them, and there are none of those that have been alleged 
to have been used.
    What has been used is chlorine, and chlorine is not on the 
prohibited list. But when mixed in a certain way, it can 
produce toxic impact and be used. Now, that has been used.
    I think probably the numbers are classified, so I want to 
be careful here. But it is fair to say that the bulk of their 
use has been by the regime. But it is not exclusive. It appears 
as if there has been some by opposition and/or by ISIS.
    Senator Lankford. Okay.

                           RELIGIOUS FREEDOM

    The battle that is happening among religious extremism and 
among Islamic communities, specifically, that is raging so much 
that we are on the edges of and drawn into often, obviously, is 
couched in religious terms. The State Department does a 
tremendous amount of work worldwide, dealing with carrying our 
values of religious liberty and recognition of all faiths. What 
changes is State proposing and are you proposing worldwide 
dealing with religious liberty issues? Obviously, there is a 
lot of work that has already happened. But this has become a 
prime issue for us, the recognition of religious liberty, and 
that value being spread. So what change are you proposing?
    Secretary Kerry. Well, I just swore in Ambassador David 
Satterfield, who is a well-known rabbi who has worked for 40 
years on religious freedom. He is going to be our Ambassador in 
the State Department, reaching out specifically on this issue 
of global religious freedom.
    In addition, I appointed the first faith-based outreach 
office in the history of the State Department. Shaun Casey 
heads that up. We have been reaching out to global interfaith 
initiatives in order to try to create common ground and reduce 
the mythology that surrounds a lot of the accusations made that 
stir people up, in terms of violent extremism.
    We are deeply engaged, and, in fact, I will be hopefully 
meeting with King Salman of Saudi Arabia later this week. King 
Abdullah, his predecessor who just passed away, was deeply, 
deeply committed to this interfaith initiative. And we had many 
different conferences, meetings, outreach efforts going on to 
try to bring people together to work on religious tolerance, 
religious freedom, and to counter the messaging of the radical 
extremists.
    Now, we are opening an office in Abu Dhabi, a center that 
will be set up, managed, run by the Emiratis who are funding 
this effort. But it will house a global group of players who 
will be engaged in social media response, working against the 
bigotry and the appeals that are appearing on the Internet that 
are trying to seduce people into these radical extreme efforts, 
and also just generally trying to promote tolerance and 
religious freedom.
    We are working with leaders. There will be a conference of 
women taking place in the Middle East in the next months. There 
is another conference that will be taking place, bringing 
religious leaders together to specifically address this. Some 
of these are, interestingly, being promoted by and initiated by 
Muslim nations in the region.
    So there is a lot happening on this front, and this was a 
very big part of the discussion at the White House summit in 
the past week and a major priority of the State Department.
    Senator Lankford. Okay. Thank you.
    Senator Graham. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    Mr. Secretary, thank you for being here. One cannot be 
effective in your job without a sense of history, and you have 
that sense of history.

                                UKRAINE

    It was Sunday in Chicago, a bright sunny day, but it was 
about 1 degree, and we had a rally outside the Catholic Church 
in Ukrainian Village in Chicago. And I spoke to about 500 
people there. They were holding, obviously, many Ukrainian 
flags and posters, but Lithuanian flags and Polish flags. They 
have a sense of history, too. They have endured, personally and 
through their families, the aggression of the Soviets and the 
Russians.
    I am worried about where we are, and I have joined with a 
dozen of my colleagues, Democrats and Republicans, urging you 
to call on the President to provide defensive arms to Ukraine 
and to do it quickly. I sensed the administration was moving 
that direction, that Angela Merkel and perhaps President 
Hollande begged for time for an attempted ceasefire before we 
made that military investment.
    And now we know the results reported this morning, that the 
separatists have not complied with any of the three sequential 
steps prescribed by that agreement. They include full 
ceasefire, unfettered access of OSCE, and withdrawal of heavy 
weapons.
    I hate to be cynical, but when it comes to Russia, they 
deserve it. They have time and again promised and not 
delivered. Unlike other countries, like Syria and Libya, where 
we are mired in complexity, there is clarity here, clarity. 
This was the invasion of a sovereign nation by Russia, and they 
continue to seize territory.
    My question to you, I think you responded to it earlier, 
about the President making the ultimate decision on weaponry, 
my question to you is this: Did we say to Angela Merkel and 
President Hollande, if this does not fail, what is Plan B, and 
what are you prepared to do? If this ceasefire doesn't work, 
what will Europe do beyond sanctions in response to protect 
Ukraine?
    Is there a plan B, Mr. Secretary?
    Secretary Kerry. Yes, there is, clearly, and it involves 
some very tough sanctions, among other things. It also will 
obviously weigh heavily on the choices that the President has 
to make with respect to recommendations that are or are not 
being made to him.
    But nobody is taking this lightly at all, Senator. I mean, 
first of all, we have a request in the budget for Georgia, 
Moldova, and Ukraine of $75 million, reflecting an increase 
above the bilateral allocations, which is for the Reassurance 
Initiative. And that will enhance the interoperability of the 
NATO allies and non-NATO partners who are most threatened by 
Russia at this moment.
    We have a $75 million request for foreign military 
financing, and just under $1 billion for overseas contingency 
operation funds, I think you know much of which can be 
designated to flow here if we need to. In addition to that, we 
have committed over $118 million in arming and training--not 
arming--training and equipment. But some of it, the eye of the 
beholder will determine the arming specifically. $52 million in 
high-end defensive equipment, such as counter border radars, 
night vision devices, body armor helmets, advanced radios, 
explosive ordnance, disposal robots, rations, first-aid kits, 
supplies. $47 million in equipment to their border folks to 
help them, heavy engineering equipment, thermal imaging, other 
monitoring equipment, patrol boats, uniforms, generators, and 
more equipment is being planned to be arriving. We have $19 
million in global security contingency funds that is training 
and equipment to six companies and headquarters elements.
    So we are out there doing a lot of different things.
    Senator Durbin. Are Germany and France going to join us in 
this effort?
    Secretary Kerry. Germany and France are doing certain 
things that are nonlethal and that are not providing lethal 
assistance at this point. There is still a debate going on 
about whether or not, in these final moments, with Debaltseve 
now, tragically, the victim of the excess, what does that mean? 
The latest indications are that several Russian units are now 
outside. They are on the border. There is training going on in 
Rostov. There are other things that have happened. A lot of 
tanks crossed over. A lot of equipment was given earlier.
    But at this moment, I would say, it is a question mark 
still as to where this is going to go in the next days.
    Senator Durbin. I want to close on this topic and just say 
that as the cease-fire efforts diminish and the Russians seize 
more territory, it becomes problematic. I think we need to move 
and be ready to move quickly.

                         COALITION AGAINST ISIL

    Let me switch theaters quickly. Last week, I was in Panama 
and met with President Varela. I know that you attended his 
inauguration. Panama is the first Latin American nation to step 
up and join us in the coalition against ISIS. He is taking some 
grief for it in his country from his critics, and I told him 
how much we respect the fact that he is willing to engage with 
us in fighting what could be a global threat and, certainly, is 
a major threat to stability in the world.
    Is it our hope to enlarge this coalition in Latin America? 
There have been so many disappointments recently in the United 
Nations when we have had test votes on some of the outrageous 
human rights violations in North Korea, on the Ukrainian 
predicament where 15 or 20 Central and South American countries 
voted against the United States or abstained when it came to 
these declarations. What can you tell us about the prospects of 
building this coalition, particularly in the Americas against 
the threat of ISIS?
    Secretary Kerry. It has some challenges, in terms of this 
region. We have sort of been purposefully respectful and 
careful of creating problems where they don't exist and 
demanding something where there can't be that much 
contribution. There are also things that some people are doing 
that don't have to be listed and promoted, for instance, on 
foreign fighters, on financing.
    We have said that every nation, there is something that 
everybody can do, and not everybody has to do it publicly. So 
there are some who are helping in certain ways, but we don't 
feel compelled to try to leverage people massively into this at 
this point in time, particularly since some of them are 
fighting other challenges. For instance, Colombia, we are 
trying to help with FARC, and we would love to see that get 
resolved. These things can play in difficult ways.
    There are also some tensions between some of the countries 
in the region, as I think you know. And there is a group of 
countries that we wish were more ready to engage but still are 
behaving with sort of a very last century, old kind of rhetoric 
that is focused on the United States and blaming us for things 
that we are absolutely not engaged in and aren't doing.
    Venezuela is paramount among those. I mean, this is a card 
that President Maduro loves to play. The minute he has a 
political problem, he launches an assault on the United States 
and blames us for doing something that we have had absolutely 
no inkling of doing. And there is never any evidence, mind you, 
of those things.
    So it is not an area, I would say to you, that we are 
saying we have to have these guys on board visibly in this 
coalition, but where they are cooperating in certain ways and 
where we can build some greater perhaps cooperation as we go 
forward.
    We have high hopes for the Summit of the Americas, which 
will take place in the beginning of April, in Panama, by the 
way, where we hope some of these issues will be more openly 
discussed. And we are trying to put civil society and human 
rights squarely on the agenda for that meeting.
    Senator Durbin. Thanks.
    Senator Graham. Senator Blunt.
    Senator Blunt. Thank you, Chairman.

                           RELIGIOUS FREEDOM

    Mr. Secretary, in your comments on religious freedom, I 
just want to say I look forward to the new leadership there. I 
think we have been wanting in that area in the department, and 
I was pleased to be supportive of the person that was nominated 
that is going in there now.
    I was also pleased when you used the words ``religious 
freedom.'' I think in too much of our discussion with countries 
around the world, we have talked about the right to worship, 
which is a different thing than religious freedom. And I am 
glad to see any language that expands that.
    I see a couple of questions on the faces of people behind 
you. It might be a good test to have, at the State Department 
someday, what is the difference between the right to worship 
and religious freedom? What is the difference in freedom to 
worship and religious freedom? And there is a difference. I am 
sure you understand that. And I don't want to take a lot of 
time with that, but I am just pleased to hear you using that 
language.

                             IRAQ AND YEMEN

    In both Iraq and Yemen, I am wondering what your view is of 
why we missed the level of how quickly those countries could 
change direction. In Iraq, at one point, we were referring to 
ISIS or whatever you want to call it, we're all talking about 
the same group, as junior varsity, not quite up to the A game. 
A few months later, they control a substantial amount of the 
country.
    In September, in Yemen, the President saying this is a 
great example of the success of our policy. And 6 months later, 
we are evacuating the Embassy.
    What do you think we missed? What have we learned about the 
world today that maybe is different than the world 10 years ago 
that leads us to come to those conclusions that turn out to be 
so wrong so quickly?
    Secretary Kerry. Well, in a sense they weren't altogether 
wrong all the time. Let me be precise.
    Senator Blunt. Remember, what I am going to ask, of course, 
is surely Yemen is no longer the quintessential example of our 
positive success in foreign policy.
    Secretary Kerry. I don't think I ever called it that.
    Senator Blunt. I think the President said this was a good 
example of our successful policy.
    Secretary Kerry. Well, what he was talking about, in all 
fairness, Senator, the President was talking about a way to not 
get in the middle of something and still be able to carry out 
your CT objectives. That is what it was. He was talking about a 
model of our ability to fight al Qaeda and to deal with that 
problem.
    Now, that relied on cooperation with the government. And we 
had a platform from which we were working, and it was 
effective.
    What did surprise, and it surprised everybody, and by the 
way, including Iranians and Saudis whose backyard, in many 
respects, certainly, the Saudi backyard, the Iranians reaching 
across it, but it surprised everybody that it moved the way it 
did. One of the way reasons it moved the way it did was a very 
simple rule that we have learned many times over. I can go back 
to countless countries and countless revolutions where the 
United States picked somebody and they didn't pan out.
    What we can't control is the quality of governance. And in 
Iraq, what you had was a serious process of deterioration. I 
went back and relooked at the figures, because there had been 
some accusations, well, the troops came out too soon, this and 
that. They weren't combat troops. There was no talk ever of 
leaving combat troops, ever. So combat troops wouldn't have 
made the difference.
    The question is what kind of military did you have? What 
kind of leadership did you have? And who did they represent? 
And what were they capable of doing? And that was steadily 
deteriorating because you had a prime minister who was putting 
his cronies in, using it as a personal tool, and excluding a 
good part of the country.
    So when Daesh came along in Mosul, people didn't want to 
fight, because you had a Shia presence in the Sunni part of the 
country fighting Sunnis. And they said this is their fight, we 
are out of here. And there was no discipline and no capacity to 
do it.
    So a lot of lessons learned from that about inclusivity and 
having a stake in the process.
    Senator Blunt. And the ability to resist.
    Secretary Kerry. And the ability to resist. Absolutely.
    So, Senator, that lesson is really being applied now in the 
efforts to try to create greater unity and capacity to be able 
to push back and fight back and deal with the issue of 
governance.
    The same thing in Yemen. In Yemen, you had Hadi, who just 
didn't deliver. He had Saleh, the former president, who was 
present, creating enormous mischief underneath him with the 
people that he still had who were aligned with him, working 
with the Houthis, and now they are at each others' throats and 
at odds for contesting for power.
    There is an effort to create a dialogue now.

                                  IRAN

    Senator Blunt. Secretary, let me ask one question, at 
least, on Iran. I hear that. I think I asked the 
counterterrorism head the other day the same question, and 
basically said we overestimated the ability of the incumbent 
governments to resist. I think you are saying the same thing, 
and I appreciate that answer.
    In Iran, the chairman had a long list of countries that he 
asked you about where Iran is influencing in a negative way. 
What do you think happens if we put Iran on a clock toward 
nuclear capacity? How do you think others in the neighborhood 
react if there is a 10-year window? I don't want to argue about 
the window.
    If there is a clock of some kind where Iran within a 
certain understood period of time could become nuclear capable 
if they tell us they are going to become nuclear capable, that 
12-month clock or whatever it is, how do the Saudis react? 
Leaving the Israelis out for a minute, do other countries react 
in a way that allows Iran to become nuclear-capable without 
thinking they have to move in that direction as well? When you 
and I visited at the Munich security conference a year ago, I 
told you that I didn't think you could contain enrichment, and 
I still don't, but I would be glad to hear your answer to that.
    Secretary Kerry. Well, that is the test, obviously, 
Senator. It is a very good question, and we ought to spend a 
little moment on it, just because it really is central to all 
of this.
    First of all, we are not deliberating whether or not to 
give Iran a nuclear capacity, if by nuclear capacity, we are 
both talking about a peaceful nuclear-power-oriented program, 
not a weapons program, just nuclear power. Iran already has 
that kind of nuclear capacity. They have what they allege is a 
peaceful program. We have had questions about that, very 
serious ones.
    But they have nuclear capacity. They know how to enrich. 
They already learned how to do it. By the way, they learned how 
to do it in another administration's tenure. Back in 2003, Iran 
had 164 centrifuges. Today, they claim some 27,000. There are 
19,000 of them out there working or capable of working. There 
are less than that working today.
    So they have nuclear capacity. They got it. They got it a 
number years ago when an administration, by the way, had a 
policy of no enrichment at all. That was the administration's 
policy.
    Was that enforced? Did anything happen while they went from 
164 centrifuges to 27,000? No. They are where they are.
    So we are taking the program that we have got today, and 
what we are committed to try to do is make absolutely certain, 
hopefully in a failsafe manner, as failsafe as you could be in 
nuclear policy, that they cannot develop a bomb, as 
distinguished from a peaceful nuclear power program.
    Now they have agreed, and it is much unnoticed and not paid 
attention to, to live by the NPT. They could pull out of the 
NPT. North Korea is not in the NPT. That is one of the 
problems. But Iran is in the NPT.
    Right now, the IAEA has documented that they have lived by 
every single requirement of the interim agreement. They have 
taken their 20 percent enriched uranium and they have reduced 
it to zero. They have opened up Fordow, the underground 
facility, to inspection daily. They have opened Natanz. They 
opened up Arak. They have stopped Arak. Not one feature of Arak 
has been advanced from the day we made this agreement.
    So in effect, I won't go into the numbers, but a certain 
number of months of ``breakout time'' has now been growing 
larger. Israel is safer today than Israel was before we signed 
the interim agreement. And we are trying to come to an 
agreement that will, in fact, expand that time even further, so 
that if they were to try to break out, we will know. And then 
the test is, how do you know you will know? How do you have 
sufficient ability to be able to have the inspection and 
intrusion necessary to do that?
    That is our job. That is what we are trying to do now. So 
we can come to you and say, and to Israel, and to the Arab 
world and the community, we will have the ability to know what 
they are doing sufficiently that they can't break out. And if 
they did breakout, we have the same options available to us to 
whack them or do whatever you want as we have today.
    Now, that makes it a very difficult negotiation. It is a 
difficult negotiation. But Iran has lived up to its agreement. 
And our hope is that they will do things necessary to prove 
they have a peaceful program and give us an assurance that 
there isn't some capacity to go covert to slide it off. And I 
think it is really important to see it.
    Now, are other countries nervous about what may or may not 
happen? Sure. Of course they are. And it is our job to sit with 
them and show them what we are doing and have them hopefully 
understand the full measure of it.
    Now we have a 123 agreement with the Emirates. They have 
already agreed to enter into some kind of peaceful process. And 
obviously, if a program is peaceful, there is going to be a lot 
more nuclear discussion in the years of head because I assume 
if and when people all get serious about climate change, it is 
a zero-emissions form of production, and it may become more 
affordable and attractive to people in various parts of the 
world, instead of fossil fuels. So we will see where we go.
    But we are trying to create a template here that can 
withstand public scrutiny to show that they can't produce a 
weapon.
    One final comment. I know I went over my time, but this is 
important.
    This concept of breakout is not understood well enough, and 
there are a lot of reasons for that. In the 1980s, when I was 
in the Senate, and the 1990s, we were debating international 
arms control agreements, and breakout then used to mean your 
ability, we thought, to deliver a weapon. Breakout in the 
context we have been talking about with respect to Iran and its 
program does not mean that.
    Breakout is the amount of time it takes to develop enough 
fissile material for one weapon. We are trying to get a year 
for some period of time that we can guarantee that, and then 
enough time afterward that everybody is comfortable that they 
really just can't go do this without our knowing it, because we 
are going to be tracing the uranium trade.
    Now, I don't want to get into all the details. It is 
inappropriate for me to do that while we are negotiating. But 
suffice it to say that we are going to try to have sufficient 
understanding.
    But once you have the 1 year to be able to have enough 
fissile material, you still have to go design a means of 
delivery and a means of explosion. That could take 4, 5, 6 
years.
    No country in the world has ever had the kind of restraint 
that we are talking about. We will see what happens.
    Senator Graham. Thank you, Mr. Secretary.
    We have three more members, and I appreciate if we could 
get everybody in.
    Secretary Kerry. I will be very quick.

                                  IRAN

    Senator Graham. One very quick question. The Iranian 
parliament is allowed to vote on any agreement entered into 
between the P5-plus-1. Do you object if Congress has that same 
right?
    Secretary Kerry. Well, the Iranian parliament is 
considerably different from Congress, and I think you know 
that. And I wouldn't equate the two, or what their rights are, 
or what they may or may not do.
    And I assure you, they will not be able----
    Senator Graham. Do you object to the Congress reviewing 
this deal, having a vote on it?
    Secretary Kerry. Well, you will review it. Of course, you 
will review it. We are reviewing it now, and we will review it 
in the days ahead, and you already have a vote, because your 
vote is a vote that will be necessary to ultimately terminate 
sanctions.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham.
    Thank you, Secretary Kerry. I appreciate your lengthy and 
thorough review of the negotiations that are ongoing with Iran. 
This is one of the most important challenges that faces our 
security, Israel's security, and global security.
    You mentioned in your opening testimony that you recognize 
the value and importance of closely consulting with Congress, 
both before and should there be agreement afterwards. I look 
forward to that.
    I am grateful for the number of briefing opportunities that 
have been made available to me and other members. This is a 
difficult and demanding strategic situation. Your exculpation 
of exactly what you understand breakout to mean in this 
context, for example, is helpful for us to know, as we try and 
assess the strength and value of the deal you are seeking to 
negotiate.
    But it is also a reminder that the nonnuclear components 
that I think Iran has not yet fully come forward with helping 
the world and IAEA understand the research that was being done 
toward the development of warheads or missile systems is a key 
component of our having confidence about what the breakout time 
is, understood as the broader issue of the ability to deliver a 
weapon, and if and when they get the capacity to develop a 
weapon. These are all of grave concern.
    I don't think there is any disagreement here about strong 
support for the $3.1 billion in aid to Israel that is in this 
package. I don't disagree at all with your opening statement 
that an AUMF needs to be passed here in a way that is 
bipartisan and is strong. I look forward to continuing to work 
with you and others in the administration on it.
    And I welcome your billion dollar investment in Central 
America, in order to strengthen a number of countries from 
which we really face some challenges, and your testimony 
earlier about standing up to Putin's aggression in the Ukraine.

                         ASSISTANCE FOR AFRICA

    But I would like to focus us, in my few minutes, on Africa, 
a continent where I chaired the Senate Subcommittee on Foreign 
Relations for 4 years and have a persistent interest and 
enthusiasm. Let me just lay out a few issues and then ask you 
to use the time left to answer them.
    First, $2 billion out of $50 billion in this budget is 
dedicated to democracy, promoting democracy and governance and 
human rights globally. I think that is a modest and absolutely 
essential investment. Africa is a continent of 54 countries, 
and in a number of them, there are difficult and contested 
elections this coming year. So any comment you care to make 
about the work we are doing to strengthen civil society in 
countries, from Nigeria to Ethiopia to Rwanda, where there are 
difficult and contested elections and where our support of 
democracy is a key part of advancing our values.
    Second, the African summit that happened last August, the 
first convening of more than 50 heads of state or heads of 
government, I think was a great beginning. It is my hope that 
the department and the administration plan to continue a robust 
engagement around Power Africa, around the Young Africa Leaders 
Initiative, and around security.
    So if you have any comments you care to make about the 
commitments around security and, in particular, African-led 
initiatives to improve security in countries facing extremism, 
from Somalia to Nigeria to the Central African Republic, would 
be great.
    You mentioned in passing the significant and bipartisan 
support for appropriations in the work against Ebola. We are 
not yet done. We haven't gotten to zero. But many Americans, I 
think, wonder whether we are ever thanked by the nations who we 
do so much to work with and to help. President Sirleaf of 
Liberia will be here Thursday expressly to thank the American 
people for the support that our Armed Forces, our uniformed 
Public Health Service, USAID, State Department, and many 
others, CDC, of course, provided in the course of that public 
health crisis.
    I strongly support the investment, as Senator Leahy 
mentioned previously, in the Global Health Security efforts and 
the importance of strengthening health systems.
    And last, you in your role on this committee really 
championed wildlife trafficking. I think this is an important 
issue for us to tackle this year, because so often wildlife 
trafficking funds extremism and international gangs. It is the 
next stage after narcotrafficking and trafficking in humans. 
Wildlife trafficking has become a major source of revenue for 
illicit organizations around the world.
    If in 3 minutes, you can make a coherent response to any of 
those four questions, I would be even more impressed with your 
skill, Mr. Secretary. Thank you.
    Secretary Kerry. Thank you very much. I will do it in a----
    Senator Coons. And, of course, responses for the record are 
always welcome, if we run out of time.
    Secretary Kerry. I would be happy to add more.
    First of all, thank you for your abiding interest, which is 
making a huge difference, and we appreciate it enormously. And 
thanks for participating in the global summit.
    As you know, we had the African leaders here last summer. 
It was an enormously important effort. We requested $260-plus 
million, $268 million, to support the initiatives of programs 
that came out of the African Leaders Initiative. And that is 
$76 million for Power Africa, which is absolutely critical to 
bringing electricity to communities so you can have economic 
development. It is one of the reasons Ebola is a problem, for 
instance. There is just no infrastructure there.
    There is funding for Trade Africa and trade investment hubs 
that will begin to create greater economic commerce. There is 
$10 million for the Young African Leaders Initiative. I have to 
tell you, that is one of the most exciting parts of this entire 
conference we had. These young leaders came from all over 
Africa, hugely educated and energized and ready to go out and 
change the world in their countries, working for different 
global companies, working for Goldman Sachs. They all came over 
here and they are ready to make these kind of transformations 
take place in Africa. This is a hugely well-spent amount of 
money.
    And $110 million for the African Peacekeeping Rapid 
Response Partnership, a security governance initiative that we 
have to work with various countries. We are making progress in 
various places, and we have big challenges.
    Nigeria is the challenge, Boko Haram. But Chad, Cameroon, a 
couple of neighbors have come together. They are engaged. We 
are trying to work with them to help them fight back against 
the Boko Haram.
    I was in Nigeria to encourage the election process. I met 
with President Jonathan, with his opponent. I am sorry the 
election was postponed. We are working now to make sure that 
election takes place and is accountable and free and fair.
    But I think that we have Feed the Future and Food for 
Peace, both are taking place there. And, of course, we are 
continuing our health initiatives, which are absolutely 
essential.
    So that is a quick take on it. We have $302 million 
requested for peacekeeping operations, and particularly working 
with the rapid response partnership, the African Union 
peacekeeping initiatives, Somalia, the Central African 
Republic, and security sector reform. So there is just a huge 
amount that is happening.
    A lot of people don't realize it, but I think six or seven 
of the fastest growing countries in the world are in Africa, 
notwithstanding the turmoil and difficulties of some of 
northern Africa and the Horn of Africa. And hopefully if we 
stay engaged and we continue to lead and work with other 
countries, this can change for the better.
    Senator Coons. Thank you, Mr. Secretary. Yes, seven of the 
fastest growing economies in the world, according to the World 
Bank, are in Africa this decade. So Power Africa and Trade 
Africa I think are important initiatives.
    There are a number of countries that face real threats from 
extremism, and I am grateful for your leadership and look 
forward to working together in ways to find bipartisan 
solutions to those real challenges to security and democracy. 
Thank you, Mr. Secretary.
    Secretary Kerry. Thank you very much.
    Senator Graham. Senator Daines.
    Senator Daines. Secretary Kerry, thank you for being here 
today. Many of us were outside of D.C. last week. Many of us 
went home. I spent the week back in Montana. One of the top of 
mind issues for the average Montanan as we're sitting down, 
having cups of coffee, is what is going on in the Middle East, 
certainly, and ISIS, this issue of radical Islam.

                               ISIL-DAESH

    Secretary Kerry, during your presidential campaign in 2004, 
you used the term ``Islamic extremism'' to describe radical 
Saudi clerics. And in 1997 book, ``The New War,'' you described 
the Taliban as Islamic fundamentalists. In your opinion, could 
one of these terms that you used, and I think correctly used, 
Islamic extremists, Islamic radicals, Islamic fundamentalists, 
be used to describe ISIS?
    Secretary Kerry. Well, first of all, I am pleased to have 
anything that I said in 2004 validated in 2015.
    But not treating any of this lightly, some, not all--you 
know, these guys, there are some of them who have a dream of a 
caliphate and who are obviously implementing their very warped 
sense of Islam in a horrendous, grotesque way. But they, 
certainly, think they are furthering some kind of thing, and I 
have called them any number of different things, including 
Islamic extremists, if, in fact, they are wearing that hat and 
that is what they are trying to do and they are proselytizing 
on that basis. But not all of them are.
    You have a lot of thrill seekers. You have adventurers. You 
have thugs. You have a mix of opportunists. You have an 
unbelievable array contained within this. So I think you want 
to be careful how you sort of tab it as a whole.
    Senator Daines. Mr. Secretary, to look around the world, 
David Cameron has been very, very clear, I think provided great 
moral clarity on defining this issue. Tony Blair has been very, 
very clear on this. In fact, even King Abdullah, who met with 
the Appropriations Committee. In fact, we met 2 hours after 
that horrible video was released of that F-16 pilot. He said 
this is a war inside of Islam. And I think there is a concern, 
we lack this moral clarity, that many leaders around the world 
are, we are not hearing this from the President and it is 
giving great----
    Secretary Kerry. Well, make no mistake. Look, I think you 
are working too hard to try to create something that isn't 
anything here. The President could not be more committed to 
beating back ISIS, Daesh, whatever you want to call it. I 
prefer to call it Daesh, because then you avoid this notion 
that there is anything Islamic about it, which there 
fundamentally isn't, and Daesh is a pejorative in Arab terms. 
So we all ought to call it that.
    But the point I am making is that the President is just 
trying to be careful not to lend a whole bunch of other people 
who take quick swipes at this, and if you go to the social 
media, you will see the degree to which people are trying to 
make it look like America is engaging in some kind of religious 
war or that this is an effort to be at war with Islam.
    So he's trying to be careful. I think it is appropriate the 
President is trying to be careful about that.
    But make no mistake. All of us understand that there are 
radical Islamic extremists engaged in these endeavors, just as 
there are others. But when the President speaks, I think it is 
appropriate for the President to try, because his voice is so 
much more magnified than yours, mine, and others, that I think 
it has to be done properly.

                           VIOLENT EXTREMISM

    Senator Daines. I think what we saw of concern last week, 
and of course, it created a media firestorm, when the State 
Department spokeswoman Marie Harf made the comments that 
implied that the way to confront terrorism was through jobs 
programs or somehow this was fundamentally a governance issue. 
It was her words, in terms of root cause.
    So is the administration's belief that the root cause of 
this terrorism is economic versus ideological or religious?
    Secretary Kerry. Let me speak to that. I am glad you asked 
that.
    Marie spoke globally about the problem of violent extremism 
in the context of the summit that we were having. And she 
clearly, as she has almost every day that she speaks, embraced 
our military effort. We are going to kill as many of these 
terrorists already declared members of Daesh as we can. And the 
President's goal is to degrade and destroy ISIS. That is the 
goal. He has stated it. I have stated it any number of times.
    But the fact is, if all you do is do that, you are not 
going to solve this problem. Some Secretary of State is going 
to be here in the future, some President will be there, and 
there will be a different acronym and you are going to be 
talking about how you get rid of them, because there is a big 
pool of people out there waiting to be seduced into this.
    Why do you think three young girls get on an airplane and 
leave Britain? Why do you think there are several hundred 
Americans over there? Why are there thousands of people from 
Russia, from Germany, from France, from Britain, from various 
countries, who are going to Syria to fight? Well, something is 
bringing them to that.
    Part of our conference the other day was Dr. Peter Neumann, 
who has done a huge amount of work on this. He is at King's 
College in London. He's the director of the International 
Center for the Study of Radicalization. Here's what he said. He 
said you have to know who these people are and you have to know 
why they are joining. He said so we know these people. We know 
their stories. We know there isn't just one story. There are 
many of them.
    Some of them are pious, but others, not so much. Many have 
troubled histories. Some would have had great prospects, if 
they had stayed in their European home countries. Some were 
driven by the humanitarian suffering of the Syrian people. 
Others were seeking thrill and adventure. And, of course, many 
were genuinely committed to and enthusiastic about the 
totalitarian project of the group that calls itself ISIL.
    Here's what he concludes. The real way you are going to 
deal with this, he thought, was first the issue of the 
fighter's parents. He said that a lot of people have been kept 
from the battlefield by their parents and families and what 
they come from.
    Secondly is the Internet. A lot of the Internet is 
radicalizing them.
    And thirdly, he said if you really want to get serious 
about reducing the pool of people who are susceptible to the 
ideas of violent extremists, you have to begin by recognizing a 
lot of these people don't even feel a stake in their own 
society.
    So this is bigger. That is what Marie was saying. She never 
set out to say the solution is to give them jobs.
    Senator Daines. Yes, Secretary Kerry----
    Secretary Kerry. She talked about a much broader array of 
things we have to do. And if we can't have a serious 
conversation about this without politicizing it on cable TV and 
making it a scoring point for 1 day, we are in trouble.
    Senator Daines. Well, I think, though, there is great 
anxiety and concern back home. Folks back home are seeing this 
as an ideological threat.
    And I remind all of us here that the 9/11 attackers came 
from good families. They were well-to-do. And the greatest 
attack on U.S. soil came from individuals who most were from 
very rich, top class families.
    So I guess I hope we can at least have an open dialogue 
here on getting back to the root cause, which I think is more 
than jobs and governance, but comes back to an ideology. I 
think that is a debate we need to have here in this country.
    Secretary Kerry. Well, it is, but why does somebody fall 
prey to that ideology? Why does somebody think going and 
cutting off somebody's head is a good idea? Why is somebody not 
more aware of how women are actually going to be treated when 
they show up?
    I mean, there is a gap here of knowledge, and there is a 
readiness and willingness, and it is different everywhere, 
believe me. I have been looking at this now for 30 years, and I 
am telling you it is different everywhere. There is no one-
size-fits-all shoe that is going to solve this.
    It has to be a holistic approach. But the one thing I want 
to say to you, with everything I can summon about imperative, 
we have to step up and do more, and we have to view it 
holistically, and we have to understand it is a whole bunch of 
things. And if we work at it holistically, we are going to win. 
If we make the wrong judgments, though, about what is going to 
make a difference, then we are going to take a lot longer to do 
what we need to do.
    Senator Daines. Thank you, Mr. Secretary.
    Senator Graham. Senator Moran.
    Senator Moran. Mr. Chairman, thank you.
    Mr. Secretary, thank you for your presence here today. I am 
a new member of the subcommittee, and I have appreciated the 
conversations that I have heard between colleagues and you 
today.

                               ISIL-DAESH

    In regards to ISIL or ISIS, whatever phrase or title you 
want to use, I consider it one of the greatest threats our 
country faces at the moment. When I say at the moment, it is 
today, but it is in the future as well. I am always worried 
that Presidents, not just this one, but administrations have 
the habit of downplaying the risks.
    We haven't declared war in this country since World War II. 
We sometimes ask Congress for authorization of use of force. 
And in this particular case, the request for an authorization 
of use of force, it seems to me, diminishes the threat by its 
narrowness of scope.
    I want to have you reassure me how serious the threat is to 
our country, and that the goal here is to make certain that the 
American people and our leaders, us in Congress, you in the 
administration, administrations to follow, have the support of 
the American people to see that we are successful in 
accomplishing the goal of defeating this threat. I just want to 
encourage the administration to in no way diminish by narrowing 
the resolution, by talking about a certain group of countries, 
scope, and boots on the ground terminology, and using the 
phrase ``enduring.'' Make certain that we have the American 
people--I am not a veteran. I grew up with Vietnam in the back 
of my life, and it seemed to me that something we should have 
learned from Vietnam--first of all, Mr. Secretary, I would say 
that one of the things I learned from Vietnam is to always 
respect those who served, and I respect your service to our 
country.
    Secondly, I would say that we should have learned that the 
American people need to be told the truth from the very 
beginning about how difficult the task is to succeed. Anytime 
we downplay that, we run the risk of the American people moving 
on before the task is accomplished.
    Secretary Kerry. Well, Senator Moran, that is a very good 
question. And you are absolutely correct in your judgment about 
not losing focus. So let me try to emphasize as much as I can 
without hyperbole, and, certainly, without intimidating people.
    This is the challenge of a generation. This is our 
challenge. No question about it. But it is not just the 
challenge, as I was saying a moment ago, of the kinetic, the 
military component of this. It is a bigger challenge than that.
    You have to also address the draining of the pool for 
future recruits, and that is the only way you win this, 
comprehensively. So it is more than just the kinetic piece.
    Now, in the context of the kinetic piece and declaring war, 
we have not declared war against another state since World War 
II. To take ISIS and elevate it and make it into sort of state 
status would be a huge mistake. The President is not asking for 
a declaration of war, because we don't need a declaration of 
war, and it would be bad policy to have one.
    But he is asking for us to take this as absolutely 
seriously as it deserves to be. This is a threat. They have 
already threatened us. They have threatened Western allies of 
ours. They have threatened non-Western allies of ours. They 
have threatened the world with their version of what they want, 
how they want to live, and how they want to impose their life 
on other people.
    They destroy schools. They destroyed books. They rape 
girls. They sell people into slavery. They cut off heads in 
public. They burn people alive. This is a horrendous step 
backward in the context of the world's march toward civility 
and rule of law. And every one of us understands that.
    That is why President Obama is so committed. That is why we 
had the summit here. That is why we put together 16 nations. 
That is why young men and women in uniform are once again at 
risk in an effort to take on this fight.
    But it doesn't require a declaration of war for us to do 
what we need to do. And much of what we need to do is outside 
of the normal parameters of ``war.'' It is addressing why 
people don't have a greater stake or greater assimilation into 
their community, why they don't have other opportunities, why 
they are seduced by the Internet by this, how do we block that, 
how do we counter it, how do we message it?
    Those are why we have five principal avenues of strategy. 
One is the military and kinetic. Another is the anti-foreign-
fighter movement. The third is the anti-funding, preventing 
them from getting funded. The fourth is the humanitarian piece, 
where we are the largest contributor to taking care of the 
people displaced in Syria and elsewhere. And the fifth is the 
ideology.
    We are doing the major messaging across the globe, but 
principally in the Middle East, where we are now gearing up 
with huge numbers of people engaged in the effort to deal with 
social media, countermessage, and galvanize the global 
religious community, all faiths, to begin to help speak out, 
particularly from Islam itself.
    Senator Moran. Mr. Secretary, thank you.

                           ARMS TRADE TREATY

    Let me ask a different line of question, a different 
question. I have been involved in a number of efforts to 
demonstrate the opposition of members of the Senate to the Arms 
Trade Treaty. Despite that opposition by the Senate, by both 
Republicans and Democrats in somewhat significant numbers, the 
administration negotiated that agreement.
    It was a previous Secretary, but now 17 months later, that 
treaty has not been submitted to the Senate. I am interested in 
knowing what is preventing or stopping that submission to the 
Senate, if it is ever going to happen. And in the absence of 
being submitted to the Senate, are there operational plans in 
which the administration believes that that Arms Trade Treaty 
is applicable even in the absence of Senate approval? And I 
would also ask why a full legal review has never been done by 
the State Department of that treaty.
    Secretary Kerry. Is it applicable----
    Senator Moran. In the absence of Senate ratification of 
that treaty, does the State Department, the administration, 
intend to use it as an operable document, meaning something 
despite no confirmation in the Senate?
    Secretary Kerry. Let me get back to you on that, because 
honestly, I haven't had a conversation that has suggested there 
is a reason for why it isn't specifically, but let me find out 
for you.
    Senator Moran. All right. Mr. Secretary, thank you.
    Senator Graham. Mr. Secretary, you've been very generous 
with your time. I think Senator Leahy has one or two questions.
    Senator Leahy. I referred to this earlier. Incidentally, I 
appreciated all you said this morning. I think it has been very 
helpful, not only to us, but to the American public 
understanding our foreign policy.

                               LEAHY LAW

    I mentioned Iraq before. I have seen some very disturbing 
photos that purport to show Iraqi security force personnel, 
military, and militias operating, with them torturing people, 
killing them, either beheading them or beheading them after 
they were dead. In any event, they were executed. Of course, 
these are war crimes.
    Now we provided training and equipment to Iraqi security 
forces for years. A lot of it was just abandoned to ISIL, but 
nonetheless, we have provided it.
    Have any Iraqi units been denied U.S. aid under the Leahy 
Law?
    Secretary Kerry. Yes. We have refused some units. I think 
about 122 units have received aid, but they have all been 
vetted for Leahy.
    Senator Leahy. Are we able to vet Iraqi recipients of U.S. 
aid?
    Secretary Kerry. Yes, we are. We are fully capable of doing 
that, and all of them are being vetted. And since 2003, there 
have been denials on occasions where people have been accused 
of human rights abuses.
    By the way, there is a current investigation going on, 
Senator, which Prime Minister Abadi has called himself as a 
result of some of these allegations.
    Senator Leahy. If militias had acted in connection with 
Iraqi security agents, would that be a violation?
    Secretary Kerry. Yes.
    Senator Leahy. Thank you.
    You always supported the Leahy Law, and I appreciate that. 
It is designed to prevent U.S. aid from going to units of 
foreign security forces that are committing those violations. I 
would assume the State Department still continues to vet those, 
whether it is in the Middle East or Central America or anywhere 
else. Is that correct?
    Secretary Kerry. We absolutely do. We have actually wound 
up, and I think I have talked to you on the telephone about a 
couple of these, where we have had some problems in certain 
countries because we have so assiduously asserted them.
    Senator Leahy. I also look at northern Nigeria, I look at 
Boko Haram's excursions there. I also look at the difficulty in 
getting action out of the Nigerian Government. That is probably 
a broad way of saying it.
    Some people blame the Leahy Law for not doing more to 
support the Nigerian army, so saying that we will give them aid 
even if they commit crimes like murder, rape, torture.
    Do you have a response on that?
    Secretary Kerry. That is not the reason. There are other 
reasons for the lack of adequate response, Senator. A lot of 
them have to do with governance itself, choices in the military 
leadership, absence of, and other problems, but it is not the 
Leahy Law that is prohibiting that.
    Senator Leahy. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Graham. Thank you.

                                  IRAN

    Very quickly, is it a fair summary to say that the Iranians 
are wreaking havoc in the Middle East, as I speak?
    Secretary Kerry. That is not the way I would frame it. What 
I would say to you, Senator, is the Iranians are reaching into 
and having an impact and influencing a number of countries in 
the region. Are they in Baghdad and having an impact there? 
Yes. Are they in Beirut and having an impact in Lebanon? Yes. 
Are they in Damascus having an impact? I already characterized 
Assad's relationship. Yes. Were they in Yemen and did they have 
an impact there? The answer is yes. Are there other places? 
Yes.
    And I want to emphasize that everything that we are doing 
with respect to the current negotiations is focused on the 
nuclear component, with a clear understanding that none of 
these other areas somehow result in less focus or pressure by 
the United States or attention, because we will continue to 
push back against those kinds of activities.
    Senator Graham. Just very briefly, I think they are 
wreaking havoc. I think they destabilized the Yemeni 
government, which was helpful in counterterrorism actions 
against al Qaeda in the Arabian Peninsula. I think they are 
propping up Assad, who is one of the great mass murderers of 
the 21st century. I think Hezbollah has been a destructive 
element in Lebanon and a constant thorn in the side of Israel. 
I think what they are doing in Iraq, that Senator Leahy pointed 
out, is going to make it very hard for us to come together.
    So I would just want to let you know, from my point of 
view, we are dealing with people who are hell-bent on expanding 
their influence in the Mideast in a destructive fashion, and I 
hope we will understand who we are dealing with.
    Secretary Kerry. Senator, could I just----
    Senator Graham. Please. Absolutely.
    Secretary Kerry. The greatest wreaking of havoc of all, and 
the most destabilizing thing, would be if, in fact, you had a 
nuclear armed Iran that projected even more power and influence 
than it has today. That is why we are so committed to not 
allowing that and not having that become a possibility. But we 
are in close contact working with all of our partners in the 
region on pushing back on these other components you just 
talked about.
    We cooperated with Israel in tracking and interdicting a 
ship carrying Iranian rockets that was going to Palestinian 
militants. In December, we helped the Bahrain coast guard 
interdict a ship carrying weapons of Iranian origin to proxy 
groups. In December, President Obama designated the GCC as 
eligible for foreign military sales, meaning they can purchase 
weapons as an entity in order to lay the groundwork for them to 
deal with challenges that they feel from Iran.
    So we are not oblivious to these tentacles and these 
efforts.
    Senator Graham. Have you ever thought of the following, 
going to the Iranians and say we will cease negotiations about 
your nuclear ambitions until you stop wreaking havoc on the 
region. We are going to reapply sanctions with full force. We 
are not going to negotiate with you while you destabilize the 
region, as a punishment for destabilizing the region.
    Have you ever thought of that option?
    Secretary Kerry. Senator, there are ways to manage that. I 
will talk to you in a classified setting, or afterward.
    Senator Graham. Fair enough.
    Secretary Kerry. I think there is a better way to answer 
that.
    Senator Graham. Last question, and you have been great to 
share with us your thoughts and your time.

                          IRAQ AND ISIL-DAESH

    Do you agree with me that what you see with ISIL, its 
presence in Iraq and Syria and now Libya and throughout the 
entire region, is a predictable result or outcome of our 
decision not to leave troops behind in Iraq and not to have a 
no-fly zone 3 years ago when it was recommended by the entire 
national security apparatus of the Obama administration?
    Secretary Kerry. I can say definitively no, it is not a 
result of the issue of troops being or not being in Iraq. There 
is no question in my mind about that.
    You can have a greater argument about the issue of no-fly 
zone and what choices were made back then, but there is no 
question in my mind that the decision about troops, if you look 
at what flowed immediately afterward as the troops came down 
and left Iraq and the Iraq that existed immediately afterward 
for more than a year or so was calmer, less violent, there were 
less incidents. And that is a process during which time, 
unfortunately, the governance of Iraq did not keep up with the 
possibilities that it faced. The troops that would have been 
left behind would have been training, to some degree. We can go 
into what we did or didn't happen with respect to the training 
process.
    But as I said earlier in my testimony, the real problem was 
the absence of a sufficient level of continuing leadership and 
the, frankly, overt discrimination that was taking place 
against the Sunni population and the unwillingness even to work 
out issues with the Kurds.
    So Iraq became fractured well before in a way that lent to 
the possibility of ISIL being able to move as it did.
    Senator Graham. Thank you, Mr. Secretary.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this morning, Senators 
may submit additional questions for the record until Friday, 
February 27, and we request the Department of State's response 
within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. John F. Kerry
             Questions Submitted by Senator Lindsey Graham
    Question. What actions have the Department of State and the 
administration taken to free Pastor Saeed Abedini from imprisonment in 
Iran, and what how is his health and welfare?
    Answer. We have repeatedly called for the release of Pastor Saeed 
Abedini, who is serving an 8 year prison sentence on charges related to 
his religious beliefs. We have raised, and will continue to raise, his 
case with senior Iranian officials at every possible level. President 
Obama raised Saeed's case with President Rouhani in September 2013, and 
highlighted his plight during his speech at the National Prayer 
Breakfast earlier this month. Secretary Kerry has, on several 
occasions, discussed Saeed's case directly with Foreign Minister Zarif. 
Likewise, Under Secretary Sherman raises his case on the sidelines of 
the P5+1 negotiations at every opportunity. Because of privacy 
considerations, we are unable to comment further on our efforts on Mr. 
Abedini's behalf.
    Question. What percentage of prior fiscal year assistance for 
democracy and governance programs in Syria supports indigenous Syrian 
civil society organizations (by organization, amount, and fiscal year), 
and how much assistance is anticipated for such purposes in the fiscal 
year 2016 budget request?
    Answer. The United States provides significant support to civil 
society groups and organizations in Syria with the goals of fostering a 
robust, inclusive and tolerant society that is empowered to hold 
governance institutions accountable, provide services to their 
communities, empower marginalized groups and vulnerable populations, 
and facilitate the free flow of information. This support is a key 
component of our broader U.S. assistance to the moderate Syrian 
opposition, and is a critical aspect of our policy to counter extremist 
elements in the region, including ISIL, and set the conditions for a 
negotiated political settlement in Syria. The United States is 
providing more than $330 million in nonlethal and transition assistance 
to support the moderate Syrian opposition. As part of this assistance, 
the U.S. has committed more than $56 million from a range of accounts 
and fiscal years to support Syrian civil society through an array of 
activities including training to build organizational capacity, 
fostering linkages across civil society groups and between civil 
society and local and national governance institutions, and bolstering 
their technical capacity to provide services to their local 
communities. For the safety and security of those we work with, we do 
not publically detail each individual activity or organization we work 
with. However, supporting civil society in Syria remains a priority and 
these efforts will continue into fiscal year 2016. U.S. assistance to 
civil society includes:
Civil Society Capacity-Building and Advocacy Support
    U.S. assistance strengthens and empowers networks of indigenous 
civil society organizations (CSOs), independent journalists, civic, 
women and youth activists to work together and build trust between each 
other, and position them to form the basis of a strong and vibrant 
civil society. U.S. assistance also supports Syrian civil society 
groups across ethnic and religious divides to impart the skills, 
knowledge, and resources to lead an inclusive peacebuilding and 
reconciliation process and, more broadly to support their active role 
in representative, transparent and accountable governance. This 
assistance is critical to supporting a future Syria that is accepting 
of all religious, ethnicities and genders.
Service Provision by Civil Society Organizations
    A large component of U.S. assistance provides support to bolster 
Civil Society Organizations (CSOs') ability to work with local 
governance actors to provide services to their local communities. The 
U.S. Government (USG) has partnered with over 50 CSOs in Syria to 
collaborate with local authorities to respond to community needs 
through the implementation of a range of projects including education, 
minor repairs to water and electricity services, waste management and 
agriculture projects. Many of these activities also focus on promoting 
ideals of tolerance and coexistence through funding activities such as 
the production of short films that promote non-violent activism and 
local cleanup campaigns to foster community collaboration.
Internet Freedom and Communications Security
    The USG is providing security and technology training for Syrian 
activists, human rights organizations, and media outlets to enhance 
their security as they exercise their rights of freedom of expression, 
association, and assembly online. Our assistance builds the capacity of 
CSOs operating within the country to improve their communication, 
safety, and security.
    Question. What are the implications of an economic assistance 
suspension to the Palestinian Authority (PA) arising from Palestinian 
action at the International Criminal Court? What are the estimates of 
the amounts of funding impacted by such a suspension? Will suspension 
of economic aid to the PA result in an increase of humanitarian 
assistance for the Palestinian people?
    Answer. A provision in the fiscal year 2014 and 2015 appropriations 
acts restricts Economic Support Fund (ESF) assistance if the 
Palestinians initiate an International Criminal Court judicially 
authorized investigation, or actively support such an investigation, 
that subjects Israeli nationals to an investigation for alleged crimes 
against Palestinians. Our view is that this legal restriction has not 
been triggered.
    We are concerned that if assistance to the Palestinian Authority 
(PA) were restricted, or if assistance to the PA were otherwise 
withheld, there might be significant consequences--including security 
consequences--for both Israelis and Palestinians. A significant portion 
of U.S. assistance to the Palestinian Authority (PA) comes in the form 
of budget assistance. Over the last two fiscal years, of the $450 
million in budget support to the PA, approximately $425 million--nearly 
95 percent--was transferred to Israeli private sector creditors to pay 
off PA debts for electricity services. The remaining $25 million in 
budget support was paid to East Jerusalem hospitals, also to pay off PA 
debts. Should the PA's fiscal crisis remain unresolved, rendering the 
PA unable to pay, creditors may be faced with the choice of working 
unpaid or cutting off services, exacerbating an already tenuous 
situation in the West Bank and Gaza.
    U.S. assistance to the Palestinians also advances a two-state 
solution to the Israeli-Palestinian conflict by working to build the 
institutions of a future Palestinian state and improve outcomes for the 
Palestinian people. Many of these programs play a valuable role in 
promoting stability not just for the Palestinians, but also for Israel. 
While it is difficult to estimate specific amounts of funding that 
would be implicated by a suspension of funding to the PA, a suspension 
could also impact a portion of ongoing and planned programs that 
provide assistance to PA institutions.
    We are currently reviewing our assistance to the West Bank and 
Gaza, including assistance to the PA, to determine how it can best be 
used moving forward. This includes considering how legal restrictions 
could impact funding. Should legal restrictions on assistance to the PA 
be triggered, or if assistance is otherwise withheld, an increase in 
assistance to the Palestinian people is possible, but no final 
determination has been made.
    Question. Can you assure the Congress that the United States will 
continue to use our veto against any one-sided resolutions at the 
United Nations Security Council?
    Answer. The United States has consistently opposed every effort to 
delegitimize Israel or undermine its security, including at the United 
Nations. We uniformly and firmly oppose one-sided actions designed to 
punish Israel in international bodies and will continue to do so.
    In most cases of unfair and unbalanced texts introduced in the 
Security Council, we have been able to advocate successfully for the 
U.S. position during negotiations and, if necessary, form a coalition 
of like-minded countries to stop such resolutions from moving forward.
    For example, on December 30, 2014, the United States successfully 
rallied a coalition to join us in voting against an unbalanced draft 
resolution on the Israeli-Palestinian conflict that was hastily put 
before the Security Council. We made clear to the other members that 
the draft text was deeply imbalanced and should not be supported. 
Through outreach by Secretary Kerry to multiple leaders represented on 
the Security Council, as well as Ambassador Power's tireless work in 
New York, the resolution failed to achieve the nine United Nations 
Security Council (UNSC) member votes in favor required for adoption. 
Separately, the administration used its veto power to defeat another 
one-sided resolution in 2011.
    We will continue to work with our partners, including in the 
Council, to advance the prospect for future negotiations and provide a 
horizon of hope for Israelis and Palestinians, while opposing all 
efforts that would undermine that goal.
    Question. Has any U.S. assistance made available for humanitarian 
aid, including reconstruction, in Gaza been diverted for other 
purposes?
    Answer. Since the onset of the July-August 2014 conflict in Gaza, 
the United States has committed $231 million in humanitarian assistance 
to Gaza, provided to established U.N. and non-governmental 
organizations, including the United Nations Relief and Works Agency for 
Palestine Refugees in the Near East (UNRWA), the World Food Program, 
the United Nations Development Program, UNICEF, the International 
Committee for the Red Cross, and others. We are not currently aware of 
any reports that U.S. assistance for humanitarian aid in Gaza, 
including reconstruction, has been diverted for other purposes. The 
United States takes very seriously any reports of diversion of its 
assistance, and we have long required our partners in Gaza to take 
appropriate steps to prevent U.S. funding from being diverted for non-
intended purposes.
    UNRWA has stringent policies and procedures in place regarding 
neutrality and preventing UNRWA funds and programs from benefiting 
terrorists, consistent with the conditions on U.S. funding required by 
section 301(c) of the Foreign Assistance Act of 1961, as amended. 
Vetting of UNRWA staff, beneficiaries, and other persons receiving 
UNRWA payments is a key component of these policies and procedures. In 
addition to UNRWA's vetting processes, the State Department also 
screens the names of all entities or individuals receiving UNRWA 
procurement contracts of aggregate annual value greater than $100,000 
on a quarterly basis against the General Service Administration's 
database of people and entities that are unable to receive Federal 
funding due to connections to terrorist organizations. To date, there 
have been no matches. To monitor the delivery and neutrality of UNRWA's 
assistance, UNRWA international staff members conduct formal quarterly 
inspections of all 255 UNRWA facilities in Gaza and daily monitoring of 
all nine concrete factories currently contracted by UNRWA building 
contractors to use materials for UNRWA's Israeli government-approved 
projects. UNRWA also escorts trucks with construction material to its 
delivery destination to ensure that construction material is used for 
its intended purpose only.
    Consistent with statutory requirements, USAID has appropriate 
procedures in place to ensure that Economic Support Fund (ESF) 
assistance for the West Bank and Gaza is not provided to or through, or 
diverted to, any individual or entity that is known to be involved in 
or advocating terrorism, including Hamas. USAID's vetting process 
checks non-U.S. individuals and entities within certain thresholds 
against law enforcement and intelligence community systems prior to 
local prime or sub award issuance. Worldwide, USAID requires grantees 
to sign its Certification Regarding Terrorist Financing in order to 
receive funds. In the West Bank and Gaza specifically, the annual 
Appropriations Act requires annual audits of all USAID direct awardees, 
as well as an annual Government Accountability Office audit of the use 
of all ESF assistance.
    Question. What factors were considered prior to the evacuation of 
U.S. Embassy personnel from Sana'a, and what must be considered prior 
to their return?
    Answer. When the Houthis forcefully entered Sana'a in September 
2014, the security situation in the capital significantly deteriorated. 
However, despite the instability in Sana'a, and the unpredictable 
nature of the political crisis, our Embassy was still able to work with 
Yemeni interlocutors and the international community on the ground to 
advance and support Yemen's political transition process. However, 
recognizing the changed security environment, Embassy Sana'a went on 
Ordered Departure on September 24, 2014, and we proceeded to reduce our 
staffing levels to minimize our footprint should we have to evacuate. 
We also updated our travel warnings and issued several security 
messages to American citizens stressing that Yemen was unsafe and they 
should depart immediately.
    Subsequently, the unilateral declaration by the Houthis on February 
6, 2015 that dissolved the Yemeni parliament, created new Houthi-
controlled governing bodies, prolonged the house arrest of the 
President and Prime Minister, and pitted the Houthis against nearly all 
of Yemen's political elements ultimately led to an untenable security 
environment. Accordingly, we re-evaluated our security posture in 
Sana'a and determined that our Embassy could no longer operate 
normally, and the risks to our personnel were too great.
    The Department of State, in concert with the Department of Defense, 
had developed specific plans for an additional drawdown of personnel in 
November 2014 and further refined those plans as the situation evolved 
on the ground. When the Embassy temporarily suspended operations on 
February 10, 2015 we successfully moved all our personnel to Sana'a 
International Airport without incident. The relocation from Yemen was 
conducted safely, swiftly, and most importantly without loss of life, 
by highly skilled and experienced personnel. The Department is able to 
manage risk by balancing threats, applying appropriate mitigating 
measures, and implementing quality security programs.
    Although we have temporarily relocated out of Sana'a, we remain 
engaged with interlocutors in Yemen and the international community to 
advance U.S. policy objectives, including counterterrorism. Since the 
suspension of operations at Embassy Sana'a, Ambassador Mathew Tueller 
has made two trips to Aden to meet with President Hadi, has met with 
him recently in Riyadh, and is based in the region to facilitate 
continued engagement as circumstances permit. We continue to monitor 
threats emanating from Yemen and we believe we have the resources and 
capabilities postured in the area to address them. We remain committed 
to ensuring the safe and effective conduct of foreign policy. When the 
political and security situation has stabilized, such that there is no 
longer a risk of prolonged and severe civil disorder , and the host 
government demonstrates a vested interest in maintaining the safety and 
security all U.S. personnel and facilities, a return to the country 
will be actively considered.
    Question. Which countries have endorsed Russian aggression in 
Ukraine, and should the U.S. consider withholding bilateral assistance 
to those countries?
    Answer. There have been no public endorsements by any countries of 
Russian intervention in eastern Ukraine. Similarly, no country has 
recognized the self-proclaimed Donetsk People's Republic (DPR) or the 
Luhansk People's Republic (LPR). In fact, many nations criticized the 
so-called DPR/LPR separatist elections on November 2, 2014, as 
illegitimate. Russia, however, stated that it would recognize the 
results of the separatist ``elections,'' as the voting supposedly 
expressed the legitimate will of the residents in the Luhansk and 
Donetsk oblasts.
    The State Department is currently reviewing whether any countries 
have endorsed or otherwise supported the purported annexation of Crimea 
by the Russian Federation. Should it be determined that the central 
government of any country has endorsed Russian aggression in Ukraine, 
we would consider whether withholding bilateral assistance would be 
appropriate or necessary.
    The United States does not recognize and will not accept Russia's 
occupation and attempted annexation of Crimea. U.S. sanctions enacted 
against Russia for its occupation and attempted annexation of Crimea 
will remain in place until Russia ends its occupation and restores 
Ukrainian sovereignty over Crimea.
    Question. When do you anticipate the U.S. Interest Section in 
Havana transforming into a U.S. Embassy, and how will staffing 
requirements change with this diplomatic upgrade? Please describe the 
process for upgrading the mission.
    Answer. The Department is working with the Government of Cuba to 
re-establish diplomatic relations and take the steps necessary to 
convert the interests sections in Havana and Washington into embassies.
    We expect that the costs of this change in status for the U.S. 
Interests Section (USINT) in Havana will be minimal for the remainder 
of fiscal year 2015, and will be absorbed within resources available to 
the Bureau of Western Hemisphere Affairs. As with other embassies 
around the world, it will be staffed and operated as leanly as 
possible. We do not foresee changes to staffing during fiscal year 
2015, in part because the building that houses USINT does not allow for 
an immediate increase to staffing. We are evaluating physical 
modifications that could be made to accommodate additional personnel in 
the future as the Embassy expands engagement with the Cuban people and 
Government.
    The process for upgrading the mission from an interests section to 
an Embassy would likely involve several steps. Both governments must 
first agree to re-establish diplomatic relations and permanent 
diplomatic missions. Next, our mission would send a diplomatic note to 
the Cuban Government accrediting our staff to our new Embassy under the 
Vienna Convention on Diplomatic Relations. We would also send separate 
diplomatic notes proposing the termination of the Interests Section 
Agreement with the Government of Cuba and notifying the Swiss that they 
no longer need to serve as the U.S. protecting power in Cuba. Once 
these steps are completed, the interests section would officially be 
changed to an Embassy.
    Question. Did the Department of State or other administration 
representatives meet with any Cuban human rights activists before 
announcing their change in policy? If so, please provide details. To 
what extent were the views of such activists considered in the crafting 
of the President's new policy of engagement?
    Answer. The President has met with representatives of Cuba's 
independent civil society, and senior officials from the State 
Department and National Security Council Staff meet with them when they 
are traveling through Washington DC. In addition, Department officials 
and the U.S. Interests Section in Havana regularly meet with them on 
the island. We were well aware of their views and priorities and took 
them into account in formulating our new policy approach. We did not 
share with them the specifics of our intentions to change our policy 
approach. We will continue to consult with independent Cuban civil 
society to hear their views and plans for future activities, and we 
have urged other countries to do the same.
    The continued promotion of universal human rights and the 
empowerment of all Cubans is the bedrock of our new approach toward 
Cuba. We have no illusions the Cuban Government will change its 
behavior simply because of our new policy approach, but we are now 
better positioned to press the Cuban Government for real change. We 
support the key points around which Cuban civil society groups have 
rallied, including Cuban ratification and compliance with various U.N. 
human rights treaties; legal recognition of independent civil society; 
implementation of constitutional and legal reforms to ensure full 
respect for labor rights, freedoms of expression, association, peaceful 
assembly, and to allow for free elections; the release of prisoners 
arrested for political reasons; and an end to government-sponsored 
harassment of independent civil society.
    We will continue to urge respect for democratic principles as well 
as human rights and fundamental freedoms in our discussions with the 
Cuban Government.
    Question. Did the State Department or other administration 
officials meet with any business interests before announcing the 
change? If so, please provide details. To what extent were the views of 
such business interests considered in the crafting of the President's 
new policy of engagement?
    Answer. The State Department and other U.S. agencies frequently 
engage with the U.S. private sector about U.S. policy and sanctions, 
and meet with a broad range of interests as a matter of course. The 
Department of Treasury and Commerce's January 16, 2015, amendments to 
Cuba sanctions regulations, to which the State Department provided 
substantial foreign policy guidance, were aimed at increasing people-
to-people contact, further supporting civil society in Cuba, and 
further enhancing the free flow of information to, from, and among the 
Cuban people. In implementing this policy, U.S. agencies were mindful 
of the perspectives of all stakeholders, including the U.S. private 
sector, regarding how regulatory amendments could most effectively 
further these policy goals. For example, engagement with U.S. 
telecommunications companies was helpful in identifying how regulatory 
changes could support increased access to information by the Cuban 
people. We, along with our colleagues at relevant U.S. agencies, 
continue outreach to inform U.S. business interests of these most 
recent changes and to respond to questions.
    Question. Yes or no: Do you commit to keeping all relevant 
congressional committees informed of engagement with the Cuban 
Government going forward?
    Answer. Yes.
    Question. What specific reforms of the World Health Organization 
(WHO) have the administration and other governments considered (or are 
actively pursuing) in the wake of the Ebola outbreak?
    Answer. The World Health Organization is the critical global public 
health agency that cooperates with 194 member states and technical 
partners across the spectrum of public health issues such as the 
International Health Regulations and their implementation and related 
surveillance, preparedness, and response to emergencies and outbreaks. 
The WHO has been a key player in international efforts to drive the 
number of Ebola cases to zero, and has worked consistently over the 
years to finish the job globally on polio eradication. In addition to 
its life-saving operational activities, the WHO performs key normative 
functions, such as setting quality and safety regulatory standards in 
the food and drug sectors, and addressing health system effectiveness.
    Currently the WHO is at full capacity in their operations in West 
Africa, with over 700 people on the ground dealing with the 
epidemiology of the outbreak, laboratory capacity, case management, 
contact tracing, running the U.N. medevac system, and working with 
partners on social mobilization.
    In addressing the valid criticisms of the WHO early response 
efforts in the Ebola outbreak, WHO Director-General Margaret Chan 
undertook a course correction with changes to the structure of the 
response, including personnel changes, to mobilize fully the capacity 
of the WHO. She also called for the WHO Executive Board to hold a 
Special Session on Ebola (held January 25, 2015). The United States 
partnered with South Africa and championed a resolution, ``Ebola: 
ending the current outbreak, strengthening global preparedness,'' which 
called for measures to both address the immediate Ebola outbreak and to 
set in motion additional reform measures. This resolution, and the 
accompanying actions, had broad member state support and will make 
critical changes in the emergency response capacity so that the 
Organization will be able to respond with immediate effectiveness in a 
future complex major emergency or disease outbreak.
    Immediately following the Special Session, WHO Director-General 
Chan appointed a Special Representative for the Ebola Response for the 
duration of the outbreak. WHO is taking the reforms adopted at the 
Special Session seriously, with work underway to further improve the 
Organization's functions by the annual World Health Assembly in May. At 
that time, the WHO will report on an interim assessment by experts on 
all aspects of the WHO response, the proposed development of a global 
public health emergency workforce for rapid deployment in the event of 
a public health emergency, strengthened command and control functions 
at the WHO for emergencies and outbreaks, and improved human resource 
policies related to the functioning of the Organization across its 
three levels.
    The United States has been a driving force behind an on-going 
reform agenda at the WHO underway since 2011. Reforms have proceeded on 
four fronts: priority-setting, managerial reforms, governance reforms, 
and financing. Member states agreed on streamlined priority setting 
processes and a 6-year overall strategy. Management reforms have 
encompassed administration, oversight and ethics, and the U.S. has 
worked closely with the Organization on human resource reforms to set 
in place more flexible contracts, streamlined recruitment processes, 
and changes to the workforce model. Some governance processes have 
improved with more work underway, and reforms have been implemented to 
improve financing.
    Question. What is the justification for the fiscal year 2016 budget 
request that cuts funding for refugees and disaster assistance below 
levels provide by Congress in fiscal year 2015 (under Migration and 
Refugee Assistance and International Disaster Assistance, 
respectively)?
    Answer. The administration remains dedicated to providing strong 
support for humanitarian programs worldwide. The President's fiscal 
year 2016 request reflects the administration's strong commitment to 
these programs, while taking into account the current constrained 
budget environment. The fiscal year 2016 request includes $2.453 
billion for the Migration Refugee Assistance and $1.741 billion for the 
International Disaster Assistance (IDA) account. In addition, the 
Department is requesting $50 million in the Emergency Refugee and 
Migration Assistance (ERMA) account to respond to urgent and unforeseen 
needs.
    Overall, this request represents a nearly $850 million increase 
from the President's fiscal year 2015 request in response to the dire 
humanitarian situation resulting from the conflicts in Syria, South 
Sudan, Iraq, and Central African Republic, among others. The Department 
of State and the United States Agency for International Development 
also plan to carry over approximately $500 million in fiscal year 2015 
funding into fiscal year 2016 in order to support humanitarian aid 
programs. However, should the need for additional funding from the U.S. 
Government this year exceed our current plans, the administration would 
tap the planned carryover funding to address them.
    With the request and planned carryover, we anticipate having the 
funds necessary to support robust U.S. Government support for 
humanitarian aid programs in in fiscal year 2015 and fiscal year 2016.
    Question. How does the fiscal year 2016 budget request address or 
mitigate the growing global influence of the People's Republic of 
China, particularly in Africa?
    Answer. Foreign investment is essential to Africa's economic 
development, and there is room for both the United States and China to 
engage in public and private investment opportunities. The United 
States offers a compelling narrative for Africa. Our firms introduce 
international best practices, export top-quality products, provide 
employment opportunities, and promote economic growth in Africa, while 
also generating benefits for the U.S. economy.
    China will continue to seek an expanding role in Africa and 
elsewhere around the world, and we must maintain our engagement with 
China in this regard.
    The United States welcomes Chinese engagement in Africa that is 
consistent with international labor and environmental standards, 
promotes transparency, good governance, and sustainable development, 
and maintains a level playing field for all companies. The United 
States will continue to press China to not undermine local and 
international efforts to promote healthy competition, good governance, 
transparency, and responsible natural resource management in Africa and 
elsewhere.
    We believe that Chinese efforts to build infrastructure and enable 
economic growth are generally consistent with our promotion of economic 
development in the region. The United States has strong relationships 
with many African partners, and we are identifying opportunities to 
collaborate with these partners and with China, including through 
international institutions, towards common goals that also contribute 
to our broader regional and global priorities.
               international monetary fund quota reforms
    Question. How will failure by the Congress to implement the 
International Monetary Fund (IMF) governance and quota reforms included 
in the President's request impact the United States?
    Answer. U.S. hesitation on IMF reform diminishes our capacity to 
influence the international development financing landscape and will 
ultimately affect the IMF's ability to respond to geopolitical and 
economic crises in a way that serves our vital national interests. 
Giving important developing economies a greater vote in the IMF would 
preserve the integrity of the existing international financial 
infrastructure without increasing U.S. monetary commitments or 
endangering the U.S. veto over important IMF decisions.
    Despite the fact that the United States championed the 2010 IMF 
quota and governance reforms, we are now the only major IMF member 
country that has not yet ratified them. The U.S. failure to ratify IMF 
reforms is generating criticism abroad and eroding our credibility in 
the G-20, with emerging economies, and with international financial 
institutions. At the 2014 World Bank/IMF spring and fall meetings, an 
increasing number of countries called for moving forward on IMF quota 
and governance reforms without the United States. The November G-20 
Brisbane Summit Joint Communique stated that the G-20 will begin to 
engage the IMF in 2015 to discuss how to advance the reform process if 
the United States fails to ratify the proposed reforms by the end of 
2014. It is unclear, however, how IMF members would advance reforms 
without the United States, and no details have been presented.
    Our inaction may also have helped fuel momentum for alternative 
institutions that have not yet committed to the international best 
practices that protect global financial stability. Since October 2014, 
28 countries, including the United Kingdom most recently, have joined 
the Chinese-led Asian Infrastructure Investment Bank (AIIB), despite 
our oft-stated concerns regarding its governance structure and 
outstanding questions about its commitment to adhere to international 
best standards on lending. We acknowledge the need for additional 
multilateral financing for global development but are concerned that 
the new institutions are not yet sufficiently committed to maintaining 
accepted high standards on governance, environmental and social 
safeguards, procurement, and debt sustainability. Institutions that do 
not incorporate these standards can undermine development priorities 
and create financial crisis vulnerabilities through irresponsible or 
politically motivated lending.
    Question. What is the policy of the United States regarding 
military-to-military engagement with Burma?
    Answer. During his November visit to Burma, President Obama stated 
clearly that the United States would not expand our engagement with the 
Burmese military in 2015. In keeping with the President's direction, 
the Departments of Defense (DOD) and State will continue to engage with 
the Burmese military as it has since 2012: in a limited and calibrated 
manner intended to promote reform and to help ensure the country's most 
powerful institution remains engaged in Burma's reform process.
    In 2015, engagement with the Burmese military will continue to 
promote the ideals and values of a professional military in a 
democracy, including accountability, civilian control, rule of law, and 
respect for international humanitarian and international human rights 
law. In limited circumstances, consistent with past practices, members 
of Burma's civilian government and armed forces may attend classes or 
observer activities designed to help the country respond to 
humanitarian crises or disasters. Additionally, we anticipate 
interactions with the Burmese military on the margins of multilateral 
fora (e.g. ASEAN) where senior U.S. officials deliver messages 
supportive of continued reform to their Burmese counterparts.
    We will provide no operational training, field training, weapons, 
materiel, or other technologies to any of Burma's armed forces. In 
moving forward we will continue to consult broadly with civil society 
organizations, ethnic groups, political party leaders, and other 
stakeholders in evaluating the impact and appropriateness of our 
planned activities.
    The administration continues to believe that the United States can 
promote positive changes and professionalism within the Burmese 
military more effectively through tailored bilateral interactions than 
through disengagement, especially given Burma's traditional reliance on 
China, Russia, and North Korea as defense partners. However, we have 
repeatedly notified Burmese military representatives that before the 
United States will consider moving beyond our current level of 
engagement, the Burmese military and the Government of Burma must take 
further steps to demonstrate concretely its commitment to democratic 
reform, national reconciliation with ethnic groups and religious 
minorities, adherence to international human rights standards, and 
ending all defense sales ties with North Korea in accordance with U.N. 
Security Council resolutions.
    Question. How do you assess prospects for free and fair elections 
in Burma, and do you share growing concerns within Burmese civil 
society and democracy leader Aung San Suu Kyi that the military will 
interfere in the conduct of these elections--as they have done in the 
past?
    Answer. President Thein Sein publicly announced that Burma's 
general election will take place in November 2015. We welcome the 
Burmese Government's confirmation that the election will happen in a 
timely manner. The credibility of Burma's 2015 election is of utmost 
importance to the development of Burma's democratic institutions and 
will serve as a critical marker in Burma's reform process. It is 
essential that the election be credible, inclusive, and transparent and 
allows the people of Burma to freely choose their leaders.
    Democracy is not a 1-day event, but a long-term process, and the 
United States will support Burma's democratic reforms before, during, 
and after these elections. U.S. assistance is intended to strengthen 
Burma's democratic institutions, and build capacity among all key 
stakeholders. The U.S. Government is providing more than $18 million in 
assistance to strengthen the country's political institutions that are 
key to democratic governance and support civil society, political 
parties, the media, and government to conduct inclusive, transparent, 
and credible elections in 2015.
    At the same time, the U.S. Government has publicly and privately 
encouraged constitutional reforms to decrease the role of active-duty 
military in the political structure and pave the way for the Burmese to 
freely choose their President in a free and fair 2015 election. 
President Obama strongly advocated for constitutional reform during his 
trip to Burma in November, consistent with previous U.S. Government 
statements on the issue. The government and military have repeatedly 
stated they would follow the ``people's will'' when considering 
constitutional amendments.
    Opposition leaders have long called for high-level talks to forge 
stakeholder consensus on the country's political and economic reform 
strategy and Aung San Suu Kyi continues to engage the military and the 
Union Solidarity and Development Party (USDP) on these issues. On March 
2, she held a fifth round of talks with President Thein Sein and 
reportedly discussed the elections and possible amendments to the 
constitution.
    Question. The Government of Burma (GoB) broke a 17-year cease fire 
with the Kachins in June 2011. Since then there has been increased 
attacks by the Tatmadaw on the Kachins. Further, there has been no 
sustained delivered of humanitarian assistance to the nearly 100,000 
IDPs pressed up against China's border. The ``Peace Process'' appears 
to be more about process and less about peace: what is your assessment 
of the peace process?
    Answer. The seventh round of formal negotiations towards achieving 
a Nationwide Ceasefire Agreement (NCA) will resume on March 16-21 in 
Rangoon. Both the GoB and the ethnic armed groups have expressed their 
desire to make progress in these talks and maintain momentum.
    The discussions will focus on recent fighting in Kachin and Shan 
states and seek to formalize the text of the NCA. The unresolved 
military aspects of the agreement, such as a ceasefire code of conduct, 
the post-ceasefire repositioning of troops, and the establishment of a 
joint-monitoring mechanism, will be crucial for the success of the 
negotiations.
    A ceasefire agreement would be an important milestone. However, it 
would not conclude the reconciliation process but rather serve as the 
beginning of an inclusive and transparent political dialogue essential 
to the creation of a lasting peace. Furthermore, the NCA would not end 
all conflict in the country as some armed ethnic groups are not part of 
the formal negotiations and would not be able to sign the agreement.
    We continue to encourage the GoB and ethnic groups to maintain 
their commitment to dialogue as the only path to genuine and lasting 
peace, stability, and development in Burma. We remain in close contact 
with humanitarian actors in the area to ensure that the needs of the 
conflict-affected communities can be met quickly and safely. We 
continue to urge national and local government authorities to permit 
immediate and unfettered humanitarian access to provide life-saving 
assistance to these populations in need. We have appealed to all sides 
to exercise restraint and ensure the full protection of civilians and 
humanitarian staff in accordance with international humanitarian 
standards.
    Question. The situation in Rakhine State toward the Rohingya Muslim 
population remains appalling, and they live in an apartheid-like 
situation. The GoB said they would issue ``white-cards'' which could 
have been a pathway to citizenship, but shortly thereafter the 
government rescinded the offer.
    What measures are being taken by the administration and our allies 
to address Rohingya citizenship, to protect their human rights, and 
provide humanitarian assistance to affected communities and 
individuals?
    Answer. Given the dire humanitarian and human rights situation in 
Rakhine State and significant concerns raised by the international 
community, we consistently press the Government of Burma to pursue 
durable solutions to these problems, including developing a path to 
citizenship for members of the Rohingya population and taking steps to 
end systemic racially- and religiously-motivated discrimination. The 
Government of Burma invalidated the ``white cards'' on March 31, 2015, 
but there is not yet evidence of an alternative path to citizenship or 
legal residency status. While not a direct path to citizenship, the 
white cards, provided holders with temporary legal status, access to 
some social services, and allowed them to vote in previous elections 
and the constitutional referendum. The steps taken by the Burmese 
Government that deny the rights of persons who have lived in Burma for 
generations belie the Burmese Government's commitments to 
reconciliation, equal protection for all under domestic laws and 
international standards, and inclusive national elections in 2015.
    The resolution of these issues is a critical element in Burma's 
transition to a stable, more inclusive democracy. The U.S. Government 
is applying diplomatic pressure to encourage the Government of Burma to 
uphold its international human rights obligations; ensure the 
accountability of security forces and other perpetrators of abuses in 
northern Rakhine State; and provide a path to full citizenship for the 
Rohingya population. Embassy Rangoon and visiting senior U.S. officials 
have regularly raised these issues with the government, including Under 
Secretary for Political Affairs Wendy R. Sherman; Under Secretary for 
Civilian Security, Democracy, and Human Rights Sarah Sewall; Assistant 
Secretary of State for Democracy, Human Rights and Labor Tom 
Malinowski; Assistant Secretary of State for East Asian and Pacific 
Affairs Daniel Russel; and Assistant Secretary of State for Population, 
Refugees, and Migration Anne Richard.
    During his November 2014 visit, President Obama raised concerns 
about the Rohingya in his meeting with President Thein Sein, including 
issues related to their citizenship, discrimination against them, and 
restrictions on their ability to travel. U.S. officials, and our 
allies, have also urged the government to ensure that actions intended 
to maintain or restore security and stability in the area are carried 
out in a way that do not violate human rights and that those 
responsible for violence are held accountable.
    During the second U.S.-Burma Human Rights Dialogue in January 
2015--led by Assistant Secretary Malinowski and joined by Assistant 
Secretary Richard--the Burmese Government acknowledged the importance 
of implementing a comprehensive, transparent, and inclusive 
reconciliation process in Rakhine State. The Government of Burma and 
the United States agreed that this process should prioritize equal 
protection for all under domestic laws and international standards and 
unfettered humanitarian access to all vulnerable populations. The 
United States also welcomed the Government of Burma's commitment to 
hold credible, transparent, and inclusive parliamentary elections in 
2015. However, the Government of Burma's more recent actions run 
counter to these commitments.
    As a result of our regular communication with our allies on these 
issues, a strongly-worded resolution was passed at the Human Rights 
Council last month, which renewed the mandate of the Special Rapporteur 
for Myanmar/Burma.
    Since fiscal year 2013, the U.S. Government, including the United 
States Agency for International Development (USAID) and the State 
Department's Bureau of Population, Refugees, and Migration, has 
provided nearly $152 million in life-saving humanitarian assistance to 
internally displaced persons, refugees, and asylum seekers, including 
the Rohingya, in Burma and in the region. This funding provides health 
and medical care, nutrition and food security, water, sanitation and 
hygiene, shelter, non-food items, and services for people with 
disabilities. Other activities include support for intra-faith 
dialogue, where religious leaders exchange views and perspectives on 
the role of religion in politics and an open society; training on 
tolerance and diversity; and programs with interfaith speakers to help 
local interfaith groups develop advocacy strategies. U.S. assistance 
also furnishes local civil society networks with resources to monitor 
and mitigate the potential for intercommunal conflict and violence. The 
assistance also supports small-scale activities to develop economic 
linkages and joint marketplaces for Rakhine and Rohingya communities.
    The U.S. Government also regularly engages the broader 
international community, including the U.N., international non-
governmental organizations, human rights and civil society 
organizations, and the diplomatic corps to coordinate humanitarian 
response efforts. This coordination is accomplished by participating in 
monthly Chiefs of Mission roundtables in Rakhine State, bi-weekly 
diplomatic corps working group meetings, and regular donor and 
humanitarian coordination meetings. U.S. Government officials also 
consult with community leaders and civil society from Rakhine and 
Rohingya communities to understand their perspectives, monitor the risk 
of violence, encourage peaceful resolution of conflict, and communicate 
U.S. policy and support.
    Question. In January, the Buddhist-nationalist monk U Wirathu 
called the U.N. Special Rapporteur for Human Rights in Burma Yanghee 
Lee, a ``bitch . . . whore'' for upholding the rights of the Rohingyas 
to ``self-identify'' in accordance with international human rights law. 
Further, the Burmese Ministry of Foreign Affairs (MoFA) issued a press 
release on February 3, 2015 which rebuked Ms. Lee for interfering in 
the internal affairs of Burma, which was clearly an attempt to 
intimidate her and diminish her mandate.
    The remarks engendered a swift and apt reply from U.N. High 
Commissioner for Human Rights Zeid Ra'ad Al Hussein. The U.N. Secretary 
General (UNSG) apparently did not comment or respond.
    Has the Department of State discussed U Wirathu's disgraceful 
comments and the MoFA press release with the UNSG, and what messages 
have been sent to the GoB by the UNSG?
    Answer. We support Special Rapporteur Yanghee Lee for her work and 
her reporting on Burma human rights over the past year. We condemn the 
misogynistic attack against her. We have not discussed this issue with 
the U.N. Secretary-General, and are not aware of any messages that the 
Secretary General sent to the Government of Burma.
    Question. Has the Department of State discussed the comments and 
press release with the GoB's Ambassador to the U.N.?
    Answer. We have not discussed the comments and press release with 
Burma's Ambassador to the U.N. The U.S. Embassy in Rangoon expressed 
concern to the Ministry of Foreign Affairs and to an advisor to the 
President's office regarding Wirathu's comments.
    Question. Congress recommended $2.9 billion for democracy and 
governance programs in fiscal year 2014, yet the administration 
provided only $1.9 billion for such programs.
    How do you explain the reduction in democracy and governance 
programs in fiscal year 2014--does this demonstrate the lack of 
commitment to democracy and governance abroad by this administration?
    Answer. Democracy, human rights, and governance (DRG) programs 
abroad remain a significant priority for this administration. This 
commitment is strongly reflected in the President's budget for fiscal 
year 2016, which requests $2.9 billion in foreign assistance for DRG 
programs, the same as the fiscal year 2014 request, including increases 
for critical programs in Africa and Central America to foster good 
governance and fight corruption, strengthen the rule of law, and 
promote civil society.
    For fiscal year 2014, the Department of State and USAID requested 
$2.9 billion to promote and support DRG programs around the world. The 
fiscal year 2014 appropriation reduced funding for the key foreign 
assistance accounts that support DRG programs, which made it difficult 
to fully fund DRG programs included within the President's request. The 
fiscal year 2014 allocations balanced numerous foreign policy 
priorities, including DRG programs, while ensuring we had met statutory 
congressional sector directives included within the bill. After 
reviewing worldwide needs and congressional directives, nearly $2.0 
billion was allocated to DRG programs in fiscal year 2014, resulting in 
a reduction of almost $1.0 billion in global DRG activities as compared 
to the President's request.
    Question. How important are democracy and governance programs to 
combating disease outbreaks like Ebola or the influence of Islamic 
extremists?
    Answer. Democratic processes and strong governance institutions are 
critical in times of crisis such as the 2014 Ebola epidemic in West 
Africa. Strong governance is essential to ensuring the successful 
management of disease outbreaks and other crises. Also, democratic 
systems and good governance contribute to the ensuring the trust of the 
public--a key factor in crisis response. We learned from the Ebola 
epidemic that community cooperation is a vital component of social 
mobilization. Programs that address these issues will be an important 
part of long-term recovery.
    The Ebola response was hampered by instances of poor governance, 
weak institutions, and corruption. The healthcare systems were quickly 
overwhelmed and quickly collapsed in the face of the Ebola virus and 
the initial emergency response was poorly executed. We are also aware 
that a few government officials tried to use the influx of assistance 
for their own financial advantage. The United States and other donors 
have made it clear that corruption will not be tolerated and the Ebola 
response and recovery funds must be used transparently and with great 
accountability. We have conveyed that it is no longer business as 
usual. The Ebola epidemic, and similar crises, have impressed the need 
to change the culture of corruption. We have clearly communicated the 
message at all levels of government, and intend to support that message 
with programs that build domestic capacity. We have been assured by our 
U.S. Ambassadors in the affected countries that the funds delivered for 
the Ebola response have been handled appropriately.
    A major challenge during the Ebola response was mistrust in 
government, which led some communities to resist Ebola outreach teams. 
It is critical that governments build that trust with communities going 
forward through transparent and equitable delivery of services, free 
and fair elections, good governance, improved citizen access to and 
participation in decisionmaking, and holding officials accountable. 
Programming in the Emergency funding request is intended to develop 
efforts to strengthen the infrastructure and operation of healthcare 
systems and the regulatory environment. In addition to the ``hardware'' 
of the infrastructure, funding will also be used to ensure that 
necessary personnel are well-trained and prepared.
    The fiscal year 2016 request includes funds for the three impacted 
countries that will build upon the support provided by the emergency 
Ebola funding fiscal year 2015 appropriation to the Department of State 
and USAID. With these fiscal year 2015 and fiscal year 2016 funds, 
USAID is supporting economic, social, and governance programs in Ebola-
affected countries to address the potentially sharp increase in extreme 
poverty and other second-order impacts, including damage to the 
livelihoods of vulnerable households in Liberia.
    Question. Over the past several years, the Government 
Accountability Office has made numerous recommendations to help improve 
the effectiveness and efficiency of State Department programs and 
activities. While State has taken action on a number of these 
recommendations, according to GAO there are more than 150 GAO 
recommendations since 2011 that State has not yet addressed.
    What actions will you take over the next year to address GAO's 
recommendations?
    Answer. We value the recommendations resulting from the work of the 
GAO as they identify ways to improve our programs and operations. In 
fiscal year 2014 alone, State had approximately 75 engagements with the 
GAO. It is our long-standing commitment to complete action on 
recommendations in an expeditious manner. Some recommendations, 
however, can take a number of years to implement completely. In 
addition, there are no State specific areas on GAO's 2015 High Risk 
List. State has a collaborative and robust liaison relationship with 
GAO and will continue to provide GAO with regular updates as we follow-
up together to assure that recommendations are closed as quickly as 
possible.
    Question. The fiscal year 2016 budget request includes a request to 
use Economic Support Funds (ESF) for ``programs to support initiatives 
relating to North Korea that are in the national interests of the 
United States, notwithstanding any other provision of law''.
    What programs does the administration anticipate for North Korea 
that would require use for this broad authority?
    What are the impacts and how does sequestration impede the conduct 
of diplomacy?
    Answer. The President's fiscal year 2016 budget request seeks 
authority to use Economic Support Funds (ESF) for ``programs to support 
initiatives relating to North Korea (DPRK) that are in the national 
interests of the United States, notwithstanding any other provision of 
law.'' The fiscal year 2016 request does not seek any bilateral foreign 
assistance funding for the Democratic People's Republic of Korea (DPRK) 
and we currently have no plans to fund bilateral programs using ESF. In 
past years, the President has requested that the funds appropriated 
under ESF may be made available for programs to support the goals of 
the Six Party Talks, including nuclear security initiatives relating to 
North Korea, notwithstanding any other provision of law. Given the 
significant restrictions on assistance to North Korea, this authority 
is needed to provide flexibility to support our diplomatic efforts if 
we ever do enter into active talks.
    Sequestration is an arbitrary across-the-board cut that reduces our 
flexibility everywhere, including potentially with respects to our 
efforts on the DPRK, and would therefore make the job of diplomacy 
harder than it already is.
    Question. (a) Have you abandoned efforts to persuade Iran to 
dismantle the majority of its nuclear infrastructure? If Iran maintains 
most of its infrastructure--even under severe constraints and under a 
serious inspection regime--doesn't that allow for a quick breakout 
either during the time of the agreement or after the agreement expires?
    (b) If Iran maintains thousands of centrifuges and an operational 
heavy water reactor, aren't they a nuclear threshold state?
    (c) You have said that Iran must address its past weaponization 
efforts before any agreement is signed. Yet it has consistently refused 
to do so. What must Iran do to at a minimum on this in order for an 
agreement to be finalized?
    (d) Given Iran's history of cheating on its international 
commitments, will anything other than anytime, anywhere inspections 
give you comfort that Iran is living up to its commitments? Will 
specific penalties be delineated for not living up to those 
commitments?
    (e) You have said you will not support any further extensions of 
the talks if there is no conceptual agreement by March 24. Does that 
remain your position under any circumstances?
    Answer. (a) Fully dismantling Iran's nuclear program would not 
completely eliminate its ability to breakout. Iran has already 
sufficiently mastered significant parts of the nuclear fuel cycle after 
decades of developing its program. Even if Iran's program were razed to 
the ground, it would retain the ability to breakout within a few years. 
So we cannot completely and permanently eliminate its ability to 
breakout, but we can severely restrain it by putting in place strict 
constraints and intrusive monitoring measures. We are seeking a 
comprehensive deal that would give us expansive access into and 
oversight of all aspects of the nuclear fuel cycle, which would allow 
us to detect any attempts to breakout overtly or covertly. Key elements 
of this transparency regime, including implementation of the Additional 
Protocol, would continue in place even after the end of a deal.
    (b) There are many variables related to extending the breakout time 
of the uranium pathway, including the number and types of centrifuges 
Iran is able to use and the size of its stockpile of enriched uranium. 
We are also determined to ensure that Iran cannot acquire plutonium for 
a nuclear weapon from the Arak heavy water research reactor. Cutting 
off all of these pathways will involve a variety of constraints and 
extensive monitoring measures. It will be critical to find the right 
combination of measures to ensure Iran cannot acquire a nuclear weapon 
through either the uranium or the plutonium path. Both of these 
elements remain under negotiation, but in the end, we must be assured 
that Iran cannot breakout by producing weapons grade uranium or 
plutonium.
    (c) We are pressing Iran to cooperate fully with the International 
Atomic Energy Agency (IAEA) to address all outstanding issues, 
particularly those that give rise to concerns regarding the possible 
military dimensions (PMD) of Iran's nuclear program. This includes 
providing access to facilities, individuals, and documents requested by 
the IAEA. This is one of the issues we are working to resolve in the 
negotiations. We believe a comprehensive deal should facilitate the 
IAEA's investigation of PMD and ensure there are no ongoing 
weaponization activities.
    (d) A comprehensive deal must ensure that Iran is subject to 
significantly enhanced transparency and monitoring measures to verify 
the exclusively peaceful nature of its nuclear program and to quickly 
detect any attempts by Iran to break out. We continue to place a high 
priority on strict monitoring measures in order to detect violations 
promptly and retain an ability to snap sanctions back in place should 
violations occur. How exactly that framework would look is still under 
negotiation. Our team continues to work toward a package that will best 
achieve our goals of preventing Iran from acquiring a nuclear weapon 
and ensuring that Iran's nuclear program is used for exclusively 
peaceful purposes.
    (e) We evaluate major national security decisions against national 
interests. We strongly believe that the Joint Plan of Action (JPOA) has 
significantly advanced U.S. national security interests by halting and 
rolling back Iran's nuclear program in key ways. Without the JPOA, Iran 
would be enriching to 20 percent uranium and continuously increasing 
its stockpile of uranium to dangerous levels. We will not take a bad 
deal. And if we conclude that Iran is unable or unwilling to take the 
necessary steps to resolve our concerns, we will walk away from these 
negotiations.
    Question. Deputy Secretary Blinken testified last month before the 
Senate Foreign Relations Committee and said during the JPOA there were 
situations that ``we believe were violations of the JPOA.''
    Can you elaborate on those violations? When the violations were 
identified, was anyone in Congress notified?
    What does it say about Iranian intentions for a long-term agreement 
if they are already violating the interim agreement? How will 
violations we dealt with in a long-term agreement?
    How long did it take for the U.S. to identify a violation had 
occurred, and for Iran to stop the violation? Might there be other 
violations that we are not aware of?
    Answer. The International Atomic Energy Agency (IAEA) continues to 
verify Iran's fulfillment of its nuclear-related commitments under the 
Joint Plan of Action (JPOA). Part of the reason why the JPOA has been 
so effective is that it has provided a framework and a mechanism for 
all sides to raise questions and resolve issues when they arise. When 
we had questions about activities related to the IR-5 centrifuge, we 
raised them with Iran as soon as the IAEA reported them, and the issue 
was resolved to our satisfaction. The Iranians have confirmed that they 
will not continue that activity as cited in the IAEA report.
    IAEA access is valuable and gives us insight into what is happening 
on the ground. One of the many benefits of the JPOA is that the IAEA 
has obtained greater access into Iran's nuclear program to verify that 
Iran is meeting its JPOA commitments. As a result of the JPOA, Iran's 
nuclear program is more constrained and transparent than it has been in 
years.
    Question. Mr. Secretary, you worked very hard last year to create a 
conceptual framework for talks between Israel and the Palestinians. 
Unfortunately, Palestinian President Abbas' response to your proposal 
was to form a unity government with Hamas and to leave the negotiating 
table and take his case to the United Nations. He pushed for a one-
sided United Nations Security Council (UNSC) resolution that called for 
a final agreement within 12 months requiring total Israeli withdrawal 
to the pre-1967 lines by 2017. That provocative move was followed by 
signing on to the Rome Statute to join the International Criminal Court 
(ICC).
    What is the U.S. planning to do to try to discourage the ICC from 
instigating a full investigation of Israel which can only politicize 
the ICC and potentially do great damage to Israel?
    Answer. The United States does not consider the Palestinians 
eligible to accede to the Rome Statue of the International Criminal 
Court. The United States has made clear its view that Palestinian 
action in seeking to become a party to the Rome Statute is counter-
productive, will damage the atmosphere with the very people with whom 
the Palestinians ultimately need to make peace, and will do nothing to 
further the aspirations of the Palestinian people for a sovereign and 
independent state. We also made clear that we strongly disagree with 
the ICC Prosecutor's decision to open a preliminary examination.
    The United States continues to oppose actions--by both parties--
that undermine trust and create doubts about their commitment to a 
negotiated peace. Such actions only push the parties further apart.
    Question. Mr. Secretary, you worked very hard last year to create a 
conceptual framework for talks between Israel and the Palestinians. 
Unfortunately, Palestinian President Abbas' response to your proposal 
was to form a unity government with Hamas and to leave the negotiating 
table and take his case to the United Nations. He pushed for a one-
sided United Nations Security Council (UNSC) resolution that called for 
a final agreement within 12 months requiring total Israeli withdrawal 
to the pre-1967 lines by 2017. That provocative move was followed by 
signing on to the Rome Statute to join the International Criminal 
Court.
    How is the U.N. Human Rights Council (HRC) an improvement over its 
discredited predecessor the Commission on Human Rights?
    Answer. The HRC is the only global intergovernmental body that 
exists to promote and defend human rights. It is in the vital interest 
of the U.S. to ensure that international human rights norms and laws 
continue to protect and advance individual freedoms.
    Through its membership on the Human Rights Council (HRC), the 
United States focuses attention on the world's worst human rights 
abusers. We have reached across traditional blocs and geographic 
divides to foster solutions to human rights-related problems, and help 
shine a spotlight on the human rights of members of groups that have 
not received sufficient attention in the past, such as persons with 
disabilities, and those who face reprisals for their testimony to U.N. 
human rights mechanisms.
    Through active U.S. leadership, the Council has authorized 
international mandates to expose and address the human rights 
situations in countries including North Korea, Iran, Syria, Belarus, 
Sudan, and Eritrea. The United States introduced three resolutions 
passed by the Council encouraging reconciliation and accountability in 
Sri Lanka. The United States also has looked for opportunities for the 
Human Rights Council to build the capacity of countries such as Mali, 
Somalia, Tunisia, Yemen, Haiti, and Libya to promote and protect human 
rights.
    The United States drew together a cross-regional group of sponsors 
to create in 2010 the first new Special Rapporteur focused on 
fundamental freedoms in 17 years, the Special Rapporteur on the rights 
to freedom of peaceful assembly and freedom of association. The United 
States also strongly supported the establishment of a mandate to 
monitor and combat discrimination against women in law and practice. We 
collaborated with partners such as the United Kingdom, Turkey and the 
Organization of Islamic Cooperation (OIC) to craft resolution 16/18, 
which encourages member states to take specific actions to promote 
religious tolerance and combat discrimination without infringing on 
freedom of religion or expression. This ended years of divisive debates 
and voted resolutions on the concept of ``defamation of religions.'' We 
took the reins on the mandate for the special rapporteur on freedom of 
expression so as to combat efforts to restrict speech.
    The United States has also encouraged the Council to pursue a range 
of new initiatives to promote and protect specific human rights. For 
example, the U.S. worked with Sweden to secure a landmark resolution 
that underscores that all individuals are entitled to the same human 
rights online as they are offline, and that all governments must 
protect those rights regardless of the medium through which they are 
exercised. Seventy-nine others co-sponsored that resolution.
    While the United States recognizes that the HRC continues to have 
deep flaws, including its one-sided bias against Israel, the 
administration also knows very well how much worse the HRC was when the 
U.S. did not participate. Before the U.S. joined, the Council held five 
special sessions on Israel and over half of all country-specific 
resolutions at the Council focused on Israel. Since the United States 
joined, the Council's focus has dramatically shifted to other urgent 
situations, including Syria, Libya, and Iran.
    We are working to reduce the structural bias and disproportionate 
focus on and bias against Israel. Before the United States joined the 
U.N. Human Rights Council in 2009, more than half of all of the 
country-specific resolutions adopted there were focused on Israel; 
today, we've helped lower that proportion to less than a third. This is 
an inappropriate amount, especially considering the fact that the Human 
Rights Council has still adopted many more resolutions criticizing 
Israel than it has on egregious human rights violators. The United 
States will continue to oppose the unfair and disproportionate focus on 
Israel at the HRC, and will continue to work toward ending it.
    Question. Mr. Secretary, you worked very hard last year to create a 
conceptual framework for talks between Israel and the Palestinians. 
Unfortunately, Palestinian President Abbas' response to your proposal 
was to form a unity government with Hamas and to leave the negotiating 
table and take his case to the United Nations. He pushed for a one-
sided United Nations Security Council (UNSC) resolution that called for 
a final agreement within 12 months requiring total Israeli withdrawal 
to the pre-1967 lines by 2017. That provocative move was followed by 
signing on to the Rome Statute to join the International Criminal 
Court.
    What influence does the United States have to combat discrimination 
against Israel, and to remove ``agenda item VII'' as a permanent agenda 
item?
    Answer. The administration believes the work to improve the Human 
Rights Council will remain unfinished so long as the HRC continues to 
unfairly single out Israel. Israel is the only country with a stand-
alone item on the HRC's agenda. That is why the U.S. has been vocal in 
urging the Council to end its unfair and unacceptable bias.
    U.S. leadership since joining the HRC in 2009 has resulted in 
notable progress in ameliorating the Council's disproportionate focus 
on Israel, although much work remains to be done. Most recently, the 
U.S. worked closely with several other states to garner an invitation 
for Israel to join the Western European and Others regional group 
(WEOG) in Geneva, which will ensure that Israel has the same regional 
group coordinating status at the HRC as other U.N. members.
    Prior to American membership, over half of all of the country-
specific resolutions the HRC adopted concerned Israel. This number has 
been reduced to well under one-third since the United States joined the 
Council. Additionally, the HRC held five special sessions on Israel in 
the 3 years before our membership, whereas only 2 of the 11 special 
sessions called since the U.S. joined the HRC have focused on Israel. 
Since the U.S. joined, the Council has held four special sessions on 
Syria, along with ones on Libya, Cote d'Ivoire, Haiti, ISIL in Iraq, 
and the Central African Republic.
    In the 2011 review of the HRC, the United States pushed strongly to 
remove agenda Item 7, which focuses solely on the Israeli-Palestinian 
issue, although that effort was not successful. The U.S. will continue 
to work to abolish Item 7 and ensure that the HRC stays focused on its 
mission to promote and protect the human rights of persons around the 
world.
    Question. Mr. Secretary, you worked very hard last year to create a 
conceptual framework for talks between Israel and the Palestinians. 
Unfortunately, Palestinian President Abbas' response to your proposal 
was to form a unity government with Hamas and to leave the negotiating 
table and take his case to the United Nations. He pushed for a one-
sided United Nations Security Council (UNSC) resolution that called for 
a final agreement within 12 months requiring total Israeli withdrawal 
to the pre-1967 lines by 2017. That provocative move was followed by 
signing on to the Rome Statute to join the International Criminal 
Court.
    Our Committee included new language in last year's Omnibus 
appropriations bill that would reduce our contribution to the 
Palestinian Authority (PA) by the same amount that the PA provides in 
payments for acts of terrorism by jailed and deceased terrorists. Have 
you examined whether these payments continue to date, and if so, have 
you determined what that reduction will be?
    Answer. As a part of our effort to ensure we are in full compliance 
with relevant legislation, we are gathering and reviewing information 
about payments the Palestinian Authority made to Palestinians in 
Israeli prisons and have not yet made a determination on assistance 
moving forward. In accordance with the legislative provision, prior to 
the obligation of any fiscal year 2015 Economic Support Funds for the 
PA, Congress will receive a report on any reduction that is made 
pursuant to the provision.
    Question. Can you provide an update on where talks with Israel 
stand on a new MOU with Israel?
    Answer. Discussions with Israel are underway on a follow-on FMF 
MOU. The current MOU expires at the end of fiscal year 2018. Teams from 
Israel and the U.S. have met several times after President Obama 
directed his national security team in March 2013 to begin discussions 
with Israel on a new MOU. As we continue these discussions, we are also 
mindful of the mounting fiscal constraints on U.S. foreign assistance 
allocations. Israel's security remains of the utmost importance to this 
administration.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell
    Question. On September 27, 2013, the Department of State reported 
that the Congolese Ministry of Interior and Security, General 
Directorate of Migration had suspended the issuance of exit permits to 
adopted Congolese children seeking to depart the Democratic Republic of 
the Congo with their adoptive parents. According to January 2015 data 
provided by the Department of State, 963 Congolese children who have 
been or are in the process of being adopted by American citizens are 
potentially affected by this exit permit suspension, and it is my 
understanding that approximately 19 of these children have been or are 
in the process of being adopted by Kentucky families. Seventeen months 
after the announcement of the exit permit suspension, what is the 
administration's strategy to resolve this ongoing adoption stalemate?
    In January 2015, the Department of State issued data indicating 
that of the children in the Democratic Republic of the Congo (DRC) who 
have been or are in the process of being adopted by American citizens, 
52 have I-600 forms pending with U.S. Citizenship and Immigration 
Services, 24 have ongoing I-604 reviews with the Department of State, 
and 98 are awaiting the completion of visa interviews and additional 
visa processing by the Department of State. What action is the 
Department of State taking to complete these cases in a timely fashion 
so that legally adopted Congolese children may depart the DRC with 
their adoptive American parents when the adoption exit permit 
suspension in the DRC is lifted?
    Answer: Our strategy in the Democratic Republic of the Congo (DRC) 
has been threefold. First, we have pressed the DRC Government at every 
opportunity and at the very highest levels, including during Secretary 
Kerry's meetings with President Kabila last May and August, to lift the 
suspension immediately for families who have already completed the 
adoption process in good faith under existing Congolese adoption laws. 
Second, we have pressed the DRC Government to consider the issuance of 
exit permits on an expedited basis for those adopted children requiring 
urgent, life-saving medical care abroad. Third, to address Congolese 
concerns about significant flaws in their current system, we have 
offered technical consultations aimed to improve the Congolese 
intercountry adoption process.
    Since the start of the suspension in September 2013, our efforts 
have led to the issuance of exit permits to more than 30 families that 
had completed their adoptions prior to the start of the suspension or 
had children with life-threatening medical conditions that required 
immediate treatment outside of the DRC. However, the list of families 
adopting in the DRC despite the suspension continues to grow, and the 
Department will not cease its efforts until all the families receive 
relief.
    Ambassador Swan and the team at Embassy Kinshasa continue to engage 
regularly on this issue with the DRC Government as well as with the 
families. We are pressing the DRC Government to hold a previously 
promised inter-ministerial meeting to address the adoption suspension, 
including the question of how to manage already completed adoptions 
once new adoption legislation is enacted. Embassy Kinshasa recently 
submitted to the DRC Ministry of Foreign Affairs a list of children 
whose adoptions were final prior to the suspension. The accompanying 
diplomatic note reiterates that our families have already legally 
adopted their children, and that the rigorous process and 
investigations completed by the State Department and the United States 
Citizenship and Immigration Services (USCIS) mitigate any deficiency in 
the DRC system. The note requests that these children receive exit 
permits to join their adoptive families in the United States 
immediately. In December 2014, Special Advisor for Children's Issues, 
Ambassador Susan Jacobs, led a delegation to the DRC to discuss pending 
adoption cases and proposed adoption reforms. Acting Assistant 
Secretary Michele T. Bond will visit Kinshasa March 19 to 21 to discuss 
adoptions with Congolese officials and to meet with waiting adoptive 
parents. The following week, the State Department and USCIS plan to 
send a follow-up technical team to consult on adoption reforms in the 
DRC and to encourage the DRC Government to pass and implement new 
adoption-related legislation. This team will meet with the Ministry of 
Interior and other relevant DRC ministries and press for the immediate 
issuance of exit permits for the children who have already been 
adopted.
    The Department continues to press the DRC Government at every 
opportunity to lift the suspension.
    Consular staffing at Embassy Kinshasa is a high priority for the 
Department. In an effort to meet the challenge of completing our orphan 
review process as expeditiously as possible, the Department of State 
continues to send additional temporary consular personnel to Embassy 
Kinshasa. The Department is already seeing faster completion of orphan 
reviews and will continue to provide additional staffing support to the 
extent warranted by the workload.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
    Question. I have spoken with Ambassador Swan on the issue of 
stalled adoptions from the Democratic Republic of Congo in the past, 
and it's something that is constantly on the minds of families in 
Missouri who are in the process of adopting several of the children 
caught in this tragic situation. As of 2 weeks ago, the State 
Department has said that they have been unable to set up a meeting with 
the Congolese Ministry of the Interior to discuss the adoption 
suspension. What is the State Department's strategy to successfully set 
up this initial meeting and, finally, to end the suspension?
    Answer. Our strategy in the Democratic Republic of the Congo (DRC) 
has been threefold. First, we have pressed the DRC Government at every 
opportunity and at the very highest levels, including during Secretary 
Kerry's meetings with President Kabila last May and August, to lift the 
suspension immediately for families who have already completed the 
adoption process in good faith under existing Congolese adoption laws. 
Second, we have pressed the DRC Government to consider the issuance of 
exit permits on an expedited basis for those adopted children requiring 
urgent, life-saving medical care abroad. Third, to address Congolese 
concerns about significant flaws in their current system, we have 
offered technical consultations aimed to improve the Congolese 
intercountry adoption process.
    Since the start of the suspension in September 2013, our efforts 
have led to the issuance of exit permits to more than 30 families that 
had completed their adoptions prior to the start of the suspension or 
had children with life-threatening medical conditions that required 
immediate treatment outside of the DRC. However, the list of families 
adopting in the DRC despite the suspension continues to grow, and the 
Department will not cease its efforts until all the families receive 
relief.
    Ambassador Swan and the team at Embassy Kinshasa continue to engage 
regularly on this issue with the DRC Government as well as with the 
families. We are pressing the DRC Government to hold a previously 
promised inter-ministerial meeting to address the adoption suspension, 
including the question of how to manage already completed adoptions 
once new adoption legislation is enacted. Embassy Kinshasa recently 
submitted to the DRC Ministry of Foreign Affairs a list of children 
whose adoptions were final prior to the suspension. The accompanying 
diplomatic note reiterates that our families have already legally 
adopted their children, and that the rigorous process and 
investigations completed by the State Department and the United States 
Citizenship and Immigration Services (USCIS) mitigate any deficiency in 
the DRC system. The note requests that these children receive exit 
permits to join their adoptive families in the United States 
immediately. In December 2014, Special Advisor for Children's Issues, 
Ambassador Susan Jacobs, led a delegation to the DRC to discuss pending 
adoption cases and proposed adoption reforms. Acting Assistant 
Secretary Michele T. Bond will visit Kinshasa March 19 to 21 to discuss 
adoptions with Congolese officials and to meet with waiting adoptive 
parents. The following week, the State Department and USCIS plan to 
send a follow-up technical team to consult on adoption reforms in the 
DRC and to encourage the DRC Government to pass and implement new 
adoption-related legislation. This team will meet with the Ministry of 
Interior and other relevant DRC ministries and press for the immediate 
issuance of exit permits for the children who have already been 
adopted. The Department continues to press the DRC Government at every 
opportunity to lift the suspension.
    Question. I have a question regarding the administration's goals 
relating to the Paris Climate Change Conference planned for later in 
2015. You stated in Lima in December that we must take ``giant, 
measurable, clear steps forward that will set us on a new path. And 
that means concrete actions and ambitious commitments.'' Yet it has 
also been reported that State Department negotiators are hoping for a 
``politically binding'' deal that would ``name and shame'' countries 
into cutting their emissions.
    What exactly is a politically binding deal, and do you plan to 
bring a legally binding treaty before the Senate for ratification?
    Answer. It is an open question whether the Paris outcome will be of 
a nature that requires Senate approval before the President may ratify 
it. The appropriate domestic form of the outcome, whether a protocol, 
another legal instrument, or an agreed outcome with legal force, will 
depend upon several factors, including its specific provisions.
    To the extent that the referenced New York Times story used the 
term ``politically binding'' to describe a non-legally binding outcome, 
it would follow that such an outcome would be within the authority of 
the executive branch to conclude.
    As Secretary Kerry testified during his confirmation hearing, any 
international agreement brought into force for the United States will 
be done so consistent with the U.S. Constitution.
    Question. In early February, the executive secretary of the United 
Nations' Framework Convention on Climate Change stated that the goal of 
the Paris Climate Conference is to ``intentionally, within a defined 
period of time . . . change the economic development model that has 
been reigning for at least 150 years, since the Industrial 
Revolution.''
    Does the administration believe this is the ultimate goal behind 
the Paris Conference or any other international climate agreement?
    Answer. The ultimate objective of the 1992 U.N. Framework 
Convention on Climate Change (UNFCCC) is stated clearly in Article 2 of 
the UNFCCC itself: ``. . . to achieve, in accordance with the relevant 
provisions of the Convention, stabilization of greenhouse gas 
concentrations in the atmosphere at a level that would prevent 
dangerous anthropogenic interference with the climate system.'' Article 
2 also states that this objective applies to ``any related legal 
instruments that the Conference of the Parties may adopt.'' This is 
what we and other UNFCCC parties have been working to achieve over the 
past two decades and it remains our ultimate objective. Clean energy 
development and more efficient energy use are vital tools to 
stabilizing greenhouse gas concentrations. Doing so now is far more 
affordable than paying for the consequences of climate change later. 
The Council of Economic Advisors pointed out last year that delaying 
action for a decade would increase the cost of responding to climate 
change by 40 percent. In addition, between now and 2035, investment in 
the energy sector is expected to reach nearly $17 trillion, creating a 
tremendous opportunity, both for clean energy development and for 
creating new jobs in the United States and around the world.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question. When will President Obama appoint a Special Envoy to 
Promote Religious Freedom of Religious Minorities in the Near East and 
South Central Asia as Congress called for in August 2014 with the 
signing into law of the Near East and South Central Asia Religious 
Freedom Act?
    Answer. I agree that the dire situation of religious minorities in 
the Near East and South Central Asia deserves special attention and it 
is one of my priorities. As President Obama made clear in his speech to 
the Nation in November, ``We cannot allow these communities to be 
driven from their ancient homelands.''
    Along those lines, I am thrilled to have recently welcomed 
Ambassador-at-Large for Religious Freedom, David Saperstein, to the 
Department. He just returned from an official trip to Iraq, where he 
met with members of religious communities and pressed government 
authorities to ensure their protection, safety and security.
    My understanding is that the White House is actively considering 
how to fill the Envoy position, and I support those efforts.
    Question. The fiscal year 2016 budget request includes $500 million 
toward a multilateral Green Climate Fund (GCF). It is my understanding 
that these taxpayers' dollars will be used to help developing countries 
adapt to climate change and reduce greenhouse gas (GHG) emissions. How 
do you justify prioritizing other countries' infrastructure when our 
own Nation's highways, roads, and bridges is in need of improvement? 
Additionally, since this is a United Nations fund, how will Congress 
and U.S. taxpayers know what their money is spent on? Who will report 
how much money went to what project(s)?
    Answer. Climate change is affecting communities across the United 
States as well as countries across the world. Action is required both 
here at home and internationally to combat the devastating effects of 
climate change. That is why the administration is prioritizing helping 
communities across the United States that are and will be most affected 
by climate change as well as assisting other vulnerable nations adapt 
to climate change and pursue a clean energy pathway.
    However, climate change is a global challenge. To significantly 
reduce emissions, we need all countries to take action. It is in the 
United States' national interest to support and partner with developing 
countries to accelerate their climate actions and the GCF is an 
important means of achieving this goal. U.S. investments in financing 
international climate action will yield many benefits including:
  --Protecting the U.S. economy from greater climate change impacts,
  --Increasing U.S. competitiveness in the international clean energy 
        market,
  --Helping U.S. national security, and
  --Reducing the health impact cost of air pollution.
    Moreover, U.S. participation in the GCF is critical to advancing 
our international interests in the on-going climate negotiations. The 
establishment of the GCF was a central provision of the Copenhagen 
Accord, a landmark agreement that recognized for the first time the 
importance of developing countries taking action to reduce their carbon 
emissions and combat climate change. In contrast to the Kyoto Protocol, 
in which only developed countries have emission-reduction obligations, 
the Copenhagen Accord contains commitments by a wide range of emerging 
economies, including major emitters like China, India, Brazil, and 
Indonesia. U.S. commitment to the GCF has and will continue to help us 
put pressure on developing countries to put forward mitigation 
commitments in a timely manner and to help secure a new global climate 
agreement in Paris. That agreement will help the United States and 
other countries avoid some of the most catastrophic risks from climate 
change, at home and abroad. We have already experienced the high cost 
of those impacts here in the United States.
    Question. Additionally, since this is a United Nations fund, how 
will Congress and U.S. taxpayers know what their money is spent on? Who 
will report how much money went to what project(s)?
    Answer. The GCF is not a United Nations fund. The GCF is an 
independent entity based in South Korea with an independent Board and 
Secretariat. While it is designed to contribute to achieving the 
objectives of the United Nations Framework Convention on Climate Change 
(UNFCCC), the GCF is not an arm of the United Nations or part of the 
UNFCCC. The GCF makes independent funding and operational decisions, 
and decides how best to respond to any guidance from the Convention of 
the Parties (COP).
    The GCF's independent Board is made up of 24 members with an equal 
number from developed and developing countries. The United States is 
represented on the GCF Board by the U.S. Department of Treasury and the 
U.S. Department of State serves in an advisory role to U.S. Board 
representative. All the activities of the GCF are under the care and 
review of the Board, including its U.S. representative. The World Bank 
is the present trustee of the GCF.
    The GCF will require regular results reporting for the projects and 
programs it finances and in turn this information will be reported to 
the GCF Board members. The initial results management framework of the 
GCF is currently being finalized, and it builds on experience and best 
practices from other funds and institutions. This will include regular 
and transparent reporting to the Board as well as the ability of 
individual Board members to require other regular and ad-hoc reports to 
the Board from the GCF Secretariat. The GCF Board is also establishing 
an Independent Evaluation Unit (IEU) that will report directly to the 
Board (independently of the GCF Secretariat) to evaluate GCF 
activities. The IEU will conduct periodic independent evaluations of 
the performance of the GCF in order to provide an objective assessment 
of the results of the GCF, including its funded activities and its 
effectiveness and efficiency. The results of the periodic evaluations 
will be published.
    This administration takes our GCF oversight role seriously and we 
are working hard to ensure that GCF funding is used responsibly. To 
that end, the GCF will require among the strongest fiduciary standards 
and social and environmental safeguards of all multilateral funds in 
climate finance today. Board proceedings and documents are among the 
most transparent of any multilateral mechanism. This will help ensure 
that GCF-financed projects and programs are responsibly designed and 
implemented and that all financial resources are managed prudently and 
transparently.
    Question. Is the forceful removal of Asad part of the 
administration's overall, enduring strategy to reestablish a unified 
Syria?
    Answer. Our strategy in Syria has remained consistent since 2012: 
we are committed to a negotiated political transition, in the context 
of the Geneva Principles, toward an inclusive government capable of 
serving the interests of all the Syrian people; this type of solution, 
rather than a militarily-imposed resolution, offers the best hope for a 
sustainable end to the conflict. With respect to Bashar al-Asad, the 
United States firmly maintains that he has lost all legitimacy and 
cannot be part of a political solution. It is clear there can never be 
a stable, inclusive Syria under his leadership. His brutalization of 
his own people was central to the creation of and helps sustain 
extremist groups such as the Islamic State of Iraq and the Levant 
(ISIL). We continue to work with our allies to isolate and sanction the 
Asad regime. We likewise are focused on strengthening our support for 
the moderate opposition and on supporting moderates who stand against 
the extremes--whether they be the terrorism of ISIL and other extremist 
groups or of a regime that terrorizes its own people. Our support of 
the opposition is intended to help enable progress to a political 
solution.
    Question. Can you please describe what reporting requirements the 
U.S. Department of State must provide to Congress when procuring 
military and/or lethal equipment/weapons from non-U.S. entities?
    Answer. For procurements in support of State Department operations, 
the Bureau of Administration, Office of Acquisitions Management is not 
aware of any use of appropriated funding for the acquisition of 
military and/or lethal equipment/weapons from non-U.S. entities.
    For foreign assistance purposes, per section 42 of the Arms Export 
Control Act (AECA), the Department of State, the Department of Defense 
(DOD), and the Department of Treasury must concur and complete an 
assessment and waiver on the procurement of equipment from non-U.S. 
entities using Foreign Military Financing (FMF) funds. Per section 
604(a) of the Foreign Assistance Act of 1961, as amended (FAA), the 
Department must complete an assessment of the procurement of equipment 
using any FAA-authorized funding, including Peacekeeping Operations 
(PKO) funds, if such procurement is sourced outside the United States, 
the recipient country, or developing countries. This assessment 
includes a review of whether or not the commodities and services to be 
procured can be sourced from such countries; and whether or not a 
waiver on the basis of unforeseen circumstances or efficiency is 
appropriate. The section 604(a) waiver has been delegated to the 
Secretary of State. There is no congressional reporting requirement 
associated with this process.
    The Department of State does not have congressional reporting 
requirements associated with procurement of equipment by DOD for use by 
their department; I would refer you to DOD for such acquisition issues.
    Question. What kind and to what extent of humanitarian aid are we 
providing to religious minorities affected by the spread of ISIS and 
radical Islam, and what more could be done? Please describe the types 
of assets contributed, dollar amounts, and Federal agencies involved in 
the effort.
    Answer. The U.S. Government has long been concerned about the 
safety and rights of vulnerable populations in the Levant, including 
religious and ethnic minorities. The Department of State has regular 
ongoing contact with leaders of these groups in the United States and 
throughout the Middle East region to discuss their wellbeing and needs. 
Our contacts include Christian leaders, Yezidi activists, civil society 
and clergy members, minority diaspora, and advocacy groups.
    The U.S. Government also continues to be a primary donor to 
displaced Iraqis, contributing nearly $220 million since the start of 
fiscal year 2014. The U.S. Embassy in Baghdad and Consulate General in 
Erbil are in daily contact with the Iraqi Government, the Kurdistan 
Regional Government, the United Nations (U.N.), and other humanitarian 
aid organizations in Iraq to ensure they do their utmost to reach and 
assist displaced Iraqis--including minorities. The Department of State 
contributed more than $182 million in fiscal year 2014 funds to U.N. 
relief agencies and other international and non-government organization 
to assist displaced Iraqis. This funding supported the U.N. and 
international and nongovernmental organizations that are providing 
Iraqis with assistance, including food and water, health and mental 
healthcare, shelter materials, clothing, water, and sanitation and 
hygiene resources, and basic relief items such as mattresses, blankets, 
cooking sets, and other household goods. The U.S. Agency for 
International Development provided more than $18 million in fiscal year 
2014 and more than $11 million in fiscal year 2015 funds to support the 
provision of health services, shelter, water, and sanitation and 
hygiene resources. The Department of Defense also contributed $7.5 
million in fiscal year 2014 funds for humanitarian assistance for Iraq 
displacement and insecurity.
    In addition to providing humanitarian assistance, the State 
Department has also directed programs funded through Economic Support 
Funds to target minority and internally displaced persons (IDP) 
communities. Program activities focus on human rights and rule of law 
and atrocities prevention and accountability.
    The United States remains the single largest donor to the 
humanitarian response for Syria, contributing more than $3 billion in 
life-saving humanitarian aid to affected Syrians, including IDPs and 
refugees in the region, since the crisis began. This support includes 
the provision of emergency medical care and medical supplies, emergency 
shelter, childhood immunization, food, clean water, and other relief 
supplies and support to those affected by the crisis, both in Syria and 
in neighboring countries. We are increasing our focus on coordinating 
humanitarian and development assistance given the long-term nature of 
the conflict and impact on refugee-hosting countries, and increasing 
diplomatic engagement with host countries to encourage them to keep 
borders open to the most vulnerable seeking refuge.
    Question. For more than three decades, U.S. aid to Egypt, 
especially in the form of foreign military financing (FMF), has 
remained a strong component of American foreign policy in the Middle 
East that fosters peace and prosperity in the region. Recent reports 
suggest that Egypt is contracting with more non-U.S. military equipment 
providers because it is having trouble filling its security needs 
through U.S contractors. What are you doing to work with Congress to 
ensure that Egypt receives the military equipment necessary from the 
United States to combat terrorism within its own borders?
    Answer. Egypt is an important strategic partner of the United 
States, and our common interests include countering terrorism and 
maintaining regional stability, including peace with Israel. Our annual 
allocation of $1.3 billion in Foreign Military Financing (FMF) to Egypt 
is an important instrument in our support to Egypt. FMF helps Egypt to 
modernize the Egyptian military by updating and maintaining key U.S.-
origin systems deployed by Egypt that enhance Egypt's capacity to 
combat terrorism and protect its borders, and professionalizes Egypt's 
armed forces.
    U.S. assistance cannot fulfill every military requirement for 
Egypt. While approximately 52 percent of Egypt's military hardware is 
American origin, Egypt has historically engaged with a number of non-
U.S. providers of military equipment, as do many of our partners around 
the world. We expect such engagement, but we also recognize that the 
Egyptian armed forces maintain a preference for U.S.-origin systems. We 
continue to monitor reports about pending arms sales by Russia, China, 
and other suppliers.
    We continue to work with Congress to ensure that the United States 
maintains support to Egypt, to include seeking annual appropriations 
for FMF and the legislative authority needed to provide military 
equipment, training, services, and other assistance for this important 
partner. We recognize the concerns of Congress that our assistance not 
only maintains Egypt's ability to counter the significant terrorist 
threat Egypt now faces within its borders and in the region, but also 
has been used during the Egyptian political transition process. Our 
counterterrorism cooperation with Egypt is part of the President's 
broader efforts to work with partners across the region to build 
counterterrorism capacity that upholds and enforces the rule of law, 
protects innocent lives, and respects human rights and international 
norms. The Secretary has been considering the certifications provided 
in the Fiscal Year 2015 Appropriations Act, but has not yet made a 
decision to move forward.
    Assistance from the United States cannot fulfill every military 
requirement for Egypt. While approximately 52 percent of Egypt's 
military hardware is American origin, Egypt has historically engaged 
with a number of non-U.S. providers of military equipment, as do many 
of our partners around the world. We expect such engagement, but we 
also recognize that the Egyptian armed forces maintain a preference for 
U.S.-origin systems. Egypt signed a contract with France valued at 
approximately 5.2 billion-euro for the purchase of Rafale fighter 
aircraft, a frigate, and associated armaments. We continue to monitor 
reports about pending arms sales by Russia, China, and other suppliers.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. The Central American governments blame the drug cartels 
and gangs, as they should, but it is the weakness and corruption of the 
police and public institutions that have created the opportunity for 
criminal organizations to flourish. The governments' answer has been to 
turn to the military, or to militarize the police, which as we have 
seen in Mexico can make things worse. Can you provide us with the 
specific steps these governments are going to take to build the kind of 
civilian police and justice capacity they need?
    Answer. Consistently weak civilian police institutions often lead 
governments to turn to military institutions to provide civilian 
security. However, the military is not trained for this task. Reliance 
on the military for internal security diverts attention and resources 
from the real solution--effective national police reform.
    The Northern Triangle's own Alliance for Prosperity prioritizes 
improving public safety and enhancing access to the legal system as a 
key line of action. To achieve these goals we must address the 
deficiencies in both the police and judiciaries. Each country in the 
Northern Triangle needs to develop a civilian-controlled, professional, 
accountable, capable police force. Specifically, all three countries 
will focus on improving police training to incorporate core law 
enforcement skills and to include vetting, oversight, and transparency 
mechanisms. This will be done in close coordination with our existing 
programs in each country to improve the civilian police forces and 
domestic judiciaries capacity and capability.
    In El Salvador, the United States utilizes U.S.-trained Colombian 
polygraphists to assist the Salvadoran Government with anti-corruption 
efforts. The United States is also assisting the National Academy of 
Public Security to deploy virtual classrooms in each department within 
El Salvador to improve access to professional training and is providing 
training and equipment, including canines, to the National Civilian 
Police (PNC) to strengthen border and port security. In addition, the 
United States is actively working with the Attorney General to initiate 
asset forfeiture cases and is helping the Supreme Court establish a 
permanent asset forfeiture court.
    In the context of working to strengthen civilian police capacity to 
ensure their effective management of internal security 
responsibilities, Honduras will introduce a reform plan for the 
Honduran National Police by June 2015, with a commitment to recruit, 
train, vet, and deploy an additional 6,000 civilian police over the 
next 3 years. U.S. assistance is focused on the reform and 
professionalization of the Honduran National Police as well. Honduran 
officials also want to incorporate more community policing methods and 
programs for at-risk youth to prevent and reduce crime, based on proven 
models founded with U.S. assistance.
    In Honduras the Criminal Investigative School (EIC) is 
strengthening and professionalizing members of the justice sector, 
specifically the Honduran National Police, prosecutors, and judges, by 
proving the basic educational tools needed to pursue criminal 
investigations. In 2014 the EIC trained a total of 1,482 justice sector 
actors. In 2015 they hope to open a San Pedro Sula Annex to serve as a 
training site covering the northern part of the country.
    In Guatemala, a police reform plan is addressing need for improved 
police recruitment, internal controls, and disciplinary procedures; as 
well as a more streamlined process to remove law enforcement officers 
who do not respect the rule of law. In order to improve career 
development, the Police Academy is working with local universities to 
get the Police Academy's curriculum accredited so that cadets can earn 
college level credit. In addition, the curriculum will include courses 
in human rights training as well as child and women victims' 
assistance.
    As part of the U.S. Strategy for Engagement with Central America we 
will build upon these efforts to, work with police, prosecutors, and 
judges to help ensure transparency across the justice system. It is 
important to address the public security sector at many levels and 
among many stakeholders--including in the judiciary. Effective, 
independent, and accountable judicial systems are an essential 
component of the rule of law, an important check on corruption, and a 
safeguard for citizens. The Northern Triangle governments already 
agreed to strengthen this sector, choosing to prioritize efficiency, 
transparency, and accountability, as well as to promote independent 
monitoring mechanisms to ensure governmental transparency.
    At issue is not just access to justice, but the effectiveness, 
independence, and accountability of the judicial system.
    Question. In Haiti, a lot of the rubble from the earthquake is 
gone, and most people have been moved out of shelters. But safe housing 
remains a huge problem, and things in general seem to be going steadily 
downhill in Haiti. There have not been elections in 3 years, President 
Martelly rules by decree, the economy is a shambles, there are regular 
protests of thousands of people in the streets, and no solution in 
sight. Five years after the earthquake and billions of dollars in 
international aid, is this what we should have expected, and is there 
any reason to think the situation will be better a year or two from 
now? Does the administration have a new plan, or is it more of the 
same?
    Answer. Since the 2010 earthquake, the United States has made 
available $4 billion in assistance for Haiti, some 80 percent of 
which--$3.2 billion--has been disbursed as of December 31, 2014. U.S. 
assistance to Haiti is having a measurable impact, including providing 
access to basic health services for approximately half of all Haitians, 
assisting 328,000 earthquake-displaced Haitians find alternative 
shelter, generating 5,000 new jobs to date at the Caracol Industrial 
Park, helping 70,000 farmers increase their crop yields, and helping 
train and commission more than 3,300 new Haitian National Police 
officers. Basic health indicators and overall security are improved, 
primary school enrollments are up, and Haiti has had positive economic 
growth rates since 2011. More remains to be done, and Haiti's 
reconstruction and development will continue for many years.
    Haitian President Michel Martelly is governing by executive order--
so-called ``rule by decree''--following the January 12, 2015 expiration 
of all but 10 of Haiti's parliamentary seats. Parliament did not pass 
elections legislation before the January 12 deadline, despite numerous 
concessions made by President Martelly.
    Article 136 of the Haitian Constitution calls for the president to 
ensure regular operations of the government and continuity of the 
state. Following Parliament's lapse, President Martelly prioritized the 
organization of elections and demonstrated inclusivity by consulting 
with the remaining seated senators as well as political party leaders. 
On January 23, the President swore in a new Provisional Electoral 
Council (CEP), which was structured according to opposition demands.
    On February 11, the CEP unveiled draft electoral regulations and a 
proposed elections calendar. Following input from party leaders, the 
electoral decree was submitted to the Executive and published on March 
4. According to the final electoral calendar, the first round of 
elections is scheduled to take place in August.
    The United States is firmly committed to long term support of the 
Haitian people as they build a more prosperous and secure future. The 
overall strategy for U.S. assistance to Haiti will continue within the 
current parameters, focusing on four areas--infrastructure and energy, 
food and economic security, health and basic services, and governance 
and rule of law. Governance and rule of law is a priority, as political 
gridlock hampers Haiti's economic growth. Despite the Martelly 
administration's business-friendly rhetoric, key pieces of legislation 
to facilitate investment have not been passed. For prospects to 
improve, there needs to be free and fair elections to restore 
Parliament, and legislators need to be willing to work with the 
Executive to pass legislation and implement key structural reforms to 
restore fiscal sustainability.
    Question. We know of the increasing threats by ISIL and other 
jihadists against Egypt. The beheading of 21 Coptic Christians is the 
latest grotesque example.
    I also recognize the importance of Egypt in the region and of our 
relations with Egypt, which you have often expressed. But I agree with 
President Obama that the denial of human rights is one cause of 
extremism, and I am concerned that in each of these areas the Egyptian 
Government is going in the wrong direction.
    The fiscal year 2015 Omnibus provides $1.3 billion in military aid 
for Egypt, and requires a certification that the Egyptian Government is 
making progress in democracy, human rights and the rule of law, which 
it is not.
    I am concerned with Egyptian-American citizens who are political 
prisoners and the lack of due process for prisoners who have been 
subjected to sham trials and sentenced to death or long prison terms.
    I am also concerned that we are providing lethal equipment to the 
Egyptian military in the Sinai, but there is no reliable way to monitor 
whether our equipment is being used consistent with the Leahy Law. Nor 
is there any evidence that the Egyptian military itself is accountable 
to the rule of law. How do you see the situation?
    The fiscal year 2015 Omnibus also calls on the Secretary of State 
to consult with this committee ``on plans to restructure military 
assistance for Egypt, including cash flow financing''. Is such a plan 
being developed and if so by whom?
    Answer. We share your concerns and continue to urge the Government 
of Egypt to implement the human rights protections of its new 
constitution. We have expressed our severe reservations regarding 
legislation that criminalizes peaceful dissent and imposes onerous 
restrictions on civil society. We continue to press the government to 
allow freedom of speech, assembly, association and due process for all 
Egyptians.
    In 2014, Egypt held a constitutional referendum and presidential 
elections. Domestic and international observers concluded that the 
constitutional referendum and subsequent presidential election were 
administered professionally and in line with Egyptian laws, while also 
expressing concerns that government limitations on association, 
assembly, and expression constrained broad political participation.
    The Egyptian courts recently declared unconstitutional the 
redistricting provisions of a new electoral law earlier this month. In 
response, President al-Sisi has ordered a re-write of the law to comply 
with the court ruling. That effort will delay parliamentary elections 
that were scheduled to begin in March 2015.
    We welcomed the release of Australian journalist Peter Greste and 
note that President al-Sisi has said publicly he will release the other 
two Al Jazeera journalists, now out of prison on bail, when their 
retrial is completed.
    Our Embassy in Cairo continues to provide consular services to 
American citizens arrested and detained in Egypt, and I will continue 
to press the Egyptian Government to ensure they receive proper 
treatment and due process. We regularly ask for humanitarian parole for 
Mohamed Soltan, whose trial continues.
    We have repeatedly registered our disapproval of mass trials, and 
objected to the arrest and prosecution of individuals for peacefully 
protesting, as well as the harsh sentences many have received. We 
continue to encourage the Government of Egypt to allow non-governmental 
organizations (NGOs) and civil society to operate freely.
    We continue to request access to Sinai for Embassy Cairo personnel 
and coordinate closely with the Multinational Force and Observers who 
regularly patrol in Sinai to monitor conditions there. We recognize 
that success in Sinai will require integration of effective military 
action and social/economic development. Our Embassy in Cairo regularly 
monitors the use of U.S. equipment supplied to the Egyptian military, 
as required by law.
    I appreciate the flexibility the Congress provided with respect to 
FMF in the fiscal year 2015 omnibus. The administration continues to 
carefully review our foreign military financing (FMF) program with 
Egypt, but no decisions have been made with respect to pending 
democracy certifications or cash flow financing. As that process 
continues, we look forward to consulting closely with the Congress.
    Question. This subcommittee has strongly supported the Clean 
Technology and Strategic Climate Funds. For fiscal year 2016, you are 
requesting a total of $500 million for a U.S. contribution to the new 
``Green Climate Fund (GCF)''. Can you explain what this Fund does and 
what difference it makes whether the U.S. participates or not? How big 
a priority is this for the State Department?
    Answer. Like the Clean Technology and Strategic Climate Funds 
(CIFs) that the subcommittee has strongly supported over the years, the 
GCF will assist developing countries in their efforts to combat climate 
change through grants and other concessional financing for mitigation 
and adaptation projects, programs, policies, and activities. In short, 
the GCF is meant to be the successor to the CIFs, and we expect that 
the GCF will become the preeminent channel for climate finance, 
allowing for the rationalizing of other existing sources of climate 
finance. Initially, the GCF will complement many of the existing 
multilateral climate change funds such as the Climate Investment Funds 
(CIFs); however, as the recognized financial mechanism of the United 
Nations Framework Convention on Climate Change (UNFCCC), it will 
eventually replace or subsume the other means of international climate 
assistance. For instance, the CIFs are expected to sunset once the GCF 
is fully operational and our obligations to the CIFs are complete. The 
Treasury Department, through the CIF Trust Fund Committees, is already 
engaged in a discussion with the CIFs' Administrative Unit and Trustee 
as to when and how to sunset the CIFs. Once the sunset is decided, the 
CIFs will stop accepting new funds and only approve new projects to the 
extent that they have funds on hand, and the GCF will be the primary 
vehicle to support developing countries to address climate change.
    Moreover, the GCF has been designed with key elements that are new 
or improvements on the CIFs and past climate finance vehicles:
          Inclusive governance. The GCF's governance structure--headed 
        by a 24-member Board with an equal number of developed and 
        developing countries--gives it uniquely high levels of 
        international acceptance.
          High standards. The GCF will require among the strongest 
        fiduciary standards and social and environmental safeguards of 
        all multilateral funds in climate finance today. This will help 
        ensure that GCF-financed projects and programs are responsibly 
        designed and implemented, and that all financial resources are 
        managed prudently and transparently. In addition, the Fund has 
        independent evaluation and integrity units, and Board 
        proceedings and documents are among the most transparent of any 
        multilateral mechanism.
          Working through the private sector. The GCF will have a 
        dedicated Private Sector Facility (PSF) that can directly 
        support entrepreneurs developing low-carbon technologies and 
        projects, as well as adaptation efforts implemented in 
        partnership with the private sector. The PSF aims to mobilize 
        capital from private sector entities from both developed and 
        developing countries and facilitate innovative instruments that 
        catalyze greater private sector investment in developing 
        countries. The Board is also advised by a standing Private 
        Sector Advisory Group, composed of business leaders from 
        developed and developing countries.
          Adaptation and mitigation. Building on lessons from other 
        institutions, the GCF will balance (50/50) its support for 
        mitigation and adaptation activities, building up expertise in 
        both areas and positioning itself to capitalize on synergies 
        between them.
          Large network of partners. The GCF will have more countries 
        eligible for funding than most other climate funds. As such it 
        will work through a large network of partners to help it reach 
        more regions and communities, as well as unlock opportunities 
        in both adaptation and mitigation in hard to reach locations.
          Diverse Donors. The GCF is being capitalized by contributions 
        from a broad donor base including developing countries. The GCF 
        may also receive funding from other sources, including 
        eventually from the private sector.
          Independent, lean organization. The GCF is an independent 
        entity and will not have a large bureaucracy. By working 
        through existing mechanisms and entities as implementer, the 
        GCF will maintain a light footprint and a small secretariat to 
        administer.
    The GCF has so far received pledges totaling $10.2 billion from 31 
countries, including many non-traditional donors, including Chile, 
Colombia, Indonesia, Mexico, Mongolia, Panama, Peru, and Republic of 
Korea. More are expected to pledge in the future. The U.S. pledge and 
U.S. engagement were key factors in securing larger pledges than 
originally expected from many developed countries as well as getting 
emerging economies and developing countries to pledge resources to the 
GCF.
    It is in the United States' national interest to support and 
partner with developing countries to accelerate their climate actions 
through new international investments in the GCF. U.S. investments in 
financing international climate action will yield many benefits 
including:
  --Protecting the U.S. economy from greater climate change impacts,
  --Increasing U.S. competitiveness in the international clean energy 
        market,
  --Helping U.S. national security, and
  --Reducing the health impact cost of air pollution.
    Moreover, U.S. participation in the fund is critical to advancing 
our international interests in the on-going climate negotiations. The 
establishment of the GCF was a central provision of the Copenhagen 
Accord, a landmark agreement that recognized for the first time the 
importance of developing countries taking action to reduce their carbon 
emissions and combat climate change. Including the GCF in Copenhagen 
helped us to secure emerging economy commitments to 2020. 
Operationalizing and financing the GCF can help us secure emission 
reductions from emerging countries in the post-2020 timeframe. A 
significant U.S. pledge to the GCF has and will continue to help us put 
pressure on developing countries to put forward mitigation commitments 
in a timely manner. We now need to realize a significant portion of 
that U.S. pledge in fiscal year 2016, in order to help secure a new 
global climate agreement in Paris. That agreement will help the United 
States and other countries avoid some of the most catastrophic risks 
from climate change, at home and abroad. We have already experienced 
the high cost of those impacts here in the United States.
    As the premier climate change fund going forward, it would reflect 
very poorly on the U.S. and U.S. leadership to not support the GCF. As 
such, standing up and financing the GCF is a top priority for the State 
Department. The United States is taking a leadership role to address 
climate change, but we can't solve this alone. The GCF will play a 
critical role in ensuring that the poorest and most vulnerable 
countries can take action and in achieving strong commitments from 
other countries.
                                  isil
    Question. I am concerned that the propaganda of ISIL and ISIL's 
supporters are dwarfing counter-ISIL messages, both in volume and 
effectiveness. Your Center for Strategic Counterterrorism 
Communications is not impressive, yet the White House says that office 
will ``drive U.S. Government efforts in discrediting terrorist 
propaganda.''
    There are concerns that the Department's counter-ISIL messages on 
social media are ineffective and dismissed as U.S. propaganda. What is 
the Department doing to determine the effectiveness of the Center for 
Strategic Counterterrorism Communications' social media operations?
  revamped and expanded efforts of the cscc and its counter-isil cell
    Answer. We are expanding and revamping the efforts of the Center 
for Strategic Counterterrorism Communications (CSCC) to confront the 
propaganda of ISIL and other groups. We have recently added an inter-
agency counter-ISIL cell to the CSCC that is focusing on three main 
areas:
          (1) Expanding our messaging efforts, including on social 
        media platforms, in Arabic, Somali, Urdu, Hausa, and English to 
        amplify (a) stories of ISIL defectors and former fighters, (b) 
        poor living conditions under ISIL, (c) ISIL battlefield losses 
        and internal divisions, (d) statements from credible voices in 
        the Muslim world, (e) ISIL atrocities, particularly against 
        Muslims, who make up a vast majority of ISIL's victims, and (f) 
        positive narratives emphasizing our values and the examples of 
        young people around the world who are addressing challenges 
        they face through productive means.
          (2) Expanding partnerships with foreign governments and non-
        government organizations (NGO) partners to directly counter 
        ISIL's messaging. Recognizing that other partners around the 
        world will have the unique ability to respond to certain 
        aspects of ISIL's messaging, we are supporting NGOs who are 
        countering ISIL's narrative and helping other countries to 
        establish their own counter-ISIL messaging centers. The United 
        Arab Emirates (UAE) has opened a center that will go live in 
        early July, and we are working with Malaysia, Tunisia, and 
        other countries on similar centers.
          (3) Coordinating U.S. Government and Coalition messaging by 
        issuing daily and thematic guidances on the counter-ISIL topic 
        mentioned above to nearly 3,000 U.S. Government officials as 
        well as Coalition partners. We are also developing a content 
        sharing platform so that our Coalition partners and U.S. 
        Government offices around the world can work together to 
        upload, download, curate, and produce counter-ISIL content.
Measuring the Impact of Our Efforts
    While it is difficult to measure how many of those on the fence 
decide not to join terrorist groups, we track: (1) The reach of our 
messaging, including the number of times our content in the various 
languages is viewed and shared and copied and pasted by other users 
(our online rates of engagement (ROE) are consistently above industry 
standard); (2) Polling showing that ISIL's approval ratings, including 
in the Muslim world, continues to be in the single digits; (3) The 
responses to our materials online, which often elicit threatening 
replies by ISIL and other terrorists; and (4) The types of counter-ISIL 
messaging, including content produced by others, that tends to go viral 
and that we can also use. Our efforts are designed to prevent young 
people from ever being attracted to ISIL by contesting the information 
space and trying to reach the small percentage of those in societies 
around the world who may be susceptible to recruitment.
    Question. Public diplomacy is only one tool. The White House fact 
sheet on the Summit noted the importance of supporting civil society to 
counter violent extremism. How do you respond to the concern that some 
U.S. allies, like Saudi Arabia, Egypt, and the United Arab Emirates 
have a history of cracking down on civil society and imprisoning 
critics of the government?
    Answer. We encourage the Governments of Egypt, Saudi Arabia, and 
the UAE to build inclusive political processes in their countries that 
respect civil liberties and fundamental human rights, which are 
critical to good governance, political stability, and a rule-of-law 
based approach to counterterrorism. Radicalization and recruitment into 
violent extremism are shared challenges for these and many other 
countries. To be effective, CVE efforts require a range of actors--
including those in government, the private sector, civil society and 
communities--to work together on developing and implementing CVE 
strategies and programs. Respecting human rights and providing space 
for civil society to operate is essential for allowing these kinds of 
partnerships to take shape, and for supporting longer-term stability in 
the region and beyond.
    Question. What efforts are being taken by the Department of State 
and the Department of Defense (DOD) to address the impact of U.S. air 
attacks against ISIL on innocent civilians in Iraq and Syria?
    Answer. We take our responsibility to safeguard civilians very 
seriously, and the Department of Defense strives for precision in the 
execution of U.S. airstrikes. The Department of Defense complies with 
the Law of Armed Conflict and takes all feasible measures during the 
targeting process to reduce risks to civilians.
    The Department of State maintains extensive channels of 
communication with human rights organization, civil society, local non-
government organizations (NGOs), and other contacts on the ground to 
obtain allegations of attacks against civilians that we share with our 
interagency partners. State takes all allegations of civilian 
casualties seriously and shares this information with counterparts 
across the U.S. Government to aid in investigations of allegations of 
civilian casualties when appropriate.
    There is a process in place at U.S. Central Command to determine if 
allegations are credible. The key to evaluating the credibility of any 
allegation is whether sufficient verifiable information is available--
such as corroborating statements, photographs or documentation that can 
help us determine whether an allegation is credible. Once an assessment 
has determined an allegation as credible the next step would be a 
formal investigation into the matter.
    We will continue to work with our Counter-ISIL Coalition partners 
to degrade and defeat ISIL in a manner that prioritizes the safety of 
civilians and protects the people of Iraq and Syria from the savagery 
of ISIL, which continues to kill and abuse civilians.
    Question. Venezuela--a country of 30 million people--is sliding 
toward chaos, thanks to an inept, corrupt government and the sharp drop 
in oil prices. If things continue to deteriorate, where do you see this 
leading and are there any governments that might step in to try to 
rescue the Maduro Government other than Cuba, which doesn't have much 
to offer? Do you see any sign that the Maduro Government can be 
convinced to stop its persecution of Leopoldo Lopez and other opponents 
of the government?
    Are you planning to implement the assets freeze provisions in the 
Venezuela Defense of Human Rights and Civil Society Act?
    Answer. We share your concerns about the political, economic, and 
social pressures building in Venezuela. We will not refrain from 
speaking out about human rights abuses. We are joined by dozens of 
individuals and entities, including the U.N. High Commissioner on Human 
Rights, OAS Secretary General Insulza, the Peruvian, Costa Rican, and 
Colombian Governments, and the Inter American Commission on Human 
Rights, among others. Rather than imprisoning and intimidating its 
critics, we believe the Venezuelan Government should focus its energy 
on finding real solutions for the country's economic and political 
problems through democratic dialogue with the political opposition, 
civil society, and the private sector.
    While no one can predict the future regarding the speed or 
trajectory of Venezuela's downward slide, this year's National Assembly 
elections present an opportunity for Venezuelans to engage in 
legitimate, democratic discourse. Credible election results could 
reduce tensions in Venezuela. We have urged regional partners to 
encourage Venezuela to accept a robust international electoral 
observation mission, and to hold free and fair elections. Now is the 
time for the region to work together to help Venezuela to work toward a 
democratic solution to the challenges the country faces. We will also 
continue to work closely with Congress and others in the region to 
support greater political expression in Venezuela, and to encourage the 
Venezuelan Government to live up to its commitments to democracy and 
human rights, as articulated in the OAS Charter, the Inter-American 
Democratic Charter, and other relevant instruments.
    The President issued an Executive order ``Blocking Property and 
Suspending Entry of Certain Persons Contributing to the Situation in 
Venezuela'' on March 9. This new authority implements and goes beyond 
the sanctions provided for in the Venezuela Defense of Human Rights and 
Civil Society Act of 2014 and is aimed at persons involved in or 
responsible for certain conduct, including use of violence and human 
rights violations and abuses, including in response to antigovernment 
protests, actions that prohibit, limit, or penalize the exercise of 
freedom of expression or peaceful assembly, as well as significant 
public corruption by senior government officials in Venezuela. The 
annex to the Executive order identifies seven individuals subject to 
economic sanctions under the Executive order. The Executive order does 
not target the people or the economy of Venezuela.
            international monetary fund (imf) quota reforms
    Question. The President has again requested authorization for the 
International Monetary Fund governance and quota reform that were 
agreed to in 2010. The President did not begin requesting the authority 
to approve these reforms until 3 years ago and has included it each 
year since then. The Senate has included the authorities and funding 
but each year the House has refused.
    The administration's strategy for gaining congressional support for 
this has not worked. We are seeing the fallout for not approving the 
reforms--the U.S. reputation has been damaged and U.S. leverage at the 
IMF has declined. The IMF members have begun to look at other options 
to begin implementing the 2010 reforms. Do you know if the 
administration plans to do anything different this year to help get 
this through Congress?
    Answer. The administration strongly calls for congressional 
approval of the 2010 IMF quota and governance reforms. The U.S. delay 
in ratifying the 2010 reforms has eroded our leadership and capacity to 
influence international development financing. Giving important 
emerging market and developing economies greater power in the IMF would 
preserve the integrity of the existing international financial 
infrastructure without increasing U.S. monetary commitments or 
endangering the U.S. veto over important IMF decisions. To preserve 
U.S. influence, we need to work to recognize the legitimate aspirations 
of several growing economies to become responsible participants in the 
Bretton Woods Institutions. Delay will ultimately affect the IMF's 
ability to respond to geopolitical and economic crises in a way that 
serves our vital national interests.
    Despite the fact that the United States championed the 2010 IMF 
quota and governance reforms, we are now the only major IMF member 
country that has not yet ratified them. You are correct that the U.S. 
failure to ratify IMF reforms is generating criticism abroad and 
eroding our credibility in the G-20, with emerging economies, and with 
international financial institutions. Participants at the April 17-19, 
2015 World Bank and IMF Spring Meetings criticized the United States 
for our inability to implement quota and governance reforms, and 
discussed interim solutions to adjust quota shares. As Secretary Lew 
underscored at the time of those meetings, the administration is 
committed to securing legislation to implement the 2010 quota and 
governance reforms. President Obama has requested approval for the 
reforms in his current budget request and at the same time the 
administration is seeking every possible opportunity to work with you 
to obtain congressional approval as soon as possible.
    The administration will continue to make passing the 2010 IMF 
reform package a priority for this year and will keep Congress informed 
of the adverse consequences of failing to do so.
    Question. You are requesting $124 million for the next construction 
phase of the Kabul Embassy, which is a fraction of the $2 billion we 
have spent on U.S. diplomatic facilities in Kabul. This is an 
astounding amount. We went through this same thing in Iraq. While the 
Department has done a better job of planning for the civilian 
transition in Afghanistan, the construction costs are still too high, 
particularly when it looks like the security problems will severely 
limit the ability of U.S. Embassy staff to monitor programs in the 
field. I am afraid we are maintaining a presence in Afghanistan the 
size of which cannot be justified for the work that can actually be 
accomplished there. Why do 4,816 employees and contractors, including 
2,000 guards and diplomatic security officers, planned for Kabul in 
fiscal year 2016 make sense?
    Answer. Our diplomatic presence in Kabul is vital to U.S. national 
security interests and to maintaining the viability of the Afghan 
Government. Major policy efforts over the last year--the formation of 
the government of national unity, concluding the bilateral security 
agreement, preparing Ashraf Ghani's visit to Washington and maintaining 
pressure to complete cabinet appointments--demonstrate there is no 
substitute for direct, face-to-face engagement by our diplomats, 
assistance experts and military. This on-the-ground engagement is the 
best way to influence policy makers, oversee accountability of 
assistance programs, and build Afghanistan's ability to defend its own 
territory and govern effectively, so that it can never again be used as 
a safe haven by terrorists to threaten the United States.
    This approach is working. A few years ago, we had more than 100,000 
troops and more than 1000 diplomats and development professionals 
scattered throughout the country. We have reduced those numbers 
dramatically and are centralizing in Kabul as the Afghans have stepped 
up to govern and secure their country themselves. We are keeping a 
constant eye on how effectively we can do our work in the evolving 
security environment, a process that includes looking for ways to lower 
the number of staff in the field and off-shoring certain functions 
wherever possible.
    Afghanistan will remain a dangerous place for U.S. diplomats. The 
security environment magnifies the challenges to our diplomacy and 
greatly increases the security requirements and support staff required 
for our mission. With continued support from the Congress, the State 
Department is investing in facilities and security to ensure the 
safest, most effective platform possible to enable our work. Ongoing 
construction and security upgrades will create an Embassy compound that 
mitigates insurgent threats to our facilities and personnel, and allows 
considerable capacity to sustain operations without relying on local 
infrastructure. These efforts represent our best estimate of the long-
term political and security challenges U.S. diplomacy will face in 
Afghanistan.
    Question. The President's fiscal year 2015 request for refugee and 
disaster assistance was $1.5 billion less than the fiscal year 2014 
level. For fiscal year 2016, these accounts are once again underfunded, 
this time by roughly $800 million below the fiscal year 2015 level, 
despite increasing requirements in Iraq and Syria, Gaza, and Central 
Africa.
    The explanation we've heard is that the Department expects to carry 
over $500 million in fiscal year 2015 funds for use in fiscal year 
2016. Why not use these appropriated funds when people are freezing in 
Syria and the United Nations Relief and Works Agency for Palestine 
Refugees in the Near East (UNRWA) had to suspend operations in Gaza, 
and then request the necessary amount for fiscal year 2016?
    Answer. The administration remains dedicated to providing strong 
support for humanitarian programs worldwide. The President's fiscal 
year 2016 request reflects the administration's strong commitment to 
these programs, while taking into account the current constrained 
budget environment. The fiscal year 2016 request includes $2.453 
billion for the Migration Refugee Assistance and $1.741 billion for the 
International Disaster Assistance (IDA) account. In addition, the 
Department is requesting $50 million in the Emergency Refugee and 
Migration Assistance (ERMA) account to respond to urgent and unforeseen 
needs.
    Overall, this request represents a nearly $850 million increase 
from the President's fiscal year 2015 request in response to the dire 
humanitarian situation resulting from the conflicts in Syria, South 
Sudan, Iraq, and Central African Republic, among others. The Department 
of State and the United States Agency for International Development 
also plan to carry over approximately $500 million in fiscal year 2015 
funding into fiscal year 2016 in order to support humanitarian aid 
programs. However, should the need for additional funding from the U.S. 
Government this year exceed our current plans, the administration would 
tap the planned carryover funding to address them. With the request and 
planned carryover, we anticipate having the funds necessary to support 
our humanitarian assistance goals in fiscal year 2015 and fiscal year 
2016.
    Thanks to generous support from the U.S. Congress, the U.S. 
Government (USG) is the largest humanitarian donor in the world, 
including to the crisis in Syria. With significant USG funding, 
international and non-governmental organization partners have been 
better able to plan for the effects of winter this year. In Syria, as 
part of its year-round efforts to provide seasonally appropriate 
emergency relief, the USG provided supplies such as thermal blankets, 
floor coverings, water heaters, warm clothing--including winter coats, 
scarves, hats, socks and boots--and additional plastic sheeting for 
shelter to prepare Syrians for the cold-weather of winter. Since 
October 2014, USG partners have reached over 970,000 Syrians with cold-
weather relief commodities.
    In Jordan, the United Nations High Commissioner for Refugees 
(UNHCR) and Government of Jordan preparations for winter began months 
ago with cash programs for heaters and gas cylinders, blankets, and 
shelter reinforcements for more than 250,000 refugees. In camps, moving 
refugees out of tents and into trailers has been a priority for the 
last year.
    When the first storm struck Jordan in January bringing snow, heavy 
rains, winds, and freezing temperatures, U.N. and non-governmental 
organization partners quickly activated contingency plans, opening 
emergency shelters when necessary, repairing damaged infrastructure, 
and providing gas heaters, blankets, and other supplies. In response to 
the storm that hit in February, partner organizations were able to 
mobilize quickly and ensure families stayed dry without storm 
casualties. The World Food Programme (WFP) ensured that food vouchers 
were topped up before the storm and stores in camps were pre-stocked 
and open. The United Nations International Children's Emergency Fund 
(UNICEF) arranged emergency shelter. The response was a model for good 
planning and preparation with sufficient funding.
    We plan to continue our robust support in fiscal year 2015 and are 
urging other donors, including the Gulf nations, to contribute to these 
emergencies.
    Question. In her recent book ``Thieves of State'', Sarah Chayes 
says this about Afghanistan:

          ``Development resources passed through a corrupt system not 
        only reinforced that system by helping to fund it but also 
        inflamed the feelings of injustice that were driving people 
        toward the insurgency.''

    I think that describes our experience not only in Afghanistan, but 
also in Iraq and much of Africa, Asia, and the former Soviet Union. We 
seem to make the same mistakes time after time. Even the best controls 
do not seem to be enough. Have we learned anything from this? Should 
the people who design and administer these programs be accountable?
    Answer. The Department of State and the United States Agency for 
International Development (USAID) are continuously assessing our 
assistance efforts in Afghanistan to guard against waste, fraud and 
abuse and to ensure our programs achieve intended results. Our 
assistance has achieved significant results in Afghanistan despite the 
challenging environment. Afghanistan has seen historic improvement in 
health, education, electricity generation, government revenues and 
other areas that would not have been possible without our support. In 
some cases we've been able to work directly with the Afghan Government 
to achieve these results, but in many cases we've worked separately 
with the Afghan private sector and civil society. Certainly not all 
programs have been successful; that is to be expected in a tough 
environment like Afghanistan, but we've been vigilant in our monitoring 
of programs and continuously examine programs to ensure they are 
achieving the intended results. We work closely with outside auditors 
and when problems are identified we respond quickly.
    Moreover, over the past 3 years the United States and our 
international donor partners have encouraged the Afghan Government to 
combat corruption proactively and to improve governance by conditioning 
a portion of our assistance portfolio on Afghan progress on specific 
reform deliverables in accordance with the Tokyo Mutual Accountability 
Framework. This approach resulted in a much improved electoral 
framework that made the 2014 presidential election possible as well as 
in the passage of an improved mining law, increased government 
attention to budget transparency, and an improved asset declaration 
process for high-ranking government officials.
    The United States has developed comprehensive mechanisms and 
processes to protect foreign assistance resources in Afghanistan from 
waste and abuse. The U.S. Government employs highly educated and 
experienced program designers with expertise in difficult environments 
such as Afghanistan. From beginning to end, U.S. Government-funded 
programs (whether on-budget or off) take into account the pitfalls 
associated with the corruption endemic in Afghanistan and employ 
multiple mechanisms to mitigate the risk. Our on-budget programs 
specifically work with recipient ministries and governmental entities 
to strengthen their capacity to manage and track monetary flows so as 
to create internal mechanisms for combating corruption. Ultimately, 
there is no substitute for Afghans taking responsibility for their own 
development challenges and the hands-on experience that on-budget 
programs provide establishes a solid foundation for more effective 
Afghan use of resources and ultimately for improved sustainability of 
our efforts.
    We constantly review our programs and make adjustments based on 
lessons learned. One such modification is the launch of a new multi-
tiered monitoring approach to ensure we have sufficient information 
necessary for reviewing and evaluating our assistance programs. This 
approach collects information from various sources including direct 
observation by U.S. Government officials, reports from government, 
civil society, and implementing partners, third party assessments and 
audits, enhanced communication with recipients and local leaders, and 
the use of independent monitors. In addition, we have put in place a 
special team in Kabul to collect and organize all this additional 
monitoring information to help oversight officials make more informed 
decisions.
    We work closely with our internal inspectors general and 
independent auditors including the Special Inspector General for 
Afghanistan Reconstruction (SIGAR). For instance, we are currently 
working closely with SIGAR on a lessons learned project that promises 
to inform the design of future programming.
    Question. I am very concerned that U.S. citizens working, studying, 
and traveling overseas, including members of our military, are at risk 
because the United States has not lived up to its obligations under the 
Vienna Convention on Consular Relations. That convention guarantees 
that when an American is arrested in another country the U.S. consulate 
will be notified and can provide help. Unfortunately, even though we 
are a required by the Convention, we have not provided the same 
guarantee to citizens from other countries arrested here. I have tried 
for 5 years to pass the Consular Notification Compliance Act to fix 
this problem.
    That bill has been supported by the Departments of Defense, 
Justice, State, and Homeland Security. Your fiscal year 2016 request 
includes the same language as that bill. Is passing this legislation a 
priority for the administration? What difference does it make if we 
don't pass it?
    Answer. Passing the Consular Notification Compliance Act is a 
priority for the administration. Compliance with our legal obligations 
related to consular notification and access ensures our ability to 
protect U.S. citizens traveling and working abroad, including members 
of our Armed Forces and their families.
    The United States is severely hampered in our efforts to ensure 
that other countries respect their obligations under the Vienna 
Convention on Consular Relations when U.S. citizens are detained abroad 
if we do not respect our own obligations when foreign nationals are 
detained in the United States. Where one country, especially an 
influential a country like the United States, is seen to take a 
cavalier approach toward its legal obligations, other countries can be 
expected to take a cavalier approach to theirs, particularly when U.S. 
citizens are involved.
    The protection of U.S. citizens will always be a priority, and it 
is important that we can continue to rely on the protections of the 
Vienna Convention so that our consular officers can continue to provide 
essential consular assistance to our citizens abroad. In fiscal year 
2014, our consular officers conducted more than 8,685 visits with U.S. 
citizens, who were arrested overseas. Our consular officers make a real 
difference in the lives of thousands more U.S. citizens detained abroad 
each year across the globe by ensuring that they have adequate food, 
medical care, access to an attorney, and protection from abuse and 
mistreatment while in prison. Passage of the Consular Notification and 
Compliance Act is essential to safeguarding our ability to provide 
these services to U.S. citizens detained abroad.
    Question. The administration has proposed a new Authorization for 
the Use of Military Force (AUMF) against ISIL for the next 3 years. It 
does not limit the battlefield to Syria and Iraq, ISIL's strongholds, 
and it would permit attacks against persons or forces ``associated'' 
with ISIL. While it would repeal the 2002 law Congress passed for the 
invasion of Iraq, it would leave intact the 2001 authorization for the 
war in Afghanistan, which the administration has relied on to conduct 
attacks that went well beyond the scope of what Congress authorized. In 
short, the new AUMF, coupled with the 2001 authorization, would provide 
the White House with almost unrestricted authority engage in attacks 
around the globe as long as it can justify a connection, however 
tenuous, to ISIL. At least that is how I see it. Am I wrong?
    Answer. The administration's proposed AUMF reflects bipartisan 
input and is specifically tailored to address the threat posed by ISIL. 
The proposal contains reasonable limitations and would provide the 
President with the flexibility he needs to successfully pursue the 
armed conflict against ISIL.
    The proposed AUMF would grant the President the authority to use 
``necessary and appropriate'' force against ISIL or associated persons 
or forces. In order to determine that a group is an associated force 
under the proposed AUMF, we must assess not only that the group is in 
hostilities against the United States or its coalition partners, but 
also that the group has entered the fight for, on behalf of, or 
alongside, ISIL (or any closely related successor entity).
    This is not an open-ended inquiry, nor does it otherwise provide 
the administration with unlimited flexibility to define the scope of 
the AUMF. A group that simply embraces the ideology of ISIL would not 
be an ``associated force,'' nor would every group or individual that 
commits terrorist acts.
    Moreover, as the administration has made clear in the context of 
our counterterrorism operations, it is not the case that ``we can use 
military force whenever we want, wherever we want. International legal 
principles, including respect for a state's sovereignty and the laws of 
war, impose important constraints on our ability to act unilaterally--
and on the way in which we can use force--in foreign territories.''
    Question. Can you provide examples of what the Department is doing 
to encourage foreign governments to hold individuals who have committed 
gross violations of human rights accountable, in accordance with the 
Leahy law?
    Answer. The Department has provided guidance to all diplomatic 
posts that host governments are to be notified when the U.S. is 
withholding assistance from a unit due to credible information that 
such unit has been implicated in a gross violation of human rights. In 
February 2015, the Department and the Secretary of Defense approved a 
joint State--the Department of Defense (DOD) policy that establishes a 
process for deciding whether a foreign government has taken steps 
sufficient to allow a security force unit credibly implicated in a 
gross violation of human rights to regain eligibility to receive 
assistance. The aim is to create an incentive to bring to justice those 
who have committed abuses. Under the law, the Department is to the 
maximum extent practicable, to offer assistance in bringing those 
responsible to justice. Depending upon the type of unit involved, the 
U.S. military, the Department of State or the Department of Justice may 
be in a position to provide concrete assistance in specific cases. Many 
of the Department's foreign assistance programs already incorporate 
measures to improve transparency and accountability for security sector 
institutions, and the Department is committed to providing such 
targeted assistance where appropriate. We are working to make more 
systematic the range of assistance options available in these 
circumstances.
    Over the last several years, Department officers at posts and in 
Washington have collaborated on cases to develop several successful 
country-specific courses of action to encourage host governments to 
bring those responsible for certain gross violations of human rights to 
justice. We can provide details of these cases in a classified setting.
    Question. What is the Department doing to help the Government of 
Iraq address sectarian and ethnic tensions, an issue which you have 
acknowledged helped pave the way for ISIL's quick advances?
    Answer. We have stressed repeatedly that the fight against the 
Islamic State of Iraq and the Levant (ISIL) in Iraq cannot be based 
solely on military efforts, but rather must focus on rooting out the 
conditions and policies which allowed such extremism to foment. We are 
focused on supporting the Government of Iraq to govern in an inclusive 
manner, one that would address the longstanding grievances of religious 
and ethnic components which have contributed to the current crisis.
    President Obama linked U.S. airstrikes and kinetic action to halt 
ISIL's advancement into Iraq in August on forward movement in Iraq's 
democratic process, aided by the selection of new Prime Minister Haider 
al-Abadi, who has committed, through words and actions, to reform the 
policies of his predecessor and govern in an inclusive manner. In his 
first 6 months in office, Prime Minister Abadi's government has made 
significant strides in improving governance as outlined in Iraq's 
National Program for reform and reconciliation. Recently, on February 
3, Iraq's Council of Ministers approved two key pieces of draft reform 
legislation with significant implications for national reconciliation 
now being reviewed by parliament:
          1. A revision of the country's de-Baathification law; and
          2. A restructuring of Iraq's Security Forces (ISF) to 
        integrate local-community volunteers, including Sunni tribal 
        fighters, into provincially based ``National Guard'' (NG) 
        units.
    The Government of Iraq (GOI) has sought our assistance in 
developing the National Guard concept based on U.S. experience and our 
policy and military advisors continue to play an active role in helping 
the Iraqis to develop their security infrastructure in a manner which 
would facilitate the inclusion of all religious and ethnic groups into 
the counter-ISIL campaign. We also continue to meet with Iraqi leaders 
and tribal sheikhs to ensure that all parties have a seat at the table. 
A senior delegation of Sunni Sheikhs from Anbar Province traveled to 
the U.S. just weeks ago, meeting with Vice President Biden and senior 
State and DOD officials and we stressed the importance of all groups 
working in coordination on the counter-ISIL strategy.
    On February 10, Iraqi President Massum, a Kurd, signed Iraq's new 
budget law that included an important agreement on energy exports and 
revenue sharing between the central government and Kurdistan Regional 
Government (KRG). The Department played a significant role in brokering 
the agreement between the central government and KRG officials to reach 
the deal and continues to serve as a key interlocutor on reconciliation 
matters between both parties. Our commitment to Iraq's national unity 
has helped fostered better coordination between the KRG and central 
government on the current military campaign against ISIL and it is 
critical that we continue to work through the central government to 
build this trust.
    Additionally, Prime Minister Abadi has issued a number of executive 
orders to initiate other critical reforms, such as devolving authority 
over certain public services to local communities and expediting the 
release of prisoners held without charge, to the extent possible within 
his constitutional authority as Prime Minister. As part of our strategy 
in the counter-ISIL campaign, we continue to work aggressively to 
pressure the GOI to enact further reforms to unify Iraqis and promote 
human rights and the rule of law. The State Department's Bureau for 
Democracy, Human Rights, and Labor (DRL), Embassy Baghdad through the 
Ambassador's Fund, and USAID continue to carry out targeted 
interventions to promote reconciliation, the protection of minority 
communities, and respect for human rights. Notably, we are targeting 
nearly $10 million in fiscal year 2014 DRL funding for programs which 
include activities to address human rights and rule of law as well as 
atrocities prevention and accountability issues--key areas for building 
reconciliation. Separately, we have contributed over $208 million in 
humanitarian assistance for Iraq in fiscal year 2014 targeting at 
displaced and vulnerable communities.
    Our Ambassador in Baghdad engages regularly with the senior-most 
officials in the Iraqi Government pressing for additional concessions 
on Sunni political grievances, the clamping down of human rights abuses 
by unregulated militias, and the further integration of Sunnis into the 
armed forces. We continue to believe that addressing the root causes of 
this conflict and supporting the GOI's effort to promote national 
reconciliation will be the only effective method to cement battlefield 
gains against ISIL.
    Question. In an answer to a question about the administration's 
claim last fall that Yemen was an example of where the President's 
counterterrorism strategy has been successful, you defended that 
characterization because the U.S. was able to use Yemen as a base from 
which to fight al-Qaeda without getting mired in Yemen's domestic 
situation. You also said, ``we can't control the quality of 
governance.'' Our engagement with partner countries against terrorism 
needs to be more than using their territory as a military base. If a 
partner has a poor governance record and lacks political will to fix 
it, we should try to find a more sustainable way to combat terrorism in 
that region so our efforts do not suffer when the government collapses, 
like happened in Yemen. Do you agree?
    Answer. We approach counterterrorism (CT) in Yemen and elsewhere 
within the context of our overarching political objectives and the 
realities on the ground. Among these objectives, and central to the 
overarching U.S. counterterrorism strategy, is the development of a 
range of partnerships with governmental and non-governmental entities 
and civil society in key regions to enable sustained counterterrorism 
efforts. To the extent possible, we seek to promote partnerships that 
are rooted in a shared analysis of the threats we face, shared 
commitments to countering terrorism in a holistic fashion, and shared 
dedication to good governance and the rule of law. We seek to develop 
partnerships with countries that have the political will and capacities 
to counter terrorism within their borders and in their region as part 
of a global coalition against violent extremism that encourages our 
partners to take an active role in combating a threat that we all 
share.
    We recognize that successful, sustainable efforts to counter 
terrorism require strong governance and the rule of law. For this 
reason, a cornerstone of our CT partnership strategy is the development 
of rule-of-law institutions and practices that will lead our partners 
to pursue transparent, lawful counterterrorism efforts. Our partnership 
model also includes civil society and religious community actors who 
can work with us disseminating messages to counter efforts by violent 
extremists to recruit new members. These same civil society partners 
can help drive reform efforts aimed at strengthening governance.
    Our partnership efforts have had an impact, even in the face of 
chaotic political environments. In Yemen, we supported local forces who 
could take the fight to al-Qaeda in the Arabian Peninsula (AQAP), and 
our Yemeni partners succeeded in applying pressure on AQAP in that 
context. Yemen's fragile central government and forces within Yemen 
that threaten to disrupt the transition process, however, continue to 
pose a challenge to our ongoing CT efforts. As we continue to look for 
avenues to support CT in Yemen, we are pursuing broad diplomatic 
engagement to encourage a peaceful, political resolution that adheres 
to the Gulf Cooperation Council Initiative and National Dialogue 
Conference outcomes and enables Yemen to move forward with its 
political transition. We continue to support the U.N.-mediated 
negotiations that are bringing together all parties, including 
President Hadi, to find a way out of Yemen's political crisis while at 
the same time maintaining our CT efforts against AQAP.
    Question. The President's request includes a proposal to establish 
an independent grantee organization to carry out broadcasts to Latin 
America and the Caribbean, including Cuba. I understand that the 
Broadcasting Board of Governors (BBGs) envisions that this new grantee 
would consist of Radio and Television Marti and VOA's Latin America 
Division. We have not received the BBG's budget justification so I do 
not know the reasoning behind the proposal.
    Since as Secretary of State you are a BBG board member, can you 
explain why this is being proposed and how this will improve broadcasts 
to Latin America and Cuba?
    Answer. The fiscal year 2016 request proposes the authority for the 
Broadcasting Board of Governors to establish and supervise grants to an 
independent grantee organization to carry out media activities to Latin 
America and the Caribbean, including Cuba. The proposal is intended to 
improve the quality, reach, and effectiveness of broadcasting 
operations in Latin America and the Caribbean by giving the grantee 
organization the ability to recruit and retain staff based on the media 
environment and expertise needed in the region. This approach is 
consistent with international media operations in other regions, 
including Radio Free Europe/Radio Liberty and the Middle East 
Broadcasting Network. The administration is firmly committed to 
providing unbiased, objective information to all Cubans through 
international broadcasting and digital media.
                                 ______
                                 
           Question Submitted by Senator Barbara A. Mikulski
    Question. Secretary Kerry, the President's Emergency Plan for AIDS 
Relief (PEPFAR) has been regarded as one of the most successful global 
health programs in history. It has allowed for the extensive expansion 
of HIV treatment, and has undoubtedly saved countless lives.
    Unfortunately, the pace of new treatment enrollments for PEPFAR 
declined for the first time ever in 2014. Despite this, the President 
has proposed level-funding for PEPFAR in 2016. I am concerned that this 
level of funding will set the U.S. back in its goal of helping 
establish an AIDS-free generation.
    (a) Given the steep decline in new treatment enrollments for 
PEPFAR, what is the President's justification for these cuts and for 
continued level-funding for PEPFAR?
    (b) Do you believe the goals the U.S. has established to help 
combat AIDS worldwide will be accomplished with these funding levels?
    Answer. (a) The Obama Administration's commitment to achieving an 
AIDS-free generation remains strong. The fiscal year 2016 request for 
HIV/AIDS programs under PEPFAR is $5.7 billion, a decrease of $244 
million (4 percent) from both the fiscal year 2014 Actual and fiscal 
year 2015 Estimate levels. This includes: $1.1 billion for the U.S. 
contribution to the Global Fund to Fight AIDS, Tuberculosis and 
Malaria, fulfilling President Obama's commitment to the Fund's fourth 
replenishment (2014-2016); and $4.6 billion for bilateral HIV/AIDS 
programs, a 7 percent increase over fiscal year 2014, including $300 
million for a new Impact Fund, which is on par with the fiscal year 
2015 Estimate. The new Impact Fund resources will be awarded to PEPFAR-
supported countries that take concrete steps to use data for 
decisionmaking and realign their national HIV/AIDS programs 
programmatically and geographically to accelerate progress toward HIV/
AIDS epidemic control, with resources focused on areas with a high 
burden of HIV/AIDS. If pursued aggressively, this evidence-based 
approach will position a number of countries to reach epidemic control 
by the end of fiscal year 2017.
    (b) PEPFAR is shifting the way it does business to help reach the 
Joint United Nations Programme on HIV/AIDS' (UNAIDS) ambitious 90-90-90 
global target: 90 percent of people with HIV diagnosed, 90 percent of 
them on anti-retroviral treatment (ART), and 90 percent of those on 
treatment virally suppressed by 2020. Achieving the UNAIDS global goals 
of 90-90-90 by 2020 requires a shared responsibility by partner 
countries, PEPFAR, and the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria (Global Fund). To have the greatest impact and to accelerate 
progress toward an AIDS-free generation, PEPFAR can best contribute to 
achieving the UNAIDS targets of 90-90-90 and controlling the epidemic 
by employing a data-driven approach that strategically focuses 
resources on geographic areas, at the sub-national level and 
populations that have the highest burden of HIV/AIDS.
    In fiscal year 2016, PEPFAR's efforts will be driven by five action 
agendas: Impact, Efficiency, Sustainability, Partnership, and Human 
Rights. These agendas--combined with PEPFAR's overriding commitment to 
transparency, oversight, and accountability--will continue to guide the 
initiative's work. PEPFAR will focus on doing the right things, in the 
right places, and at the right time to control the epidemic and, 
ultimately, achieve an AIDS-free generation. This will entail using the 
best available data to direct PEPFAR resources toward bringing 
evidence-based interventions (e.g., ART, prevention of mother-to-child 
transmission [PMTCT], voluntary medical male circumcision [VMMC], and 
condoms) to scale for populations at greatest risk and in geographic 
areas of greatest HIV incidence. PEPFAR will prioritize reaching scale 
quickly and with quality because an expanding HIV epidemic is not 
financially sustainable.
    Vulnerable populations, including children, adolescents and young 
women, as well as key populations will remain a priority for PEPFAR's 
investment. PEPFAR will accelerate efforts to prevent HIV infections 
and ensure treatment among those who need it most. These efforts will 
be data-driven from the national level down to the site level to best 
guide programmatic decisionmaking and to solidify sustainability and 
quality. Access to viral load testing will be essential so everyone can 
ensure they have effective treatment. Transparency and public access to 
data will allow for mutual accountability and enables data-driven 
decisionmaking, allowing PEPFAR to spend every U.S. dollar effectively 
to achieve the greatest impact --an AIDS-free generation.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question. Extremist groups in more than a dozen countries have 
declared allegiance to ISIL and its affiliates in Libya beheaded 21 
Coptic Christians last week. Moreover, thousands of foreign fighters 
continue to travel to Syria and Iraq and ISIL's online propaganda 
threatens to inspire lone-wolf attacks in countries far from the Middle 
East. Given these recent developments, how has our strategy against 
ISIL changed since airstrikes began?
    Answer. The strategy to combat ISIL and related groups outside of 
Iraq and Syria rests on the Coalition efforts within Iraq and Syria. In 
Iraq, the Coalition is helping Iraqi Security Forces reclaim territory 
held by ISIL, suppressing ISIL's ability to conduct large-scale 
operations, degrading its command, control and logistics capabilities, 
and building the political foundations for long-term security. In 
Syria, more than 1200 Coalition airstrikes against ISIL targets have 
destroyed ISIL vehicles and buildings, have degraded its economic 
infrastructure, and have defended local forces contesting ISIL 
advances, such as in Kobani. Our efforts in Syria will deny ISIL safe 
haven while creating the conditions for a stable inclusive Syria that 
fulfills Syrian's aspirations for freedom and dignity. Our counter-ISIL 
strategy in both countries will inhibit the group's capability to 
operate globally and expand. In fact, since September 2014, Coalition 
efforts have forced ISIL to change its tactics and it is suffering 
significant losses, reducing its morale and challenging its ongoing 
propaganda campaigns.
    Beyond Iraq and Syria, the international community and the Global 
Coalition continue to diminish ISIL's capacity to generate revenues and 
fund its operations, cut off the flow of foreign terrorist fighters 
transiting to and from Iraq and Syria, and expose its empty and 
destructive ideology. Starving any new ISIL-related groups of funds and 
manpower mitigates the risk of attacks against our international 
partners. Over the past 6 months, the international community has been 
increasing its efforts to expose the true nature of ISIL to reduce its 
draw to foreign fighters and other extremist groups. Similarly, 
international organizations and local communities across the globe are 
also increasingly working to minimize the influence of this hateful 
rhetoric and insulate potentially vulnerable sectors of populations. 
Following meetings with Coalition members which Secretary Kerry chaired 
in December and January, Coalition working groups are now coordinating 
combined efforts to address ISIL's finances, foreign fighter draw, and 
messaging and thereby diminish ISIL's global potential.
    As these ISIL-related groups have emerged, the United State has 
also been working closely with our partners to reduce the safe-havens 
that many of these groups exploit, build effective governance and 
security, strengthen the capacity of our partners to deal with these 
threats internally, enhance economic opportunity, and disrupt any 
plots. The United States continues to emphasize the importance of a 
multi-faceted, multi-national approach to addressing ISIL and other 
extremist groups.
    Question. Did President Obama's Countering Violent Extremist 
conference reach any conclusions applicable to our anti-ISIL campaign?
    Answer. On February 19, the State Department hosted the ministerial 
component of the WH Summit to Counter Violent Extremism. It included 
more than 60 governments, civil society representatives from more than 
50 countries, more than two dozen private sector leaders, Secretaries 
General from the U.N. and half-a-dozen regional organizations, the 
World Bank, and the World Economic Forum. The conference highlighted 
the role that communities, civil society, and the private sector can 
play in addressing the broad drivers of violent extremism. The programs 
and initiatives catalyzed by this multi-stakeholder global partnership 
against violent extremism will certainly pay dividends both in the 
context of countering ISIL and preventing future terrorist threats. The 
Summit also set in motion a process that will culminate with leaders 
meeting on the eight-pillar action agenda that was outlined by 
President Obama and others during the meeting. The Summit's action 
agenda calls for governments, multilateral bodies, civil society, and 
the private sector to take concrete steps to, inter alia, (1) promote 
local research and information on the drivers of violent extremism so 
we can better target interventions to counter it and prevent its 
spread; (2) strengthen the role of civil society, in particular youth 
and women; (3) use strategic messaging, including social media, to 
counter violent extremist messaging; (4) elevate the role of credible 
and authentic voices that support tolerance and non-violence and more 
broadly promote educational initiatives to build resilience against 
extremist recruiting; (5) prevent radicalization in prisons and 
rehabilitate and reintegrate violent extremists; (6) identify and fund 
political and economic opportunities for communities that are 
vulnerable to radicalization and recruitment to violence; (7) 
strengthen community-police and community-security force relations; and 
(8) provide development assistance and stabilization efforts. 
Throughout the course of the day, participants offered a range of 
recommendations on steps government, civil society, the private sector, 
and the U.N. and regional organizations can take to advance this action 
agenda that will make further inroads against the violent extremist 
threat both in the context of addressing the immediate threats and 
preventing future ISILs from emerging.
    Question. What political, security, and governance initiatives will 
we pursue to protect reclaimed territory, reduce corruption, and ensure 
more transparent and effective policies in Baghdad if our military 
effort successfully ``degrades and destroys'' ISIL?
    Answer. In September 2014, Iraq's parliament approved Prime 
Minister Haydar al-Abadi's National Program and Political Agreement for 
National Unity, which lay out a roadmap for political and security 
reforms needed to promote reconciliation and ensure more transparent, 
effective, and inclusive governance. Central to that roadmap is a 
legislative agenda focused on building ``functional Federalism''--
devolving more governance, including budgetary authority and oversight 
of public services, to provincial and local governments. Iraqi leaders 
consider decentralization a pillar of their strategy to improve 
governance and stabilize the country. For example, the Iraqi parliament 
is currently considering legislation establishing provincially based 
``National Guard'' units that can secure local communities liberated 
from ISIL while operating in close coordination with Iraq's national 
command authorities. Long sought by Iraq's various ethno-religious 
communities, such devolutionary reforms will be essential to ensuring 
that stabilization and reconstruction of local communities liberated 
from ISIL will be conducted in a manner that is more inclusive and 
responsive to local needs and accountable to local residents.
    The Department of State is also working with its inter-agency 
partners to calibrate our assistance programs to complement these 
reforms--ranging from those aimed at improving efficiency and 
transparency in public services to advising and equipping security 
forces at the local, provincial and central governmental levels--to 
pursue U.S. goals in Iraq. For instance, the United States Agency for 
International Development (USAID) is providing technical assistance to 
the Iraqi Government to decentralize certain functions from the central 
government to provincial governments in order to improve the delivery 
of essential services.
    While authorities in Iraq must be responsible for post-liberation 
reconstruction, the United States will remain actively engaged in 
reinforcing the Government of Iraq's implementation of the National 
Program and other reform and stabilization initiatives. For example, we 
and our international partners are evaluating options for supporting 
Prime Minister Abadi's request to create an international assistance 
fund to augment Iraq's own stabilization efforts. Following meetings in 
Berlin and London earlier this year, we and our Coalition partners are 
forming working groups to coordinate international contributions 
effectively and to ensure those contributions build upon, rather than 
supplant, the Government of Iraq's responsibility to rebuild its 
country.
    Question. A final deal with Iran will reportedly enforce strict 
controls for 10 years and then gradually lift restrictions over the 
last 5 years of an agreement, after which Iran may be privy to the same 
restrictions as other Nuclear Non-Proliferation Treaty (NPT) states. 
How will the U.S. ensure Tehran does not restart its military nuclear 
program? What factors will change Iran's negotiating calculus and lead 
it to commit to a deal with the United States and the international 
community?
    Answer. As part of the ongoing P5+1 negotiations with Iran, we seek 
to achieve a long-term comprehensive deal to the Iranian nuclear issue. 
Our objectives include ensuring Iran's compliance with the Nuclear Non-
Proliferation Treaty (NPT), preventing it from acquiring a nuclear 
weapon, and ensuring that its nuclear program is used for exclusively 
peaceful purposes. Our negotiators and technical experts continue to 
work on a comprehensive package that will best achieve those goals.
    Following successful implementation of the comprehensive deal for 
its full duration, Iran would remain bound by its international 
nonproliferation obligations, including the NPT, its International 
Atomic Energy Agency (IAEA) safeguards agreement, and the Additional 
Protocol (AP). In particular, the deal would require Iran to bring into 
force, and provisionally apply pending entry into force, the AP, which 
Iran is not currently implementing. The AP is an essential tool for the 
IAEA to have the enhanced access to information and facilities needed 
to detect undeclared nuclear activities in Iran.
    Verification measures required by Iran's safeguards agreement and 
the AP would continue after the deal is completed, and we would be 
prepared to respond to any future Iranian non-compliance with its 
obligations. Furthermore, we believe the additional insights we would 
gain into Iran's nuclear program from the enhanced verification and 
monitoring measures under a comprehensive deal would better enable us 
to verify Iran's future compliance with its international nuclear 
obligations in the longer term.
    Most importantly, should Iran not comply with its international 
non-proliferation obligations or provide continued access necessary for 
verification after the conclusion of this deal, we would retain all of 
the options for responding to that situation as we do today, including 
aggressive implementation of sanctions as well as the use of military 
force.
                              peacekeeping
    Question. The fiscal year 2016 request proposes a series of 
security initiatives through the peacekeeping accounts, the Security 
and Governance Initiative (SGI), the African Union Rapid Response 
Force, and the newly formed African Peacekeeping Rapid Response 
Partnership (APRRP). Most notably, the request for the new APRRP 
program requests $110 million. In 2015 we will look to support 
stability and transitions in Central African Republic, South Sudan, and 
Democratic Republic of Congo. How do the new security initiatives such 
as APRRP and SGI dovetail with our existing peacekeeping and security 
initiatives in Africa?
    Answer. SGI will determine focal areas for improved security sector 
governance and institutional performance with the partner government. 
While SGI could complement existing U.S. Government (USG) programs, it 
is intended to target a different problem set than is currently 
addressed by security assistance activities. SGI is fundamentally about 
governance--to assist our African partners in improving the oversight, 
management, and accountability of the security sector to more 
efficiently and effectively address shared security challenges.
    The African Partnership for Rapid Response and Peacekeeping will 
develop the capabilities of partner nations to rapidly deploy forces in 
support of an African Union (AU) and/or UN-mandated operation. APRRP 
will inject targeted resources to address specific gaps in peacekeeping 
rapid response capabilities in the selected partner countries. With 
this specific goal in mind, APRRP works with a set of proven partners 
to emphasize training, and provision and maintenance of equipment to 
enable rapid deployment and sustainment.
    APRRP assistance will complement, but not replace, existing peace 
operations capacity building programs, such as the Global Peace 
Operations Initiative (GPOI), the Africa Contingency Operations 
Training and Assistance (ACOTA) program (which is funded predominantly 
through GPOI), and the International Police Peacekeeping Operations 
Support (IPPOS) program. GPOI and IPPOS emphasize broader, global 
capacity building efforts focused on addressing a wider range of 
international peace operations shortfalls and strengthening the 
effectiveness of U.N. and regional missions. APPRP partners have and 
may continue to receive training through these other programs as well.
                       maternal and child health
    Question. Each year approximately 290,000 women die in pregnancy 
and childbirth and 2.9 million newborns die in their first month of 
life. Last summer, the United States Agency for International 
Development (USAID) released its ``Acting on the Call'' action plan for 
ending preventable maternal and child deaths. How does the 
administration's new budget provide the resources necessary to 
undertake the priority actions to save mothers and children in fragile 
states and areas of nature or man-made disasters? How is USAID now 
using data and evidence-driven decisionmaking to increase the 
effectiveness of maternal and child health programming in priority 
countries? Does the budget support continued development of a vaccine?
    Answer. The fiscal year 2016 budget request provides over $2.0 
billion to support USAID's effort in the global goal of Ending 
Preventable Child and Maternal Deaths by 2035. This effort is a 
continuation of the global movement started at the Child Survival Call 
to Action in June 2012, and the Acting on the Call event in June 2014.
    To date, more than 178 governments, 220 faith-based groups, and 230 
other civil society organizations have signed the pledge to end 
preventable child and maternal deaths. Twenty governments have launched 
A Promise Renewed since the 2012 Call to Action and have developed 
national plans to accelerate progress in reducing child and maternal 
mortality, setting clear priorities and costs. Many of these countries 
have developed tools to increase accountability and have developed 
scorecards to systematically track outcomes and implementation of the 
plans.
    USAID has identified the investments that will have the greatest 
impact, and will enable us to work together with partner countries, 
other donors, and multilateral organizations to save the lives of up to 
15 million children and nearly 600,000 women by 2020 in 24 focus 
countries.
    Over the last 2 years, USAID has undergone a rigorous review of 
maternal and child health funding to identify inefficiencies and 
accelerate progress. USAID has aligned its resources in 24 priority 
countries primarily in sub-Saharan Africa and South Asia, which account 
for 70 percent of maternal and child deaths and half of the unmet need 
for family planning. This budget reflects life-saving interventions 
that have the highest impact, while taking into account work in fragile 
states and areas of nature or man-made disasters.
    We are also building on our long-standing support of strengthening 
immunization programs, in line with the administration's pledge of $1 
billion to Gavi, the Vaccine Alliance, over 4 years (2015-2018). 
Further, USAID has been a participant in the development of the global 
Every Newborn Action Plan, which was launched at a major international 
forum in South Africa last year. It is now being rolled out and 
endorsed by governments around the world.
    In parallel, we worked with the World Health Organization and other 
partners to establish a global target for maternal mortality reduction 
of 70 deaths per 100,000 live births by 2030, and USAID released its 
Maternal Health Vision for Action to lay out how we will contribute to 
this goal and drive down maternal mortality to 50 deaths per 100,000 
live births by 2035.
    USAID's work is driven by voluntarism and informed choice. As the 
largest bilateral donor to family planning in the world, USAID 
continues to work with the global community to reach an additional 120 
million women and girls with family planning information, commodities 
and services by 2020. Family planning enables women to practice healthy 
timing and spacing of pregnancies, which could lower child deaths by 25 
percent and cut maternal deaths by one-third. In 2013, 8.4 million 
additional women and girls used modern contraception in developing 
countries.
    According to the World Health Organization's most recent malaria 
report (2014), an estimated 4.3 million lives have been saved as a 
result of the scale-up of malaria interventions since 2000. There was 
an almost 60 percent decline in malaria deaths in children under age 
five during this time, with most of that improvement occurring since 
2007. The financial and technical contributions made by the U.S. 
Government--through the U.S. President's Malaria Initiative (PMI) and 
investments in the Global Fund to Fight AIDS, Tuberculosis and Malaria, 
as well as those of host country governments and other partners--are a 
major catalyst in the remarkable progress that has been made to save 
children's lives while also building countries' capacity to fight 
malaria.
    In 2014, USAID released a Multi-Sectoral Nutrition Strategy, which 
is aligned with the 2025 World Health Assembly Nutrition Targets and 
reaffirms both USAID's commitment to global nutrition, and our role as 
a major international partner in the fight against malnutrition. With 
this strategy, USAID aims to decrease chronic malnutrition, measured by 
stunting, by 20 percent through the U.S. Government's Feed the Future 
and Global Health initiatives, the Office of Food for Peace development 
programs, resilience efforts, and other nutrition investments.
    Question. The President's Emergency Plan for AIDS Relief is at a 
pivotal moment, as continued scientific advances and lessons learned in 
the field make possible continued declines in new infections and leads 
to epidemic control. (In addition, the new DREAMs Partnership aims to 
reduce new infections among girls and women aged 15-24 by 15 percent in 
hard hit areas across 10 countries.)
    (a)  How does the funding requested in this budget meet the stated 
goal of working towards an AIDS-free generation?
    (b)  How is the administration using new data tools to direct 
funding in transparent and efficient ways?
    (c)   How will the program support those living with HIV currently 
served by programs funded through PEPFAR in rural or more remote 
locations?
    Answer. (a) The Obama Administration's commitment to achieving an 
AIDS-free generation remains strong. With this budget, the United 
States, through PEPFAR, will remain the world's largest contributor to 
the global HIV/AIDS response. The fiscal year 2016 request for HIV/AIDS 
programming under PEPFAR is $5.7 billion, a decrease of $244 million (4 
percent) from both the fiscal year 2014 actual and fiscal year 2015 
estimate levels. This includes: $1.1 billion for the U.S. contribution 
to the Global Fund to Fight AIDS, Tuberculosis and Malaria, fulfilling 
President Obama's commitment to the Fund's fourth replenishment (2014-
2016); and $4.6 billion for bilateral HIV/AIDS programs, including $300 
million for a new Impact Fund, a 7 percent increase over fiscal year 
2014 and on par with the fiscal year 2015 estimate. The new Impact Fund 
will provide resources to PEPFAR-supported countries that take concrete 
steps to use data for decisionmaking and realign their national HIV/
AIDS programs programmatically and geographically to accelerate 
progress toward HIV/AIDS epidemic control, with resources focused on 
areas with a high burden of HIV/AIDS. If pursued aggressively, this 
evidence-based approach will position a number of countries to reach 
epidemic control by the end of fiscal year 2017.
    PEPFAR is shifting the way it does business to help reach the Joint 
United Nations Programme on HIV/AIDS' (UNAIDS) ambitious 90-90-90 
global target: 90 percent of people with HIV diagnosed, 90 percent of 
them on anti-retroviral treatment (ART), and 90 percent of those on 
treatment virally suppressed by 2020. Achieving the UNAIDS global goals 
of 90-90-90 by 2020 requires a shared responsibility by partner 
countries, PEPFAR, and the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria (Global Fund). To have the greatest impact and to accelerate 
progress toward and AIDS-free generation, PEPFAR can best contribute to 
achieving the UNAIDS targets of 90-90-90 and controlling the epidemic 
by employing a data-driven approach that strategically focuses 
resources on geographic areas, at the sub-national level and 
populations that have the highest burden of HIV/AIDS.
    In fiscal year 2016, PEPFAR's efforts will be driven by five action 
agendas: Impact, Efficiency, Sustainability, Partnership, and Human 
Rights. These agendas--combined with PEPFAR's overriding commitment to 
transparency, accountability and impact--will continue to guide the 
initiative's work.
    PEPFAR will focus on doing the right things, in the right places, 
and at the right time to control the HIV/AIDS epidemic and, ultimately, 
achieve an AIDS-free generation. This will entail using the best 
available data to direct PEPFAR resources toward bringing evidence-
based interventions (e.g., ART, prevention of mother-to-child 
transmission (PMTCT), voluntary medical male circumcision (VMMC), and 
condoms) to scale for populations at greatest risk and in geographic 
areas of greatest HIV incidence. PEPFAR will prioritize reaching scale 
quickly and with quality because an expanding HIV epidemic is not 
financially sustainable.
    PEPFAR's DREAMS initiative, announced on December 1, 2014, focuses 
specifically on preventing HIV infection in 15 to 24-year-old women--a 
population that represents nearly 7,000 new infections per week. It is 
a $210 million initiative in up to 10 countries, and the goal of the 
partnership is to help girls develop into Determined, Resilient, 
Empowered, AIDS-free, Mentored and Safe (DREAMS) women. It will provide 
a core package of evidence-based interventions that have successfully 
addressed HIV risk behaviors, HIV transmission, and gender-based 
violence. Evidence shows that girls can reach their full potential and 
remain HIV-free when they have access to these interventions.
    (b) PEPFAR is using site level quality and results data together 
with granular epidemiologic and expenditure data to inform where PEPFAR 
resources should be allocated to have the greatest impact. Indicators 
are focused on core combination prevention activities which have 
demonstrated population-level impact as well as supportive services 
indicators. The combination of strengthened monitoring indicators, 
information regarding site and service delivery quality, site-specific 
program results, and a more detailed understanding of the geographic 
distribution of the burden of disease allows PEPFAR to identify exactly 
where the front edge of the epidemic is occurring and where programs 
are most effective in response. This ability, together with PEPFAR 
expenditure data permits realignment of resources to those geographic 
and population centers responsible for the waves of ongoing new 
infections, enhances PEPFAR's efforts to ensure further declines in 
these trends.
    Decisionmaking to support these transformations occurs within 
PEPFAR country teams, in partnership with stake-holders in-country and 
at U.S. Government (USG) headquarter locations. Much of this data will 
be made available publically on the PEPFAR Dashboard Website as an 
unprecedented step toward transparency.
    (c) PEPFAR is strongly committed to focusing our resources where 
the virus is. Data transparency, allowing increased data access and 
oversight, will allow for mutual accountability and innovation so that 
PEPFAR investments can have the greatest impact, while ensuring that 
each U.S. taxpayer dollar is spent effectively. PEPFAR is firmly 
committed to ensuring that all current patients remain on treatment. 
Underlying all of our programming must be a dedication to ensuring 
information and program data are understandable, digestible, and 
actionable. We need to be more nimble making program improvements for 
impact, and we need to act more rapidly based on data.
    PEPFAR works closely with partner governments on their national 
HIV/AIDS responses. The partner governments will continue to provide 
HIV-related services for their citizens with support from PEPFAR. 
PEPFAR will continue support for ART in very low prevalence areas; 
however, we do want to work with partner governments to ensure that 
sites provide the highest quality care, which may require consolidating 
site support or transferring individuals to facilities with higher ART 
care volume, which will ensure not only continued access to HIV care 
and treatment but improved quality of care.
    Question. Does the regionalization of the fight against Boko Haram 
(BH), including the planned 8,000+ soldier multinational force drawn 
from the five regional militaries, represent a real pivot point in 
fighting BH? How can we maximize the opportunity this might present, 
given the existing impediments to enhanced collaboration with Nigeria? 
Are we willing to provide assistance to Nigeria's neighbors that 
exceeds what we currently provide to Nigeria? Have resources to provide 
such assistance been requested in this budget? Given the widely 
reported human rights abuses committed by Nigerian forces in the last 
few years, what messages have we delivered to the Governments of Chad, 
Niger, and Cameroon regarding the need for their militaries to respect 
human rights in the course of counter-Boko Haram operations?
    Answer. In recent weeks, Nigeria and its neighbors have made 
significant progress in establishing an emboldened multinational 
force--the Multinational Joint Task Force (MNJTF)--to fight Boko Haram. 
After productive expert-level meetings last month in Yaounde and 
N'Djamena, the Lake Chad Basin Commission countries (Cameroon, Chad, 
Niger and Nigeria) and Benin on February 27 approved and signed a 
Concept of Operations for the MNJTF. These developments represent 
progress in the region's push to work together to combat Boko Haram.
    On March 3, the AU approved the Concept of Operations, which 
revises the proposed number of troops upward to 10,000, establishes a 
command structure, defines an area of operations, and sets forth a plan 
to obtain U.N. endorsement of the force.
    The United States, together with the United Kingdom and France, 
supports these efforts and has participated in many of the meetings to 
develop the concept for the MNJTF. We are actively considering ways to 
expand our bilateral support to the member countries as well as to the 
MNJTF to support their efforts in the form of equipment, advisory 
support, logistics, and intelligence. Because we have only recently 
received specific requests for assistance, we have not yet determined 
all that we will be able to provide or the form that assistance will 
take. We are currently providing limited individual and unit equipment 
on a rapid response basis and hope to expand this support in the months 
ahead using available funding and authorities. Nigeria, as one of the 
largest recipient of security assistance in sub-Saharan Africa, will 
continue to be a significant recipient of security assistance to combat 
Boko Haram and to confront other security challenges.
    Deputy Secretary Blinken met with the heads of delegation Cameroon, 
Chad, Niger, and Nigeria during the Countering Violent Extremism Summit 
on February 19. During this meeting, Deputy Secretary Blinken confirmed 
U.S. support for the region's efforts to combat Boko Haram while also 
conveying our commitment to human rights and the need to ensure that 
troops engaged against Boko Haram respect human rights and protect 
civilians. He also underscored the importance of following military 
success against the Boko Haram with police and civilian engagement to 
address the underlying conditions so the cycle of violence doesn't 
repeat itself. We have been encouraged by the region's commitment to 
incorporate human rights standards into the MNJTF's Concept of 
Operations and will continue to support their commitment to human 
rights training and standards.
    Question. The nomination of the first Ambassador to Somalia in more 
than two decades is a strong signal of the administration's confidence 
in the current Somali Government and the improved security situation. 
What is your estimated timeline for a potential reopening of Embassy 
Mogadishu? Are resources sufficient to cover all associated costs 
included in this budget? There have been significant military advances 
against al-Shabaab in recent months. What is the administration's plan 
for advancing police reform in Somalia, so that these hard-won gains 
are not relinquished amidst a subsequent security vacuum?
    Answer. The Department of State does not have a permanent 
diplomatic presence in Somalia due to continued instability and the 
high-threat security environment in Mogadishu. The Department will 
consider increasing our presence posture, as security conditions 
permit. U.S. diplomatic officials based in the Somalia Unit of the U.S. 
Embassy in Nairobi, Kenya conduct U.S. bilateral engagement with 
Somalia. Security conditions permitting, U.S. officials regularly 
travel to a secure compound at Mogadishu International Airport to meet 
with Somali, international, and civil society actors. They also travel 
periodically to other locations in Somalia. The Department currently 
expends $1,378,600 to cover lodging, food, and other life support 
expenses for Chief of Mission personnel visiting Mogadishu 
International Airport. Diplomatic Security incurs expenses of less than 
$300,000 annually for security support to U.S. Government personnel in 
Mogadishu. The current budget is sufficient to maintain this level of 
engagement.
    A capable Somali civilian police force is critical to ensuring 
recent territorial and operational gains against al-Shabaab and to 
extend basic rule of law structures throughout the country. U.S. 
Department of State programs are building the capacity of the Somalia 
National Police Force to investigate serious crimes and support police 
deployments to recaptured areas. We are in the process of awarding an 
$8.5 million training and mentoring cooperative agreement to initiate 
this 4-year program, which will begin in the spring of 2015. In 
addition to police capacity building efforts, we support criminal 
justice sector programming that focuses on improving the knowledge and 
skills of lawyers in the areas of women's and juvenile justice, 
counterterrorism legislation, and procedural law.
                                 ______
                                 
Questions Submitted by Senator Lindsey Graham for Senator Shelly Moore 
                                 Capito
    Question. Please explain how the Department justifies proceeding 
with release of the Foreign Affairs Security Training Center (FASTC) 
revised environmental impact statement (EIS) without prior notification 
to Congress in direct contravention of the legislative provision in 
Public Law 113-235.
    Answer. Regarding the language in the Joint Explanatory Statement 
accompanying the Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2015 (Division J, Public Law 113-235), all 
funds currently being expended towards FASTC, including the 
Supplemental Environmental Impact statement were obligated for the 
FASTC project in prior fiscal years, in accordance with applicable 
congressional notification requirements. Expenditures of funds 
previously obligated for FASTC are not subject to further notification. 
Future obligations for FASTC will be in accordance with applicable 
congressional notification requirements.
    Question. The most recent cost projections for development and 
construction of the FASTC are nearly $500 million. Please provide a 
detailed accounting of the total expenditures to date, and identify the 
accounts from which those funds were drawn.
    Answer. The total project costs going forward for the Foreign 
Affairs Security Training Center (FASTC) are $413 million, of which 
some funding has already been appropriated. Of the money appropriated 
to date, the Department of State has obligated $135.5 million for 
FASTC, of which $70 million was from Diplomatic and Consular Programs 
(D&CP) appropriations provided in the American Recovery and 
Reinvestment Act and $65.5 million was from prior year D&CP 
appropriations for the Worldwide Security Program. All funds have been 
obligated on a reimbursable work order to the General Services 
Administration. As of the date of the hearing, $17 million has been 
expended.
    Question. The scope of the proposed project at the Foreign Affairs 
Security Training Center (FASTC) has been significantly reduced. It is 
our understanding that 85-90 percent of the ``hard skills'' training is 
currently being performed at Summit Point. Please specifically identify 
training services and facilities that will be included at the proposed 
facility that are not currently available, or could not be expanded 
more cost effectively, at Summit Point.
    Answer. A review of Diplomatic Security (DS) expenditures for 
contract training facilities in the mid-Atlantic region for fiscal year 
2014 indicates that only 38 percent of available funds were utilized 
for training at Summit Point. DS believes this is an accurate 
proportion of the amount of training that took place at Bill Scott 
Raceway (BSR), located in Summit Point, West Virginia.
    A primary goal of FASTC is to consolidate U.S.-based advanced 
tactical training at one site to achieve operational efficiencies. The 
space to be utilized at Pickett to consolidate DS tactical training is 
approximately 1,400 acres. BSR has a maximum land size of approximately 
750 acres.
    FASTC will be a purpose-built, fully integrated facility capable of 
24/7 training operations. Fort Pickett has no night time ``quiet 
hours'' training restrictions or other noise abatement issues. The Fort 
Pickett site will enable DS to have full scheduling control of three 
driving tracks on a 24/7 basis, with no concerns about other USG or 
commercial clients; long distance firearms ranges up to 1,000 meters; a 
Mock Embassy approximately twice the size of the interim structure at 
Summit Point; three separate explosives ranges that fully meet Federal 
safety requirements; access to an adjacent military/civilian operating 
air field capable of taking military aircraft and DOS chartered 
aircraft; a live fire shoot house; a half mile long explosives 
simulations alley; a large, purpose-built urban training area; and 
other advantages that enhance DS training.
    Question. The Department claims the proposed new facility for the 
Foreign Affairs Security Training Center (FASTC) will enable 
consolidation of the current 11 sites where these training activities 
are conducted. Please provide a list of the facilities that will be 
closed and/or contracts terminated, the kinds of training currently 
conducted at each of the existing facilities, and the anticipated dates 
when services at those facilities will be terminated. Explain why these 
functions could not be carried out at Summit Point, West Virginia. 
Please provide the estimated cost to expand the facilities at Summit 
Point to accommodate further consolidation of the remaining hard skills 
training from other locations.
    Answer. Diplomatic Security currently utilizes contracts with or 
pays for the use of 11 sites to conduct its standard hard-skills 
training, and plans to consolidate the activities of 10 of them at 
FASTC at Fort Pickett. These sites cumulatively account for several 
dozen firearms ranges of varying lengths, multiple explosive training 
pads and simulation areas, various specialized tactical training 
facilities such as live fire shoot houses, etc. Taken together, their 
total capacity far exceeds what Summit Point, West Virginia by itself 
can provide. The sites and training conducted at them are listed below. 
DS would continue to use only Venue 1 below, while Venues 2-11 will be 
gradually phased out during the 2017-2019 period.

     1.  Federal Law Enforcement Training Center Cheltenham, 
Cheltenham, Maryland

           An indoor range complex utilized for standard firearms re-
        qualifications for agents in the Washington, DC area. DS plans 
        to continue to use this facility on a limited basis for re-
        qualifications.

     2.  Marine Corps Base Quantico, Virginia

           DS utilizes Marine Corps Base Quantico long distance 
        firearms ranges. The longest firearms range at Summit Point is 
        100 meters. DS has requirements that extend out to 800+ meters.

     3.  Interim Training Facility/Bill Scott Raceway, Summit Point, 
West Virginia

           DS conduct multiple types of training at this site, 
        including firearms, driving, explosives, fire as a weapon, 
        first aid (responder), defensive tactics, Embassy defense 
        scenarios, tactical training in urban environments and room 
        clearing. Anti-Terrorism Assistance (ATA) Quick Reaction Force 
        training will commence in June 2015. Summit Point also has 
        noise abatement and night training rules that impede 24/7 
        training. DS conducts night training (currently at different 
        venues) between 190-200 nights per year depending upon course 
        schedules. Also, upon consolidation, DS will require the use of 
        three high-speed driving tracks on an exclusive basis simply to 
        meet its own training needs.

     4.  U.S. Training Center (Academi), Moyock, North Carolina

           DS/ATA utilizes this site for crisis response training (SWAT 
        type training) for foreign nationals. The site has multiple 
        ranges, driving track, live fire shoot houses (not present at 
        Summit Point), several urban training areas and explosive 
        training areas.

     5.  O'Gara Training Center, Montross, Virginia

           DS/ATA utilizes this site for explosives training for 
        foreign nationals. Additionally, and as with Academi, the site 
        has multiple ranges, a live fire shoot house, driving track, a 
        large tactical urban training area and multiple explosive 
        training areas.

     6.  Alcohol, Tobacco, Firearms and Explosives (ATF) Huntsville, 
Alabama

           DS Regional Security Officer students take Post-Blast 
        Investigative training at this site. Summit Point has one blast 
        range. Cumulative DS explosives training will require a minimum 
        of three, with Federal safety standards incorporated in their 
        construction and operation.

     7.  Mid-South Institute of Self-Defense Shooting, Memphis, 
Tennessee

           DS Office of Mobile Security Deployments (MSD) utilizes this 
        site for advanced firearms training. It has specialized 
        tactical shooting venues not present at Summit Point.

     8.  Combat Shooting and Tactics, Nacogdoches, Texas

           The office of Mobile Security Deployments (MSD) utilizes 
        this facility for multiple firearms and tactical training. It 
        possesses ranges up to 800 yards and a range available to shoot 
        from vehicles. As noted, Summit Point's longest range is 100 
        meters, and the capability to shoot from moving vehicles does 
        not exist.

     9.  Virginia Ki Society, Fairfax, Virginia

           A gym used on an intermittent basis by DS/MSD for defensive 
        tactics training. The current mat rooms at the DS Interim 
        Training Facility at Summit Point cannot accommodate 
        consolidated training of MSD and ATA.

    10.  Panthera Training Center, Moorefield, West Virginia

           DS/MSD currently conducts most of their specialized training 
        at Panthera. The facility has five flat ranges (50 yards to 800 
        yards), a live fire shoot house, a driving track, off-road 
        course, urban training area, and three simunition training 
        ``houses.'' Summit Point does not have the ranges, shoot house 
        or quantity of simunition training areas.

    11.  Fort AP Hill, Virginia

           DS coordinates with the Asymmetric Warfare Group (AWG) for 
        use of their urban training area to conduct joint DOD-DS 
        CAPSTONE exercises (a 3 day 24/7 exercise conducted 
        approximately 5 times per year as the culmination of the 10 
        week High Threat Operations course). This exercise requires 
        night training and generates loud noise due to night time 
        helicopter operations and the use of loud training munitions 
        such as artillery simulators and blanks fired from belt-fed 
        weapons such as machine guns.
    DS is currently developing a transition plan to move hard-skills 
training from Venues 2-11 to Fort Pickett as the several construction 
phases are completed.
    The property at Summit Point is privately owned. DS is not able to 
provide cost estimates for expansion for a site that is not owned by 
the United States Government.
    Question. The revised Environmental Impact Study regarding the 
Foreign Affairs Security Training Center (FASTC) estimates a needed 
training capacity of 8,000-10,000 trainees per year. It is our 
understanding that sufficient training capacity exists at Summit Point 
to accommodate this growth. Please verify.
    Answer. As part of the original 2009 site selection process, over 
30 sites were reviewed by the General Services Administration (GSA) and 
the Department of State, including Bill Scott Raceway (BSR), and it was 
determined that BSR did not meet the Department of State's hard-skills 
security training needs. The Department of State has hard-skills venue 
requirements that are not present at Summit Point in West Virginia, nor 
is it realistic to expect that Summit Point can almost double its size 
(about 750 acres) to match the approximate size of the FASTC site at 
Fort Pickett (about 1,400 acres). Further, issues remain at BSR 
concerning the exclusive availability of track/range use, noise 
abatement, night training and overall capacity to meet the Department 
of State's hard-skills security consolidated training needs.
    Question. Please provide the estimated annual operating costs for 
the proposed Foreign Affairs Security Training Center (FASTC) facility.
    Answer. The Department has analyzed the operating expenses and has 
determined that fiscal efficiency can be achieved by consolidating 
multiple, disparate, leased or contracted training facilities into a 
single, purpose-built facility that satisfies the agency's need for 
expanded high-threat training capability and capacity. The projected 
operating cost for FASTC is $59 million per year. By consolidating 
existing hard-skills operations into a single, purpose built, FASTC 
facility, the Department can reduce total annual hard-skills training 
operating expenses by approximately $11 million, while nearly doubling 
training capacity from 5,000 to 9,200. Not only does consolidation 
reduce per-student operating costs by over $7,500 per student, it also 
allows the Department to provide critical security training to a larger 
population.
    Question. The proposed site for Foreign Affairs Security Training 
Center (FASTC) is at least a 4-hour drive from the DC area, whereas the 
current contract facility at Summit Point is approximately an hour away 
from the Bureau of Diplomatic Security headquarters. Please provide an 
estimate of the increased costs for trainee travel, per diem and lost 
productivity that would result from a more remote location.
    Answer. The future location for the Foreign Affairs Security 
Training Center (FASTC) will be located in Blackstone, Virginia, a 2\1/
2\ hour drive from the State Department area. While this drive 
marginally exceeds the hour and a half drive to Summit Point in West 
Virginia, the Department will be able to achieve cost efficiencies by 
consolidating existing hard-skills operations from 11 separate 
locations into a single, purpose built, FASTC facility in Blackstone, 
Virginia. This drive is also a much shorter and less expensive than the 
two full travel days and flights that would be required to utilize 
FLETC in Georgia. Through consolidation, the Department can reduce 
total annual operating expenses by approximately $11 million, while 
nearly doubling training capacity from 5,000 to 9,200. Not only does 
consolidation reduce per-student operating costs by over $7,500 per 
student, it also allows the Department to provide critical security 
training to a larger population. Any increase in the costs of buses or 
possibly an extra meal by going to Blackstone will be offset by the 
overall savings.
                                 ______
                                 
 Questions Submitted by Senator Lindsey Graham for Senator John Cornyn
    Question. Mr. Secretary, the 1944 treaty (``Utilization of Waters 
of the Colorado and Tijuana Rivers and of the Rio Grande'') governs 
water sharing between the United States and Mexico. Specifically, 
Article 4 provides that Mexico shall deliver to the United States from 
the designated tributaries of the Rio Grande, not less than 350,000 
acre-feet annually as an average amount in cycles of five consecutive 
years. The treaty provides one set of circumstances under which Mexico 
may be allowed to deliver less than the minimum required amount: ``In 
the event of extraordinary drought or serious accident to the hydraulic 
system on the measures Mexican tributaries, making it difficult for 
Mexico to make available the run-off of 350,000 acre-feet annually . . 
. '' Throughout Article 4, the language of the treaty makes explicit 
reference to 350,000 acre-feet as an annual delivery requirement. 
However, the practice of the U.S. Section of the International Boundary 
and Water Commission (USIBWC) and the State Department is to treat this 
amount as both a delivery ceiling, rather than a floor, and to provide 
wide latitude to Mexico to under-deliver even in years without 
extraordinary drought or hydraulic system damage.
  --Please provide the subcommittee with a fair and thorough reading of 
        Article 4, specifically addressing this apparent contradiction 
        between plain language and current practice.
  --Is it the position of the State Department that Mexico should be 
        allowed to end both year-4, and the overall current 5-year 
        cycle, in a deficit to the United States, even if extraordinary 
        circumstances have not existed in Mexico's portion of the basin 
        since 2012?
  --Assume that during a future 5-year cycle, Mexico does not 
        experience extraordinary drought or an accident to the 
        hydraulic system. Would the Department still allow Mexico to 
        carry a deficit into the next 5-year cycle? If so, how does 
        that represent an equitable distribution of water? If not, what 
        steps would the State Department be willing to take to ensure 
        compliance within the 5-year cycle and prevent further harm to 
        U.S. stakeholders?
    Answer. Mexico's water delivery obligations related to the waters 
of the Rio Grande are spelled out plainly in Article 4 of the 1944 
Water Treaty. Article 4, paragraph B, subsection (c) of the treaty 
allots to the United States, among other waters, ``one-third of the 
flow reaching the main channel of the Rio Grande [from certain 
designated tributaries], provided that this third shall not be less, as 
an average amount in cycles of 5 consecutive years, than 350,000 acre-
feet (431,721,000 cubic meters) annually.'' Mexico's water delivery 
requirement on the Rio Grande is therefore one-third of the entire 
measured flow from those tributaries, but in any case not less than the 
average annual amount, calculated on a 5-year cycle, of 350,000 acre-
feet. The U.S. Section of the International Boundary and Water 
Commission's (USIBWC's) and the Department of State's interpretation of 
these provisions is consistent with the terms of the treaty and has not 
changed.
    Subsection (d) provides for a remedy in situations where at the end 
of the 5-year cycle Mexico has failed to provide a total amount that 
averages out to 350,000 acre-feet per annum (1,750,000 acre-feet). 
Subsection (d) states: ``In the event of extraordinary drought or 
serious accident to the hydraulic systems on the measured Mexican 
tributaries, making it difficult for Mexico to make available the run-
off of 350,000 acre-feet (431,721,000 cubic meters) annually, allotted 
in subparagraph (c) of paragraph B of this Article to the United States 
as the minimum contribution from the aforesaid Mexican tributaries, any 
deficiencies existing at the end of the aforesaid 5-year cycle shall be 
made up in the following 5-year cycle with water from the said measured 
tributaries.'' Thus, the treaty provides that Mexico must make up for 
any deficiency in total deliveries over one 5-year cycle in the next 5-
year cycle.
    The Department and the USIBWC are acutely aware of the impact 
drought conditions and delivery shortages in the Rio Grande basin have 
had on water users in Texas. The Department and the USIBWC will 
continue to work closely with the Government of Mexico and the Mexican 
Section of the IBWC to ensure that future deliveries not only comply 
with Mexico's obligations under the treaty but also are carried out in 
such a way as to provide as regular and consistent a flow as is 
practicable.
    Question. Mr. Secretary, in a recent report to this subcommittee, 
required by the Consolidated and Further Continuing Appropriations Act, 
2015, the State Department cited the adoption of new analytical 
software by the Mexican Section of the IBWC and CONAGUA, Mexico's 
National Water Commission, as an important achievement in 2014, reached 
only after dedication of substantial staff time to the matter.
    Please explain how this software adoption milestone will be used 
to: commit Mexico to also adopt a model informed by software data on 
naturalized flows; provide specific commitments to the U.S. based on 
modeling results; and yield additional water to the United States.
    Answer. Reliance on a common analytical framework will assist in 
the achievement of mutual understanding of the complex factors 
affecting the hydrology of the Rio Grande basin. With such an 
understanding in hand, the United States and Mexico will have a common 
frame of reference for addressing water supply questions in the basin, 
including means for achieving enhanced water deliveries, the adoption 
of measures to avoid deficits in the future, and the elimination of 
Mexico's current accrued water deficit.
    Question. The report states that ``Mexican officials have assured 
USIBWC and the U.S. Embassy in Mexico City that the Government of 
Mexico intends to institute new basin-wide regulations in 2015 that 
would include water allocations for the United States.'' U.S. 
stakeholders have seen many similar ``expressed intention[s]'' from 
Mexico prove hollow in the past--what specific written or formal 
commitments has the Department received that lead you to believe that 
this time is any different? Please provide such documentation to the 
subcommittee, as appropriate.
    Answer. Mexico's assurances are part of its diplomatic and 
technical dialogue with the Department and USIBWC as we pursue long-
term improvements in water deliveries in the Rio Grande.
                                 ______
                                 

                          SUBCOMMITTEE RECESS

    Senator Graham. The subcommittee stands in recess. Thank 
you very much.
    [Whereupon, at 12:30 p.m., Tuesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
